No. ______

In the Supreme Court of the United States
PLANNED PARENTHOOD CENTER FOR CHOICE, et al.,
Petitioners,
v.
GREG ABBOTT, in his official capacity as
Governor of Texas, et al.,
Respondents.
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Fifth Circuit
APPENDIX TO THE
PETITION FOR WRIT OF CERTIORARI
JENNIFER SANDMAN
Planned Parenthood
Federation of America
123 William St., 9th Fl.
New York, NY 10038
STEPHANIE TOTI
RUPALI SHARMA
Lawyering Project
25 Broadway, 9th Floor
New York, NY 10004
PATRICK J. O’CONNELL
Law Offices of Patrick J.
O’Connell PLLC
5926 Balcones Dr., Ste. 220
Austin, TX 78731

JULIE A. MURRAY
Counsel of Record
HANNAH SWANSON
Planned Parenthood
Federation of America
1110 Vermont Ave., NW
Ste. 300
Washington, DC 20005
(202) 973-4800
julie.murray@ppfa.org
MOLLY DUANE
RABIA MUQADDAM
Center for Reproductive
Rights
199 Water St., 22nd Fl.
New York, NY 10038

Counsel for Petitioners
September 2020

TABLE OF APPENDICES
Appendix A
First Mandamus Order, In re Abbott, No. 2050264 (5th Cir. Apr. 7, 2020) .............................. 1a
Appendix B
Revised Second Mandamus Order, In re Abbott,
No. 20-50296 (5th Cir. Apr. 20, 2020) ............... 60a
Appendix C
Order Granting First Temporary Restraining
Order, Planned Parenthood Center for Choice v.
Abbott, No. A-20-CV-323-LY (W.D. Tex. Mar. 30,
2020)..................................................................140a
Appendix D
Order Administratively Staying First Temporary Restraining Order, In re Abbott, No. 2050264 (5th Cir. Mar. 31, 2020) ........................ 151a
Appendix E
Order Granting Second Temporary Restraining
Order, Planned Parenthood Center for Choice v.
Abbott, No. A-20-CV-323-LY (W.D. Tex. Apr. 9,
2020)..................................................................154a
Appendix F
Order Administratively Staying Second Temporary Restraining Order in Part, In re Abbott, No.
20-50296 (5th Cir. Apr. 10, 2020) ....................172a

ii

Appendix G
Order Denying Motion to Lift Administrative
Stay of Second Temporary Restraining Order, In
re Abbott, No. 20-50296 (5th Cir. Apr. 11,
2020)..................................................................177a
Appendix H
Order Denying in Part Motion to Stay Second
Temporary Restraining Order, In re Abbott, No.
20-50296 (5th Cir. Apr. 13, 2020) ....................182a
Appendix I
Order Extending Second Temporary Restraining Order, Planned Parenthood Center for
Choice v. Abbott, No. A-20-CV-323-LY (W.D.
Tex. Apr. 14, 2020) ...........................................189a
Appendix J
Order Vacating Second Temporary Restraining
Order in Part, Planned Parenthood Center for
Choice v. Abbott, No. A-20-CV-323-LY (W.D.
Tex. Apr. 21, 2020) ...........................................193a
Appendix K
Order Denying Motion to Recall and Stay the
First Mandate, In re Abbott, No. 20-50264 (5th
Cir. Apr. 22, 2020) ............................................197a
Appendix L
Order Denying Motion to Recall and Stay the
Second Mandate, In re Abbott, No. 20-50296 (5th
Cir. Apr. 22, 2020) ............................................199a

iii

Appendix M
Executive Order GA-09 ....................................201a
Statement of Attorney General Paxton ...........205a
Emergency Amendment to 22 Texas Admin.
Code § 187.57 (Apr. 4, 2020) ............................207a
U.S. Const. amend. XIV, § 1.............................210a

1a

Appendix A
IN THE UNITED STATES COURT OF
APPEALS FOR THE FIFTH CIRCUIT
____________
No. 20-50264
____________
In re: GREG ABBOTT, in his official capacity as
Governor of Texas; KEN PAXTON, in his official
capacity as Attorney General of Texas; PHIL
WILSON, in his official capacity as Acting Executive
Commissioner of the Texas Health and Human
Services Commission; STEPHEN BRINT CARLTON,
in his official capacity as Executive Director of the
Texas Medical Board; KATHERINE A. THOMAS, in
her official capacity as the Executive Director of the
Texas Board of Nursing,
Petitioners
____________
Petition for a Writ of Mandamus to the United States
District Court for the Western District of Texas
____________
Filed: April 7, 2020
____________
Before DENNIS, ELROD, and DUNCAN,
Circuit Judges.
____________

2a

STUART KYLE DUNCAN, Circuit Judge:
To preserve critical medical resources during the
escalating COVID-19 pandemic, on March 22, 2020,
the Governor of Texas issued executive order GA-09,
which postpones non-essential surgeries and
procedures until 11:59 p.m. on April 21, 2020. Reading
GA-09 as an “outright ban” on pre-viability abortions,
on March 30 the district court issued a temporary
restraining order (“TRO”) against GA-09 as applied to
abortion procedures. At the request of Texas officials,
we temporarily stayed the TRO while considering
their petition for a writ of mandamus directing
vacatur of the TRO. We now grant the writ.
The “drastic and extraordinary” remedy of
mandamus is warranted for several reasons. In re
JPMorgan Chase & Co., 916 F.3d 494, 499 (5th Cir.
2019) (citation omitted).
First, the district court ignored the framework
governing emergency public health measures like GA09. See Jacobson v. Commonwealth of Massachusetts,
197 U.S. 11 (1905). “[U]nder the pressure of great
dangers,” constitutional rights may be reasonably
restricted “as the safety of the general public may
demand.” Id. at 29. That settled rule allows the state
to restrict, for example, one’s right to peaceably
assemble, to publicly worship, to travel, and even to
leave one’s home. The right to abortion is no exception.
See Roe v. Wade, 410 U.S. 113, 154 (1973) (citing
Jacobson); Planned Parenthood v. Casey, 505 U.S.
833, 857 (1992) (same); Gonzales v. Carhart, 550 U.S.
124, 163 (2007) (same).1
1 Our dissenting colleague suggests our decision “follows not
because of the law or facts, but because of the subject matter of

3a

Second, the district court’s result was patently
wrong. Instead of applying Jacobson, the court
wrongly declared GA-09 an “outright ban” on previability abortions and exempted all abortion
procedures from its scope. The court also failed to
apply Casey’s undue-burden analysis and thus failed
to balance GA-09’s temporary burdens on abortion
against its benefits in thwarting a public health crisis.
Third, the district court usurped the state’s
authority to craft emergency health measures.
Instead, the court substituted its own view of the
efficacy of applying GA-09 to abortion. But “[i]t is no
part of the function of a court” to decide which
measures are “likely to be the most effective for the
protection of the public against disease.” Jacobson,
197 U.S. at 30.
In sum, given the extraordinary nature of these
errors, the escalating spread of COVID-19, and the
state’s critical interest in protecting the public health,
we find the requirements for issuing the writ satisfied.
See Cheney v. U.S. Dist. Court for Dist. of Columbia,
542 U.S. 367, 380–81 (2004).
We emphasize the limits of our decision, which is
based only on the record before us. The district court
has scheduled a telephonic preliminary injunction
hearing for April 13, 2020, when all parties will
this case.” Dissent at 3. That is wrong. As explained below, infra
III.A.1, Jacobson governs a state’s emergency restriction of any
individual right, not only the right to abortion. The same analysis
would apply, for example, to an emergency restriction on
gathering in large groups for public worship during an epidemic.
See Prince v. Massachusetts, 321 U.S. 158, 166–67 (1944) (“The
right to practice religion freely does not include liberty to expose
the community . . . to communicable disease.”).

4a

presumably have the chance to present evidence on
the validity of applying GA-09 in specific
circumstances. The district court can then make
targeted findings, based on competent evidence, about
the effects of GA-09 on abortion access. Our overriding
consideration here, however, is that those proceedings
adhere to the controlling standards, established by the
Supreme Court over a century ago, for adjudging the
validity of emergency measures like the one before us.
Accordingly, we grant a writ of mandamus
directing the district court to vacate its TRO of March
30, 2020.
I.
As all are painfully aware, our nation faces a
public health emergency caused by the exponential
spread of COVID-19, the respiratory disease caused
by the novel coronavirus SARS-CoV-2. As of April 6,
2020, over 330,000 cases have been confirmed across
the United States, with over 8,900 dead.2 The virus is
“spreading very easily and sustainably”3 throughout
the country, with cases confirmed in all fifty states,
the District of Columbia, and several territories.4 Over
the past two weeks, confirmed cases in the United
2 Centers for Disease Control and Prevention, Coronavirus
Disease 2019 (COVID-19): Cases in the U.S., https://www.cdc.
gov/coronavirus/2019-ncov/cases-updates/cases-in-us.html (last
visited April 6, 2020).
3 Centers for Disease Control and Prevention, Coronavirus
Disease 2019 (COVID-19): How COVID-19 Spreads,
https://www.cdc.gov/coronavirus/2019-ncov/prevent-gettingsick/how-covid-spreads.html (last visited April 6, 2020).
4 Centers for Disease Control and Prevention, Coronavirus
Disease 2019 (COVID-19): Cases in the U.S., https://
www.cdc.gov/coronavirus/2019-ncov/cases-updates/cases-in-us.
html (last visited April 6, 2020).

5a

States have increased by over 2,000%.5 Federal
projections estimate that, even with mitigation
efforts, between 100,000 and 240,000 people in the
United States could die.6 In Texas, the virus has
spread rapidly over the past two weeks and is
predicted to continue spreading exponentially in the
coming days and weeks.
On March 13, 2020, the President declared a
national state of emergency, and the Governor of
Texas declared a state of disaster.7 Six days later, the
Texas Health and Human Services Executive
Commissioner declared a public health disaster
because the virus “poses a high risk of death to a large
number of people and creates a substantial risk of
public exposure because of the disease’s method of
transmission and evidence that there is community
spread in Texas.”8 As the district court in this case
acknowledged, “Texas faces it[s] worst public health
emergency in over a century.”

5 Id. On March 19, 2020, the CDC reports that there were
15,219 diagnosed cases in the United States, excluding cases
among persons repatriated to the United States from China and
Japan. Id. By April 6, 2020, the number of cases reported has
risen to 330,891. Id.
6 Rick Noack, et al., White House task force projects 100,000
to 240,000 deaths in U.S., even with mitigation efforts,
WASHINGTON POST (Mar. 31, 2020), https://www.washington
post.com/world/2020/03/31/coronavirus-latest-news/.
7 See Proc. No. 9994, 85 Fed. Reg. 15,337, 2020 WL 1272563
(Mar. 13, 2020); Tex. Proc. of Mar. 13, 2020, https://gov.texas.gov/
uploads/files/press/DISASTER_covid19_disaster_proclamation_
IMAGE_03-13-2020.pdf.
8 Tex. Proc. of Mar. 19, 2020, https://gov.texas.gov/
uploads/files/press/DECLARATION_of_public_health_disaster_
Dr_Hellerstedt_03-19-2020.pdf.

6a

The surge of COVID-19 cases causes mounting
strains on healthcare systems, including critical
shortages of doctors, nurses, hospital beds, medical
equipment, and personal protective equipment
(“PPE”).9 The executive order at issue here, GA-09,
responds to this crisis. Issued by the Governor of
Texas on March 22, 2020, GA-09 applies to all licensed
healthcare professionals and facilities in Texas and
requires that they:
postpone all surgeries and procedures that are
not immediately medically necessary to
correct a serious medical condition of, or to
preserve the life of, a patient who without
immediate performance of the surgery or
procedure would be at risk for serious adverse
medical consequences or death, as determined
by the patient’s physician.10
Importantly, the order “shall not apply to any
procedure that, if performed in accordance with the
commonly accepted standard of clinical practice,
would not deplete the hospital capacity or the personal
protective equipment needed to cope with the COVID-

9 Centers for Disease Control and Prevention, Coronavirus
Disease 2019 (COVID-19): Strategies for Optimizing the Supply
of Facemasks, https://www.cdc.gov/coronavirus/2019-ncov/hcp/
ppe-strategy/face-masks.html (last visited April 6, 2020); Megan
L. Ranney, M.D., M.P.H., et al., Critical Supply Sources—The
Need for Ventilators and Personal Protective Equipment during
the COVID-19 Pandemic, NEW ENG. J. OF MED. (Mar. 25, 2020),
https://www.nejm.org/doi/full/10.1056/NEJMp2006141?query=fe
atured_coronavirus.
10
Tex. Exec. Order No. GA-09 (Mar. 22, 2020),
https://gov.texas.gov/uploads/files/press/EO-GA_09_COVID-19_
hospital_capacity_IMAGE_03-22-2020.pdf.

7a

19 disaster.”11 Failure to comply with the order may
result in administrative or criminal penalties,
including “a fine not to exceed $1,000, confinement in
jail for a term not to exceed 180 days, or both.”12 The
order automatically expires after 11:59 p.m. on April
21, 2020, but can be modified, amended, or
superseded.
On March 25, 2020, various Texas abortion
providers13 (“Respondents”) filed suit in federal
district court against multiple Texas officials,
including the Governor, Attorney General, three state
health officials, and nine District Attorneys
(“Petitioners”14). Respondents brought substantive
due process and equal protection claims and sought to
enjoin enforcement of GA-09, as well as the Texas
11
Tex. Exec. Order No. GA-09 (Mar. 22, 2020),
https://gov.texas.gov/uploads/files/press/EO-GA_09_COVID-19_
hospital_capacity_IMAGE_03-22-2020.pdf.
12
Tex. Exec. Order No. GA-09 (Mar. 22, 2020),
https://gov.texas.gov/uploads/files/press/EO-GA_09_COVID-19_
hospital_capacity_IMAGE_03-22-2020.pdf (citing Tex. Gov’t
Code § 418.173); see also 25 Tex. Admin. Code § 139.32(b)(6); 25
Tex. Admin. Code § 135.24(a)(1)(F); 22 Tex. Admin. Code
§ 185.17(11); 22 Tex. Admin. Code § 185.57(c) (Mar. 23, 2020);
Tex. Occ. Code § 164.051(a)(2); Tex. Occ. Code § 164.051(a)(6);
Tex. Occ. Code § 301.452(b)(3); Tex. Occ. Code § 301.452(b)(10).
13
Plaintiffs are Texas abortion providers Planned
Parenthood Center for Choice, Planned Parenthood of Greater
Texas Surgical Health Services, Planned Parenthood South
Texas Surgical Center, Whole Woman’s Health, Whole Woman’s
Health Alliance, Southwestern Women’s Surgery Center,
Brookside Women’s Medical Center PA d/b/a Brookside Women’s
Health Center and Austin Women’s Health Center, and Robin
Wallace, M.D. Plaintiffs purport to sue on behalf of themselves,
their staff, physicians, nurses, and patients.
14 Petitioners here do not include the defendant District
Attorneys.

8a

Medical Board’s Emergency Rule implementing the
order. See 22 Tex. Admin. Code § 187.57(c) (Mar. 23,
2020). Simultaneously, Respondents sought a
temporary restraining order (“TRO”) or a preliminary
injunction, based only on their due process claim.
Following a March 26 conference call, the district
court gave Petitioners until March 30 at 9:00 a.m. to
respond, which they did. Later that same day, the
district court entered a TRO.
In the TRO, the district court agreed that “Texas
faces it[s] worst public health emergency in over a
century,” and also that “[GA-09], as written, does not
exceed the governor’s power to deal with the
emergency.” Nonetheless, the court interpreted GA-09
as “effectively banning all abortions before viability.”
The court reasoned that, because “no interest” can
justify such an “outright ban” on pre-viability
abortions, GA-09 contravenes Supreme Court and
Fifth Circuit precedent. The TRO therefore prohibits
all defendants, including Petitioners, from enforcing
GA-09 and the emergency rule “as applied to
medication abortions and procedural15 abortions.”
15 “Procedural” abortions, the term used by Respondents and
the district court, refers to what are also called “surgical”
abortions. See, e.g., Stenberg v. Carhart, 530 U.S. 914, 924 (2000)
(citing M. Paul et al., A Clinician’s Guide to Medical and Surgical
Abortion (1999)); Gonzales v. Carhart, 550 U.S. 124, 175 (2007)
(Ginsburg, J., dissenting) (referring to “surgical abortions”)
(quoting Carhart v. Ashcroft, 331 F.Supp.2d 805, 1011 (D. Neb.
2004), aff’d, 413 F.3d 791 (8th Cir. 2005)); Planned Parenthood
v. Casey, 505 U.S. 833, 969 (1992) (Rehnquist, J., concurring in
the judgment in part and dissenting in part) (referring to “any
other surgical procedure except abortion”) (quoting Webster v.
Reproductive Health Servs., 492 U.S. 490, 517 (1989) (plurality
opinion)); see also, e.g., Br. for Petitioners at 33 n.64, Planned
Parenthood v. Casey, 505 U.S. 833 (1992) (Nos. 91-744, 91-902),

9a

App. 267–68, 270.16
On the evening of March 30, 2020, Petitioners
filed a petition for writ of mandamus in our court,
requesting that we direct the district court to vacate
the TRO. Petitioners simultaneously sought an
emergency stay of the TRO, as well as a temporary
administrative stay, while the court considered their
request. On March 31, 2020, we temporarily stayed
the TRO and set an expedited briefing schedule.
II.
Federal courts “may issue all writs necessary or
appropriate in aid of their respective jurisdictions and
agreeable to the usages and principles of law.” 28
U.S.C. § 1651(a). That includes the writ of mandamus
sought by Petitioners. See Cheney, 542 U.S. at 380; In
re Gee, 941 F.3d 153, 157 (5th Cir. 2019). Mandamus
is proper only in “exceptional circumstances
amounting to a judicial usurpation of power or a clear
abuse of discretion.” In re Volkswagen of Am., Inc., 545
F.3d 304, 309 (5th Cir. 2008) (en banc) (quoting
Cheney, 542 U.S. at 380). Before prescribing this
strong medicine, “we ask (1) whether the petitioner
has demonstrated that it has no other adequate
means to attain the relief it desires; (2) whether the
petitioner’s right to issuance of the writ is clear and
indisputable; and (3) whether we, in the exercise of
1992 WL 12006398 (referring to “induced abortion” as a “surgical
procedure[ ]”).
16 The TRO is scheduled to expire at 3:00 p.m. on April 13,
2020. The district court has scheduled a telephonic hearing on
Plaintiffs’ request for a preliminary injunction for 9:30 a.m. that
same day. App. 271. Our references to “App.” throughout this
opinion are to the appendix to the mandamus petition. See ECF
3 (5th Cir. No. 20-50264).

10a

our discretion, are satisfied that the writ is
appropriate under the circumstances.” In re Itron,
Inc., 883 F.3d 553, 567 (5th Cir. 2018) (quoting
Cheney, 542 U.S. at 380–81) (cleaned up). “These
hurdles, however demanding, are not insuperable.
They simply reserve the writ for really extraordinary
causes.” Gee, 941 F.3d at 158 (cleaned up). In such a
case, mandamus provides a “useful ‘safety valve[]’ for
promptly correcting serious errors.” Mohawk Indus.,
Inc. v. Carpenter, 558 U.S. 100, 111 (2009) (quoting
Digital Equipment Corp. v. Desktop Direct, Inc., 511
U.S. 863, 883 (1994)).
III.
Petitioners claim they satisfy all three mandamus
prongs and are therefore entitled to the writ. As to the
first prong, they argue mandamus is proper for
obtaining relief, even from a non-appealable TRO,
when the stakes are “extraordinarily time-sensitive.”
ECF 2 at 30–31. As to the second prong, Petitioners
contend the district court “clearly and indisputably
erred” by ruling that abortion is an absolute right
which cannot be curtailed even in the midst of a public
health emergency.17 Id. at 11–24. Finally, as to the
17 Alternatively under prong two, Petitioners assert that (1)
no justiciable controversy exists as to the Governor and Attorney
General because they lack authority to enforce GA-09, and (2)
Respondents lack third-party standing to sue on behalf of their
patients. We decline to grant relief on these grounds. First, quite
apart from the Governor and Attorney General, a justiciable
controversy exists as to the Petitioner health officials, who may
enforce the order’s administrative penalties. See, e.g., 22 Tex.
Admin. Code § 187.57(b). On remand, however, the district court
should consider whether the Eleventh Amendment requires
dismissal of the Governor or Attorney General because they lack
any “connection” to enforcing GA-09 under Ex parte Young, 209

11a

third prong, Petitioners argue mandamus is proper
because “[t]he longer [Respondents] are allowed to
perform elective procedures—consuming scarce PPE,
increasing hospitalizations, and potentially spreading
the virus to countless individuals—the longer it will
take to flatten the curve in Texas, meaning more
illnesses, more hospitalizations, and more deaths.” Id.
at 31. We address each prong in turn, beginning with
the second.
A.
We first address the second mandamus prong—
whether entitlement to the writ is “clear and
indisputable”—because it is central to our analysis.
See, e.g., Volkswagen, 545 F.3d at 311 (beginning with
second prong because it “captures the essence of the
disputed issue”). “In recognition of the extraordinary
nature of the writ, we require more than showing that
the court misinterpreted the law, misapplied it to the
facts, or otherwise engaged in an abuse of discretion.”
In re Lloyd’s Register N. Am., Inc., 780 F.3d 283, 290
(5th Cir. 2015). Rather, a petitioner has a clear and
indisputable right to the writ only when there has
been a “usurpation of judicial power” or “a clear abuse
of discretion that produces patently erroneous
results.” JPMorgan Chase, 916 F.3d at 500 (cleaned
U.S. 123 (1908). City of Austin v. Paxton, 943 F.3d 993, 999 (5th
Cir. 2019); see also Morris v. Livingston, 739 F.3d 740, 745–46
(5th Cir. 2014). Second, Respondents have standing to sue on
their own behalf because GA-09 “directly operates” against them.
Planned Parenthood of Cen. Mo. v. Danforth, 428 U.S. 52, 62
(1976) (cleaned up). We therefore need not consider at this time
whether Respondents may sue on behalf of their patients. We
note that the Supreme Court recently granted a certiorari
petition raising this third-party standing issue. See Russo v. June
Med. Servs., No. 18-1460.

12a

up); see also Gee, 941 F.3d at 159; Lloyd’s Register, 780
F.3d at 290. Usurpation of judicial power occurs when
courts act beyond their jurisdiction or fail to act when
they have a duty to do so. Will v. United States, 389
U.S. 90, 95 (1967). But it also occurs in other
situations. The Supreme Court has sanctioned use of
the writ “to restrain a lower court when its actions
would threaten the separation of powers by
‘embarrassing the executive arm of the Government,’
or result in the ‘intrusion by the federal judiciary on a
delicate area of federal-state relations.’” Cheney, 542
U.S. at 381 (citing Will, 389 U.S. at 95; Ex parte Peru,
318 U.S. 578, 588 (1943); Maryland v. Soper (No. 1),
270 U.S. 9 (1926)) (cleaned up).
We conclude Petitioners have shown “a clear and
indisputable right to issuance of the writ.”
Volkswagen, 545 F.3d at 311. In issuing the TRO, the
district court clearly abused its discretion by failing to
apply (or even acknowledge) the framework governing
emergency exercises of state authority during a public
health crisis, established over 100 years ago in
Jacobson v. Commonwealth of Massachusetts, 197
U.S. 11 (1905). This extraordinary error allowed the
district court to create a blanket exception for a
common medical procedure—abortion—that falls
squarely
within
Texas’s
generally-applicable
emergency measure issued in response to the COVID19 pandemic. This was a patently erroneous result. In
addition, the court usurped the power of the governing
state authority when it passed judgment on the
wisdom and efficacy of that emergency measure,
something squarely foreclosed by Jacobson.18
18 This case differs from Preterm-Cleveland v. Atty. Gen. of
Ohio, No. 20-3365, 2020 WL 1673310 (6th Cir. Apr. 6, 2020),

13a

1.
In Jacobson, the Supreme Court considered a
claim that the state’s compulsory vaccination law—
enacted amidst a growing smallpox epidemic in
Cambridge, Massachusetts—violated the defendant’s
Fourteenth Amendment right “to care for his own
body and health in such way as to him seems best.” Id.
at 26. The Court rejected this claim. Famously, it
explained that the “liberty secured by the Constitution
. . . does not import an absolute right in each person to
be, at all times and in all circumstances, wholly freed
from restraint.” Id. Rather, “a community has the
right to protect itself against an epidemic of disease
which threatens the safety of its members.” Id. at 27.
In describing a state’s police power to combat an
epidemic, the Court explained:
[I]n every well-ordered society charged with
the duty of conserving the safety of its
members the rights of the individual in
respect of his liberty may at times, under the
pressure of great dangers, be subjected to such
which declined to review a TRO against Ohio’s non-essentialsurgeries order. Ohio appealed on the basis that the TRO
“threaten[ed] to inflict irretrievable harms.” Id. at *1. Observing
the TRO was “narrowly tailored” and did not permit “blanket”
provision of abortions, the majority concluded that the TRO
would not inflict irreparable harms and thus that it lacked
jurisdiction over the appeal. Id. at *1–2. By contrast, here
Petitioners seek not appeal but mandamus, a drastic remedy that
we nonetheless find appropriate. Moreover, the TRO here is not
“narrowly tailored” but exempts all abortions from GA-09. The
TRO’s broad sweep also distinguishes this case from recent
district court decisions in Alabama and Oklahoma. See Robinson
v. Marshall, No. 2:19cv365-MHT, 2020 WL 1659700 (M.D. Ala.
Apr. 3, 2020); South Wind Women’s Center v. Stitt, No. CIV-20277-G, 2020 WL 1677094 (W.D. Okla. Apr. 6, 2020).

14a

restraint, to be enforced by reasonable
regulations, as the safety of the general public
may demand.
Id. at 29.
The Supreme Court has repeatedly acknowledged
this principle. See, e.g., Lawton v. Steele, 152 U.S. 133,
136 (1894) (recognizing that “the state may interfere
wherever the public interests demand it” and
“discretion is necessarily vested in the legislature to
determine, not only what the interests of the public
require, but what measures are necessary for the
protection of such interests”); Compagnie Francaise de
Navigation a Vapeur v. La. State Bd. of Health, 186
U.S. 380, 393 (1902) (upholding Louisiana’s right to
quarantine passengers aboard vessel—even where all
were healthy—against a Fourteenth Amendment
challenge); Prince v. Massachusetts, 321 U.S. 158,
166–67 (1944)(noting that “[t]he right to practice
religion freely does not include liberty to expose the
community . . . to communicable disease”); United
States v. Caltex, 344 U.S. 149, 154 (1952)
(acknowledging that “in times of imminent peril—
such as when fire threatened a whole community—the
sovereign could, with immunity, destroy the property
of a few that the property of many and the lives of
many more could be saved”).
To be sure, individual rights secured by the
Constitution do not disappear during a public health
crisis, but the Court plainly stated that rights could be
reasonably restricted during those times. Jacobson,
197 U.S. at 29. Importantly, the Court narrowly
described the scope of judicial authority to review
rights-claims under these circumstances: review is
“only” available

15a

if a statute purporting to have been enacted to
protect the public health, the public morals, or
the public safety, has no real or substantial
relation to those objects, or is, beyond all
question, a plain, palpable invasion of rights
secured by the fundamental law.
Id. at 31 (emphasis added). Elsewhere, the Court
similarly described this review as asking whether
power had been exercised in an “arbitrary,
unreasonable manner,” id. at 28, or through
“arbitrary and oppressive” regulations, id. at 38.
Accord Lawton, 152 U.S. at 137 (“To justify the state
in thus interposing its [police power] in behalf of the
public, it must appear [1] that the interests of the
public generally . . . require such interference; and [2]
that the means are reasonably necessary for the
accomplishment of the purpose, and not unduly
oppressive upon individuals.”).
Jacobson did emphasize, however, that even an
emergency mandate must include a medical exception
for “[e]xtreme cases.” 197 U.S. at 38. Thus, the
vaccination mandate could not have applied to an
adult where vaccination would exacerbate a
“particular condition of his health or body.” Id. at 38–
39. In such a case, the judiciary would be “competent
to interfere and protect the health and life of the
individual concerned.” Id. at 39. At the same time,
Jacobson disclaimed any judicial power to secondguess the state’s policy choices in crafting emergency
public health measures: “Smallpox being prevalent
and increasing at Cambridge, the court would usurp
the functions of another branch of government if it
adjudged, as matter of law, that the mode adopted
under the sanction of the state, to protect the people

16a

at large was arbitrary, and not justified by the
necessities of the case.” Jacobson, 197 U.S. at 28
(emphasis added); see also id. at 30 (“It is no part of
the function of a court or a jury to determine which
one of two modes was likely to be the most effective for
the protection of the public against disease. That was
for the legislative department to determine in the
light of all the information it had or could obtain.”).
The bottom line is this: when faced with a societythreatening epidemic, a state may implement
emergency measures that curtail constitutional rights
so long as the measures have at least some “real or
substantial relation” to the public health crisis and
are not “beyond all question, a plain, palpable
invasion of rights secured by the fundamental law.”
Id. at 31. Courts may ask whether the state’s
emergency measures lack basic exceptions for
“extreme cases,” and whether the measures are
pretextual—that is, arbitrary or oppressive. Id. at 38.
At the same time, however, courts may not secondguess the wisdom or efficacy of the measures. Id. at
28, 30.
Jacobson remains good law. See, e.g., Kansas v.
Hendricks, 521 U.S. 346, 356–57 (1997) (recognizing
Fourteenth Amendment liberties may be restrained
even in civil contexts, relying on Jacobson); Hickox v.
Christie, 205 F. Supp. 3d 579 (D.N.J. 2016) (rejecting,
based on Jacobson, a § 1983 lawsuit concerning 80hour quarantine of nurse returning from treating
Ebola patients in Sierra Leone). And, most
importantly for the present case, nothing in the
Supreme Court’s abortion cases suggests that
abortion rights are somehow exempt from the
Jacobson framework. Quite the contrary, the Court

17a

has consistently cited Jacobson in its abortion
decisions.
In Roe v. Wade, the Supreme Court announced for
the first time that an expectant mother has a
constitutional right to an abortion. 410 U.S. 113.
Nineteen years later, in Planned Parenthood of
Southeastern Pennsylvania v. Casey, the Court
reaffirmed this right and established the current
standard for abortion restrictions. 505 U.S. 833. Casey
recognized that after a fetus is viable, states may ban
abortion outright, except for pregnancies that
endanger the mother’s life or health. Id. at 846
(plurality opinion). After Casey, there remain two
constitutional restrictions on states’ ability to regulate
abortion. First, states “may not prohibit any woman
from making the ultimate decision to terminate” a
pre-viability pregnancy. Gonzales v. Carhart, 550 U.S.
124, 146 (2007) (quoting Casey, 505 U.S. at 879
(plurality opinion)). In other words, states may not
impose outright bans on pre-viability abortions. See
Jackson Women’s Health Org. v. Dobbs [Jackson II],
945 F.3d 265, 273 (5th Cir. 2019). Second, states “may
not impose” on the right “an undue burden, which
exists if a regulation’s ‘purpose or effect is to place a
substantial obstacle in the path of a woman seeking
an abortion before the fetus attains viability.’” Id.
(quoting Casey, 505 U.S. at 878 (plurality opinion));
see also Whole Woman’s Health v. Hellerstedt, 136 S.
Ct. 2292, 2309 (2016) (explaining “[t]he rule
announced in Casey . . . requires that courts consider
the burdens a law imposes of abortion access together
with the benefits those laws confer”).
None of these cases, so far as we are aware,
involved a state’s postponement of some abortion

18a

procedures in response to a public health crisis—the
context in which Jacobson plainly applies. But three
of the Court’s principal abortion cases—Roe, Casey,
and Carhart—cite Jacobson with approval and
without suggesting that abortion rights are somehow
exempt from its framework. In Roe, the Supreme
Court cited Jacobson as one example of the Court’s
refusal to recognize an “unlimited right to do with
one’s body as one pleases.” 410 U.S. at 154 (citing
Jacobson, 197 U.S. 11). The Court reasoned that the
right to abortion “is not unqualified and must be
considered against important state interests in
regulation.” Id. Similarly, in Casey, the plurality cited
Jacobson as one example of the Court’s balance
between “personal autonomy and bodily integrity” on
one hand and “governmental power to mandate
medical treatment or to bar its rejection” on the other.
505 U.S. at 857 (citing Jacobson, 197 U.S. at 24–30).
Finally, in the course of upholding a federal restriction
on certain abortion methods in Carhart, the Court
cited Jacobson to show it had “given state and federal
legislatures wide discretion to pass legislation in
areas where there is medical and scientific
uncertainty.” 550 U.S. at 163 (citing Jacobson, 197
U.S. at 30–31).
By all accounts, then, the effect on abortion
arising from a state’s emergency response to a public
health crisis must be analyzed under the standards in
Jacobson. Respondents all but concede this point,
offering no discernible argument that Jacobson has
been superseded or is otherwise inapplicable during a
public health crisis such as the COVID-19 pandemic.
See ECF 53 at 16. The district court, however, failed
to recognize Jacobson’s long-established framework.
While acknowledging that “Texas faces it[s] worst

19a

public health emergency in over a century,” the court
treated that fact as entirely irrelevant. Indeed, the
court explicitly refused to consider how the Supreme
Court’s abortion cases apply to generally-applicable
emergency health measures, saying it would “not
speculate on whether the Supreme Court included a
silent ‘except-in-a-national-emergency clause’ in its
previous writings on the issue.” App. 268.
That analysis is backwards: Jacobson instructs
that all constitutional rights may be reasonably
restricted to combat a public health emergency. We
could avoid applying Jacobson here only if the
Supreme Court had specifically exempted abortion
rights from its general rule. It has never done so. To
the contrary, the Court has repeatedly cited Jacobson
in abortion cases without once suggesting that
abortion is the only right exempt from limitation
during a public health emergency. In sum, by refusing
even to consider Jacobson—the controlling Supreme
Court precedent that squarely governs judicial review
of rights-challenges to emergency public health
measures—the district court “clearly and indisputably
erred.” JPMorgan Chase, 916 F.3d at 500 (quoting In
re Occidental Petroleum Corp., 217 F.3d 293, 295 (5th
Cir. 2000)) (emphasis omitted). Under our precedents,
that alone is enough to satisfy the second mandamus
prong. See Itron, 883 F.3d at 568 (petitioners had a
“clear and indisputable right to the writ” because
failure to apply the proper legal standard was
“obvious” error); see also In re Ford Motor Co., 591
F.3d 406, 415 (5th Cir. 2009) (granting writ where “[i]t
was patently erroneous for the [district] court to
ignore . . . binding precedent”).

20a

2.
Moreover, the district court’s refusal to
acknowledge or apply Jacobson’s legal framework
produced a “patently erroneous” result. JPMorgan
Chase, 916 F.3d at 500 (quoting Lloyd’s Register, 780
F.3d at 290). Under Jacobson, the district court was
empowered to decide only whether GA-09 lacks a “real
or substantial relation” to the public health crisis or
whether it is “beyond all question, a plain, palpable
invasion” of the right to abortion. 197 U.S. at 31. On
the record before us, the answer to both questions is
no, but the district court did not even ask them.
Instead, the court bluntly declared GA-09 an “outright
ban” on pre-viability abortions and exempted all
abortion procedures, in whatever circumstances, from
the scope of this emergency public health measure.
That was a patently erroneous result.19
a.
The first Jacobson inquiry asks whether GA-09
lacks a “real or substantial relation” to the crisis Texas
faces. Id. The answer is obvious: the district court
itself conceded that GA-09 is a valid emergency
response to the COVID-19 pandemic. The court
19 Although not necessary to our decision, we note that the
district court purported to enjoin GA-09 as to all abortion
providers in Texas. But Respondents are only a subset of Texas
abortion providers and did not sue as class representatives. The
district court lacked authority to enjoin enforcement of GA-09 as
to anyone other than the named plaintiffs. See Doran v. Salem
Inn, Inc., 422 U.S. 922, 931 (1975) (explaining “neither
declaratory nor injunctive relief can directly interfere with
enforcement of contested statutes or ordinances except with
respect to the particular federal plaintiffs”). The district court
should be mindful of this limitation on federal jurisdiction at the
preliminary injunction stage.

21a

recognized, as does everyone involved, that Texas
faces a public health crisis of unprecedented
magnitude and that GA-09 “does not exceed the
governor’s power to deal with the emergency.” App.
268. Our own review of the record easily confirms that
conclusion. GA-09 is supported by findings that (1) “a
shortage of hospital capacity or personal protective
equipment would hinder efforts to cope with the
COVID-19 disaster,” and (2) “hospital capacity and
personal protective equipment are being depleted by
surgeries and procedures that are not medically
necessary to correct a serious medical condition or to
preserve the life of a patient.” App. 34. The order also
references, and reinforces, the Governor’s prior
executive order, GA-08, “aimed at slowing the spread
of COVID-19.” Id.20 Accordingly, GA-09 instructs
licensed health care professionals and facilities to
postpone non-essential surgeries and procedures until
11:59 p.m. on April 21, 2020. App. 35. For their part,
Respondents appear to concede the validity of GA-09
as a general matter: they recognize that Texas faces
an “unprecedented public health crisis” and that
“[g]overnment officials and medical professionals
expect a surge of infections that will test the limits of
a health care system already facing a shortage of
PPE.” ECF 53 at 3.
To be sure, GA-09 is a drastic measure, but that
aligns it with the numerous drastic measures
Petitioners and other states have been forced to take
20
Tex. Exec. Order No. GA-08 (Mar. 19, 2020),
https://gov.texas.gov/uploads/files/press/EO-GA_08_COVID-19_
preparedness_and_mitigation_FINAL _03-19-2020_1.pdf. The
dissent is therefore mistaken that GA-09 “was not adopted to
serve th[e] interest” in preventing the spread of COVID-19.
Dissent at 12.

22a

in response to the coronavirus pandemic. Faced with
exponential growth of COVID-19 cases, states have
closed schools, sealed off nursing homes, banned social
gatherings,
quarantined
travelers,
prohibited
churches from holding public worship services, and
locked down entire cities. These measures would be
constitutionally intolerable in ordinary times, but are
recognized as appropriate and even necessary
responses to the present crisis. So, too, GA-09. As the
state’s infectious disease expert points out, “[g]iven
the risk of transmission in health care settings” there
is “a sound basis for limiting all surgeries except those
that are immediately medically necessary so as to
prevent the spread of COVID 19.” App. 242. In sum, it
cannot be maintained on the record before us that GA09 bears “no real or substantial relation” to the state’s
goal of protecting public health in the face of the
COVID-19 pandemic. Jacobson, 197 U.S. at 31.
b.
The second Jacobson inquiry asks whether GA-09
is “beyond question, in palpable conflict with the
Constitution.” Id. (emphasis added). The district
court, while not framing the question in those terms,
evidently thought the answer was yes. But the court
reached that conclusion only by grossly misreading
GA-09 as an “outright ban” on all pre-viability
abortions. Properly understood, GA-09 merely
postpones certain non-essential abortions, an
emergency measure that does not plainly violate
Casey in the context of an escalating public health
crisis. As we explain below, however, Respondents will
have the opportunity to show at the upcoming
preliminary injunction hearing that certain
applications of GA-09 may constitute an undue

23a

burden under Casey, if they prove that, “beyond
question,” GA-09’s burdens outweigh its benefits in
those situations. See Hellerstedt, 136 S. Ct. at 2309.
To begin with, the district court’s central (and
only) premise—that GA-09 is an “outright ban” on all
pre-viability abortions—is plainly wrong. The court
reasoned that GA-09 was by definition invalid in light
of our decisions in Jackson II and Jackson III, which
recognize states cannot ban pre-viability abortions.
App. 267–68. But GA-09 only delays certain nonessential abortions. GA-09 thus differs from the
regulations in Jackson II and III in three key respects.
First, GA-09 expires on April 21, 2020, three weeks
after its effective date. Tex. Gov’t Code Ann.
§ 418.012. Second, GA-09 includes an emergency
exception for the mother’s life and health, based on the
determination of the administering physician. App.
30; App. 35. Third, GA-09 contains a separate
exception for “any procedure” that, if performed under
normal clinical standards, “would not deplete the
hospital capacity or the personal protective equipment
needed to cope with the COVID-19 disaster.” App. 35.
These characteristics, which the district court failed to
mention,21 place GA-09 in stark contrast with the
restrictions in Jackson II and III.
Jackson II invalidated Mississippi’s ban on
abortions after fifteen weeks, with narrow exceptions
for “medical emergenc[ies]” and “severe fetal
21 The district court’s only allusion to the scope of GA-09 was
its statement that the order “either bans all non-emergency
abortions in Texas or bans all non-emergency abortions in Texas
starting at 10 weeks of pregnancy.” App. 267–68 (emphasis
added). But the district court did not mention GA-09’s expiration
date, nor cite, quote, or discuss GA-09’s exceptions.

24a

abnormalit[ies].” 945 F.3d at 269 (citations omitted).
The state “conceded that it had identified no medical
evidence that a fetus would be viable at 15 weeks.” Id.
at 270. We invalidated the law as “a prohibition on
pre-viability abortion.” Id. at 272–73. Mississippi also
enacted Senate Bill 2116, which criminalized abortion
“after a ‘fetal heartbeat has been detected,’” Jackson
Women's Health Org. v. Dobbs [Jackson III], 951 F.3d
246, 248 (5th Cir. 2020) (citation omitted), something
that “can occur anywhere between six and twelve
weeks.” Id. The only exceptions were for “death of, or
serious risk of ‘substantial and irreversible’ bodily
injury to” the mother. Id. (citation omitted). We
invalidated the law in a one-page per curiam opinion
relying principally on Jackson II. Id.
Mississippi’s now-invalid laws are quite different
from GA-09. First, both were permanent, whereas GA09 expires in just a few weeks.22 The expiration date
makes GA-09 a delay, not a ban, and also shows GA09 is reasonably tailored to the present crisis. “The
Supreme Court has repeatedly upheld a wide variety
of abortion regulations that entail some delay in the
abortion but that serve permissible Government
purposes,” even those—such as parental consent
22 Respondents imply that GA-09 is effectively indefinite in
duration. For example, they claim that “[f]or many women, the
denial of access to abortion will be permanent . . . given the
uncertain duration of the emergency.” But the district court did
not temporarily restrain some indefinite regulation; it restrained
GA-09, which by all accounts expires on April 21, 2020. App. 35.
If anything, Respondents’ concern about the indefinite duration
“of the emergency” serves to strengthen Petitioners’ position that
“extraordinary measures” must be taken now to mitigate the
“‘exponential increase’ in COVID-19 cases . . . expected over the
next few days and weeks.” ECF 2 at 6.

25a

laws—that “in practice can occasion real-world delays
of several weeks.” Garza v. Hargan, 874 F.3d 735, 755
(D.C. Cir. 2017) (en banc) (mem.) (Kavanaugh, J.,
dissenting). Second, Mississippi’s laws contained
narrower medical exceptions than GA-09. The fifteenweek ban exempted only “medical emergenc[ies]” and
“severe fetal abnormalit[ies].” Jackson II, 945 F.3d at
269. The fetal-heartbeat law exempted only abortions
that would prevent the mother’s death or “substantial
and irreversible” bodily injury. Jackson III, 951 F.3d
at 248. GA-09, by contrast, contains a broader
exception: it allows procedures that are “immediately
medically necessary to correct a serious medical
condition of, or to preserve the life of, a patient who
without immediate performance of the surgery or
procedure would be at risk for serious adverse medical
consequences or death.” App. 35. It also separately
exempts procedures that, if performed under accepted
clinical standards, would not deplete needed medical
resources. Id.
GA-09 also vests far more discretion in physicians
to determine whether the life-or-health exception is
met. The fifteen-week ban in Jackson II required a
“good faith clinical judgment” of a medical emergency,
Miss. Code Ann. § 41-41-191(3)(j), and the physician’s
“reasonable medical judgment” of a qualifying fetal
abnormality, id. § 41-41-191(3)(h). The fetalheartbeat law required the physician to “declare in
writing, under penalty of perjury,” that the abortion
met the exception, id. § 41-41-34.1(2)(b)(ii). Here, GA09 merely states that the health exception attaches
“as determined by the patient’s physician.” App. 35.
There are no statutory requirements confining the
physician’s judgment, and the physician need not
report his determination to the state.

26a

Properly understood, then, GA-09 is a temporary
postponement of all non-essential medical procedures,
including abortion, subject to facially broad
exceptions. Because that does not constitute anything
like an “outright ban” on pre-viability abortion, GA-09
“cannot be affirmed to be, beyond question, in palpable
conflict with the Constitution.” Jacobson, 197 U.S. at
31 (emphasis added). As already discussed, the
Supreme Court’s abortion cases have repeatedly cited
Jacobson to demarcate the limits states may place on
abortion. See Roe, 410 U.S. at 154; Casey, 505 U.S. at
857; Carhart, 550 U.S. at 163. GA-09 is, without
question, one such limit. The order is a concededly
valid public health measure that applies to “all
surgeries and procedures,” App. 35, does not single out
abortion, and merely has the effect of delaying certain
non-essential abortions. Moreover, the order has an
exemption for serious medical conditions, comporting
with Jacobson’s requirement that health measures
“protect the health and life” of susceptible individuals.
Jacobson, 197 U.S. at 39. Indeed, the exemption in
GA-09 goes well beyond the exceptions for “[e]xtreme
cases” Jacobson discussed. Id. In sum, Jacobson offers
no basis for the district court’s conclusion that
abortion rights merit an across-the-board exemption
from an measure like GA-09. To find otherwise “would
practically strip the [executive] department of its
function to care for the public health and the public
safety when endangered by epidemics of disease.” Id.
at 37.
Moreover, due to its mistaken view that GA-09
“bans” pre-viability abortions, the district court failed
to analyze GA-09 under Casey’s undue-burden test.
App. 268. This was error. Under Casey, courts must
ask whether an abortion restriction is “undue,” which

27a

requires “consider[ing] the burdens a law imposes on
abortion access together with the benefits those laws
confer.” Hellerstedt, 136 S. Ct. at 2310, 2309–10
(discussing Casey, 505 U.S. at 887–98). The district
court was required to do this analysis—that is, it
should have asked whether GA-09 imposes burdens on
abortion that “beyond question” exceed its benefits in
combating the epidemic Texas now faces. Jacobson,
197 U.S. at 31. But that analysis would have required
careful parsing of the evidence. See Hellerstedt, 136 S.
Ct. at 2310 (Casey “place[s] considerable weight upon
evidence . . . presented in judicial proceedings”). Any
consideration of the evidence, however, is entirely
absent from the district court’s order.
For example, the district court did not consider
whether different methods of abortion may consume
PPE differently. Our own review of the record, at this
preliminary stage, reveals considerable evidence that
surgical abortions consume PPE.23 By contrast, the
record is unclear how PPE is consumed in medication
23 For instance, Respondents’ complaint states that
clinicians use “gloves, a surgical mask, and protective eyewear”
for surgical abortions. See Complaint at ¶ 54 (App. 17). Their
declarations similarly attest that surgical abortions consume
sterile and non-sterile gloves, masks, gowns, and shoe covers. See
Southwestern Declaration ¶ 19, App. 86; Fort Worth and
McAllen Declaration ¶ 10, App. 91–92; PPGTSHS Declaration,
¶ 12, App. 117; Austin Women’s Declaration ¶ 11, App. 110.
Second-trimester abortions require more extensive PPE,
including face shields. See, e.g., Southwestern Declaration ¶ 19,
App. 86; Austin Women’s Declaration ¶ 11, App. 110. After a
surgical abortion, a provider examines the fetal tissue in a
pathology laboratory, which requires a gown, face shield or
goggles, shoe covers, and gloves. See Fort Worth and McAllen
Declaration ¶ 12, App. 092; WWHA Austin Declaration ¶ 15,
App. 100.

28a

abortions.24 Nor did the district court consider
whether Respondents could prove that GA-09
infringes abortion rights in specific contexts. For
example, in their stay opposition, Respondents argue
that GA-09 cannot apply to “patients whose
pregnancies will, before the expiration of the stay,
reach or exceed twenty-two weeks LMP [“last
menstrual period”], the gestational point at which
abortion may no longer be provided in Texas.” ECF 30
at 21 (brackets added). As Petitioners point out, if
competent evidence shows that a woman is in that
position, nothing prevents her from seeking asapplied relief. ECF 2 at 22 n.28.

24 Respondents assert PPE is not used in “providing the
pills” for medication abortions, ECF 53 at 31, whereas Petitioners
counter that, for medication abortions, Texas requires a physical
examination, ultrasound, and follow-up visits—all of which
consume PPE. ECF 67 at 7–8; ECF 2 at 17–18. See also Tex.
Health & Safety Code § 171.063(c) (requiring physician to
examine pregnant woman before prescribing “an abortioninducing drug”); Tex. Health & Safety Code § 171.012(a)(4)
(requiring
patient
receive
ultrasound
during
initial
examination); Tex. Health & Safety Code § 171.063(e)–(f)
(requiring follow-up appointment to ensure abortion complete);
25 Tex. Admin. Code 139.53(b)(4) (same). Petitioners also point
out that some number of medication abortions result in
incomplete abortions that require hospitalization. ECF 2 at 18;
ECF 67 at 7–8; see also American College of Obstetricians and
Gynecologists, Clinical Guidelines: Medical management of firsttrimester abortion, 89 Contraception 148, 149 (2014),
https://www.contraceptionjournal.org/article/S0010-7824(14)000
26-2/pdf (estimating “efficacy” of medication abortions using
mifepristone). The dissent appears to accept at face value
Respondents’ representations about how medication abortions
consume PPE. See Dissent at 11. We think that evidentiary
determination is better left to the district court at the
preliminary injunction stage.

29a

We do not decide at this stage, however, whether
an injunction narrowly tailored to particular
circumstances would pass muster under the Jacobson
framework. See, e.g., ODonnell v. Harris Cty., 892 F.3d
147, 163 (5th Cir. 2018) (“A district court abuses its
discretion if it does not narrowly tailor an injunction
to remedy the specific action which gives rise to the
order.” (citation and internal quotations omitted)).
These are issues that the parties may pursue at the
preliminary injunction stage, where Respondents will
bear the burden to prove, “by a clear showing,” that
they are entitled to relief. See Mazurek v. Armstrong,
520 U.S. 968, 972 (1997) (quoting 11A Wright, Miller,
& Kane, Fed. Prac. & Proc. § 2948 (2nd ed. 1995)); cf.
Ayotte v. Planned Parenthood, 546 U.S. 320, 331
(2006) (injunction should be tailored to “[o]nly [the]
few applications” of challenged statute that “would
present a constitutional problem”). Our overarching
point here is that the district court did not even apply
Casey’s undue-burden test and thus failed to weigh
GA-09’s benefits and burdens in any particular
circumstance. The district court therefore lacked any
basis for declaring that GA-09 constitutes an acrossthe-board violation of Casey.
In sum, based on this record we conclude that GA09—an emergency measure that postpones certain
non-essential abortions during an epidemic—does not
“beyond question” violate the constitutional right to
abortion. Jacobson, 197 U.S. at 31.
3.
Finally, the district court’s extraordinary failure
to evaluate GA-09 under the Jacobson framework also
usurped the state’s authority to craft measures
responsive to a public health emergency. Such judicial

30a

encroachment intrudes on the duties of the “executive
arm of Government” and “on a delicate area of federalstate relations,” further bolstering Texas’s right to
issuance of the writ. Cheney, 542 U.S. at 381.
In addressing the fourth and final TRO factor—
whether a TRO would disserve the public interest—
the district court did little more than assert its own
view of the effectiveness of GA-09. The district court
did not provide any explanation of its conclusion that
the public health benefits from an emergency measure
like GA-09 are “outweighed” by any temporary loss of
constitutional rights. Instead, the court rotely
concluded
that
all
injunctions
vindicating
constitutional rights serve the public interest and that
a TRO would “continue the status quo.” App. 270. With
respect, that blinks reality. The status quo Texas
faces, along with the rest of the nation, is a public
health crisis that is making once-in-a-lifetime
demands on citizens, government, industry, and the
medical profession. Where there is a status quo to
preserve, it is certainly true that an injunction does
“not disserve the public interest [if] it will prevent
constitutional deprivations.” Jackson Women’s Health
Org. v. Currier [Jackson I], 760 F.3d 448, 458 n.9 (5th
Cir. 2014). But the essence of equity is the ability to
craft a particular injunction meeting the exigencies of
a particular situation. “Flexibility rather than rigidity
has distinguished it.” Hecht Co. v. Bowles, 321 U.S.
321, 329 (1944). Thus, a court must at the very least
weigh the potential injury to the public health when it
considers enjoining state officers from enforcing
emergency public health laws. A single conclusory
statement that does not explain this balancing falls
far short.

31a

Instead of doing any of this, the district court
substituted its ipse dixit for the Governor’s reasoned
judgment, bluntly concluding that “[t]he benefits of a
limited potential reduction in the use of some personal
protective equipment by abortion providers is
outweighed by the harm of eliminating abortion
access in the midst of a pandemic that increases the
risks of continuing an unwanted pregnancy.” App.
270. Respondents—as well as our dissenting
colleague—share this view. ECF 53 at 2, 17–21;
Dissent at 11–12.
As Jacobson repeatedly instructs, however, if the
choice is between two reasonable responses to a public
crisis, the judgment must be left to the governing state
authorities. “It is no part of the function of a court or
a jury to determine which one of two modes [i]s likely
to be the most effective for the protection of the public
against disease.” Jacobson, 197 U.S. at 30. Such
authority properly belongs to the legislative and
executive branches of the governing authority. In light
of the massive and rapidly-escalating threat posed by
the COVID-19 pandemic, “the court would usurp the
functions of another branch of government if it
adjudged, as matter of law, that the mode adopted
under the sanction of the state, to protect the people
at large was arbitrary, and not justified by the
necessities of the case.” Id. at 28 (emphasis added).
The district court’s order contravened this principle;
Respondents and the dissenting opinion invite us to
do the same. We decline to engage in such
“unwarranted judicial action.” Will, 389 U.S. at 95.
To be sure, the judiciary is not completely
sidelined in a public health crisis. We have already
explained that Respondents may seek more targeted

32a

relief, if they can prove their entitlement to it, at the
preliminary injunction stage. Additionally, a court
may inquire whether Texas has exploited the present
crisis as a pretext to target abortion providers sub
silentio. See Lawton, 152 U.S. at 137. Respondents
make allegations to that effect, contending that
Petitioners are using GA-09 “to exploit the COVID-19
pandemic to achieve their longtime goal of banning
abortion in Texas.” ECF 53 at 1. Nonetheless, on this
record, we see no evidence that GA-09 was meant to
exploit the pandemic in order to ban abortion or was
crafted “as some kind of ruse to unreasonably
delay . . . abortion[s] past the point where a safe
abortion could occur.” Garza, 874 F.3d at 753 n.3
(Kavanaugh, J., dissenting). To the contrary, GA-09
applies to a whole host of medical procedures and
regulates abortions evenhandedly with those other
procedures. The order itself does not even mention
abortion—or any other particular procedure—at all.
Instead, it refers broadly to “all surgeries or
procedures” that meet its criteria.25 Respondents
point to no evidence that GA-09 applies any
differently to abortions than to any other procedure.
Nor do they cite any comparable procedures that are
exempt from GA-09’s requirements. On the other
hand, Petitioners produce evidence that myriad other
25 The district court relied heavily on the Attorney General’s
press release of March 23, 2020, which clarified that in the
Attorney General’s view, the GA-09 “includ[es] abortion
providers.” App. 31, 264–65. But the district court gave no reason
to believe this press release has the force of law. And, in any
event, the press release also reads the order to apply “to all
surgeries and procedures[,] . . . including routine dermatological,
ophthalmological, and dental procedures, as well as . . .
orthopedic surgeries or any type of abortion that is not medically
necessary to preserve the life or health of the mother.” App. 30.

33a

procedures are affected just as abortions are. For
example, Petitioners offer a declaration from Dr.
Timothy Harstad, M.D., who testified that some
cosmetic, bariatric, orthopedic, and gynecologic
procedures “are being suspended” alongside abortions.
App. 230–31. Petitioners also point to the fact that the
Centers for Medicare & Medicaid Services have
recommended postponing several other critical
procedures, including endoscopies and colonoscopies,
and even some oncological and cardiovascular
procedures for low-risk patients.26 This evidence
undermines Respondents’ contention that GA-09
exploits the present crisis to ban abortion.
Respondents will have the opportunity, of course, to
present additional evidence in conjunction with the
district court’s preliminary injunction hearing
scheduled for April 13, 2020. Our decision, however,
must be limited to the record before us. Based on that
record, we cannot say that GA-09 is a pretext for
targeting abortion.
The district court, for its part, did not even
purport to engage in the sort of limited pretext inquiry
contemplated by cases like Jacobson and Lawton.
Instead, the district court overstepped its proper role
and imposed its own judgment about how the COVID19 pandemic should be handled with respect to
abortion.27 This was a usurpation of the state’s power.
Will, 389 U.S. at 95.

26 See CMS Adult Elective Surgery and Procedures
Recommendations, https://www.cms.gov/files/document/31820cms-adult-elective-surgery-and-procedures-recommendations.
pdf (last visited April 6, 2020).
27 Likewise, the dissent contends that “[r]estricting contact
between abortion providers and their patients cannot further the

34a

In sum, based on the record before us, we conclude
that Petitioners have a clear and indisputable right to
issuance of the writ, satisfying the second mandamus
prong. Itron, 883 F.3d at 567.
B.
We now consider whether Petitioners have shown
they “have no other adequate means” to obtain the
relief they seek. Cheney, 542 U.S. at 380. This
requirement is “designed to ensure that the writ will
not be used as a substitute for the regular appeals
process.” Id. at 380–81. Mandamus is generally
unavailable for review of “district court decisions that,
while not immediately appealable, can be reviewed at
some juncture.” In re Crystal Power Co., 641 F.3d 82,
83 (5th Cir. 2011). “[F]or an appeal to be an
inadequate remedy, there must be ‘some obstacle to
relief beyond litigation costs that renders obtaining
relief not just expensive but effectively unobtainable.’”
goals of GA-09 if the same order permits in-person contact
between providers and patients in other settings.” Dissent at 13.
But this is true of all surgeries and procedures. Nonetheless, in
part to “limit[ ] exposure of patients and staff to the virus that
causes COVID-19,” CMS recommends postponing “non-essential
surgeries and other procedures.” See CMS Adult Elective
Surgery and Procedures Reccomendations (Mar. 15, 2020),
https://www.cms.gov/files/document/31820-cms-adult-electivesurgery-and-procedures-recommendations.pdf. GA-09 notes that
it follows recommendations from “the President’s Coronavirus
Task Force, the CDC, the U.S. Surgeon General, and the Centers
for Medicare and Medicaid Services.” And the state’s infectious
disease expert said that the risk of spreading the virus is real,
“especially in the health care setting due to the proximity.”
Marier Declaration ¶ 6, App. 240. We reiterate that Jacobson
commands that it is not the court’s role “to determine which one
of two modes [i]s likely to be most effective for the protection of
the public against disease.” 197 U.S. at 30.

35a

Depuy Orthopaedics, 870 F.3d at 353 (quoting Lloyd’s
Register, 780 F.3d at 289). In other words, the error
claimed must be “truly irremediable on ordinary
appeal.” JPMorgan Chase, 916 F.3d at 499 (cleaned
up) (quoting Depuy, 870 F.3d at 352–53).
Given the surging tide of COVID-19 cases and
deaths, Petitioners have made this showing. In millrun cases, it might be a sufficient remedy to simply
wait until the expiration of the TRO, and then appeal
an adverse preliminary injunction. See 28 U.S.C.
§ 1292(a)(1). In other cases, a surety bond may ensure
that a party wrongfully enjoined can be compensated
for any injury caused. See Fed. R. Civ. P. 65(c).
Those methods would be woefully inadequate
here. The TRO is set to expire April 13, 2020, two
weeks from the date it issued. App. 271. But time is of
the essence when it comes to preventing the spread of
COVID-19 and conserving medical resources critically
needed to care for patients. To illustrate the speed at
which the pandemic has been unfolding: As of March
20 there were, per the WHO’s daily report, 234,073
confirmed cases of COVID-19 and 9,840 deaths.28 As
of April 6, there were 1,210,956 confirmed cases, and
67,954 deaths.29 As of April 1, Texas had 4,544 cases;

28 WORLD HEALTH ORGANIZATION, CORONAVIRUS DISEASE
2019 (COVID-19) SITUATION REPORT – 60 (March 20, 2020),
https://www.who.int/docs/default-source/coronaviruse/situationreports/20200320-sitrep-60-covid-19.pdf?sfvrsn=d2bb4f1f_2.
29 WORLD HEALTH ORGANIZATION, CORONAVIRUS DISEASE
2019 (COVID-19) SITUATION REPORT – 77 (April 6, 2020),
https://www.who.int/docs/default-source/coronaviruse/situationreports/20200406-sitrep-77-covid-19.pdf?sfvrsn=21d1e632_2.

36a

by April 6, the number had risen to 7,359 cases.30 That
number will undoubtedly rise substantially in coming
days absent successful preventative measures. As the
Dallas Morning News wrote on April 1: “The greatest
number of cases will come in about a 10-day period
that will begin soon.”31 On April 2, Respondents
conceded that “[g]overnment officials and medical
professionals expect a surge of infections that will test
the limits of a health care system already facing a
shortage of PPE[.]” ECF 53 at 3. Respondents also
concede that surgical abortions consume PPE, such as
“gloves, a surgical mask, disposable protective
eyewear, disposable or washable gowns, and ... shoe
covers.” Id. at 6. Moreover, abortion is a common
procedure: the evidence shows 53,843 total
abortions—36,793 of those surgical—were performed
in Texas in 2017. App. 222. In sum, were Petitioners
required to wait and appeal an adverse preliminary
injunction, the harms from a broad suspension of GA09 for all abortion procedures could not “be put back
in the bottle.” Volkswagen, 545 F.3d at 319. The error
would be “truly irremediable” through ordinary
appeal. JPMorgan Chase, 916 F.3d at 499 (cleaned
up).32
30 Johns Hopkins University & Medicine Coronavirus
Resource Center, Coronavirus COVID-10 Global Cases,
https://coronavirus.jhu.edu/map.html (last visited April 6, 2020).
31 Steven Gjerstad, U.S. cases of COVID-19 will peak in a
couple of weeks; Only social distancing will break the virus,
DALLAS MORNING NEWS (April 1, 2020), https://www.dallasnews.
com/opinion/commentary/2020/04/01/us-cases-of-covid-19-willpeak-in-a-couple-of-weeks-only-social-distancing-will-break-thevirus/
32 Federal courts of appeals have issued writs of mandamus
to vacate TROs in a number of less-urgent scenarios. See, e.g., In
re King World Prods., Inc., 898 F.2d 56 (6th Cir. 1990) (vacating

37a

We therefore conclude no other adequate means
exist for Petitioners to obtain the relief they seek, thus
satisfying the first mandamus prong.
C.
Finally, we must decide whether to exercise our
discretion to issue the writ. See Gee, 941 F.3d at 170.
“Discretion is involved in defining both the
circumstances that justify exercise of writ power and
also the reasons that may justify denial of a writ even
though the circumstances might justify a grant.” 16
WRIGHT & MILLER, supra, § 3933. “The longstanding
view is that discretion to issue the writs should be
exercised only in special cases . . . .” Id.
We are persuaded that this petition presents an
extraordinary case justifying issuance of the writ.
First, as we have noted, the current global pandemic
has caused a serious, widespread, rapidly-escalating
public health crisis in Texas. Petitioners’ interest in
protecting public health during such a time is at its
zenith. In the unprecedented circumstances now
facing our society, even a minor delay in fully
implementing the state’s emergency measures could
have major ramifications because, as the evidence
shows, an “exponential increase in COVID-19 cases is
TRO enjoining news organization from broadcasting video
recording); Truck Drivers Local Union No. 807, Int’l Bhd. of
Teamsters v. Bohack Corp., 541 F.2d 312 (2d Cir. 1976) (vacating
TRO enjoining Board from conducting unfair labor practice
proceedings); O’Neill v. Battisti, 472 F.2d 789 (6th Cir. 1972)
(vacating TRO enjoining Ohio Supreme Court from enforcing its
own disciplinary order or taking further disciplinary action
against state judge). A fortiori, mandamus is an appropriate
mechanism for challenging the TRO in the present case, which
restrains Petitioners from fully implementing emergency public
health measures in a time of unprecedented crisis.

38a

expected over the next few days and weeks.” App. 224–
25. It is hard to imagine a more urgent situation.
Second, the district court’s refusal to acknowledge
the governing framework from Jacobson was a clear
abuse of discretion that produced a patently erroneous
result: bestowing on abortion providers a blanket
exemption from a generally-applicable emergency
public health measure. Not stopping there, the district
court usurped the power of state authorities by
passing judgment on the wisdom and efficacy of those
emergency measures. These are “extraordinary”
errors. See Volkswagen, 545 F.3d at 318.
Third, “writs of mandamus are supervisory in
nature and are particularly appropriate when the
issues also have an importance beyond the immediate
case.” Id. at 319. While unclear how long the current
crisis will last, it is probable that other legal disputes
will arise pitting claims of private rights against the
states’ authority to preserve public health and safety.
Indeed, 34 states plus the District of Columbia have
filed amicus briefs in this case, demonstrating the
widespread importance of the issues involved. We also
view the “sheer magnitude” of the district court’s error
and its effect on the state’s ongoing emergency efforts
to slow COVID-19 as evidence that the “safety valve”
of mandamus is appropriate. Itron, 883 F.3d at 568–
69 (cleaned up).
Lastly, we note that this case is distinguishable
from our recent decisions in Gee and JPMorgan Chase,
where, in our discretion, we declined to issue writs of
mandamus. In Gee, we concluded that, even though
the district court clearly abused its discretion in
failing to undertake the required jurisdictional
analysis, mandamus was nevertheless not required

39a

because (1) it was unclear what result the district
court would reach once it performed the correct
analysis, and (2) many of the petitioner’s arguments
went beyond jurisdiction and challenged the plaintiffs’
theory on the merits. See 941 F.3d at 170. In light of
those considerations, we deemed it imprudent to issue
the writ. Id. In JPMorgan Chase, we concluded that
the district court’s error, while significant, was not
“clear and indisputable” because it “followed
numerous others” who had made the same mistake.
916 F.3d at 504.
We confront vastly different circumstances here.
To begin with, unlike in Gee, the district court
addressed the merits of Respondents’ claim, though it
did so in a manner that overlooked the controlling
framework and produced patently erroneous results.
See Volkswagen, 545 F.3d at 319. Given the severe
time constraints here, we do not have the luxury to
wait and see what approach the district court might
take on the merits. Second, unlike in JPMorgan
Chase, the district court’s decision here did not align
with “numerous” other courts which had confronted
the same issue. To the contrary, the district court cited
not a single case addressing restrictions on abortion
during a public health crisis. Therefore, “we are aware
of nothing that would render the exercise of our
discretion to issue the writ inappropriate.”
Volkswagen, 545 F.3d at 319.
For those reasons, we exercise our discretion to
issue a writ of mandamus. See Cheney, 542 U.S. at
381.
IV.
The petition for writ of mandamus is GRANTED,
directing the district court to vacate the TRO entered

40a

on March 30, 2020. Petitioners’ emergency motion to
stay the TRO pending resolution of their mandamus
petition is DENIED AS MOOT. Our temporary stay of
March 31, 2020, is LIFTED. Any future appeals or
mandamus petitions in this case will be directed to
this panel and will be expedited. Gee, 941 F.3d at 173;
In re First South Sav. Ass’n, 820 F.2d 700, 716 (5th
Cir. 1987). The mandate shall issue forthwith.

41a

JAMES L. DENNIS, dissenting.
Eight days ago, the district court temporarily
restrained Texas’s temporary ban of all medication
abortions and procedural abortions. “The benefits of a
limited potential reduction in the use of some personal
protective equipment by abortion providers,” the
district court explained, “is outweighed by the harm of
eliminating abortion access in the midst of a pandemic
that increases the risks of continuing an unwanted
pregnancy, as well as the risks of travelling to other
states in search of time-sensitive medical care.” Other
states, including Oklahoma,1 Alabama,2 and Ohio,3
1 Okla. Exec. Order No. 2020-07 (Mar. 24, 2020),
https://www.sos.ok.gov/documents/executive/1919.pdf;
Press
Release, Office of the Oklahoma Governor, Governor Stitt
Clarifies Elective Surgeries and Procedures Suspended under
Executive Order (Mar. 27, 2020), https://www.governor.ok.gov/
articles/press_releases/governor-stitt-clarifies-elective-surgeries
(“[A]ny type of abortion services . . . which are not a medical
emergency . . . or otherwise necessary to prevent serious health
risks to the unborn child’s mother are included in that Executive
Order.”)
2 Order of the State Health Officer Suspending Certain
Public Gatherings Due to Risk of Infection by COVID-19 (Mar.
27,
2020),
https://governor.alabama.gov/assets/2020/03/
Amended-Statewide-Social-Distancing-SHO-Order-3.27.2020FINAL.pdf; Robinson v. Marshall, No. 2:19CV365-MHT, 2020
WL 1520243, at *1 (M.D. Ala. Mar. 30, 2020) (explaining that the
Alabama state’s attorney “in his oral representations on the
record, took the position that the March 27 order requires the
postponement of any abortion that is not medically necessary to
protect the life or health of the mother”).
3 Ohio Department of Health, RE: Director’s Order for the
Management of Non-essential Surgeries and Procedures
throughout Ohio (Mar. 17, 2020); Preterm-Cleveland v. Attorney
Gen. of Ohio, No. 1:19-cv-00360, slip op. at 2-3 (S.D. Ohio Mar.
30, 2020) (stating that Ohio’s attorney general sent letters to
abortion providers citing the Director’s Order and they must

42a

have attempted to limit a woman’s access to abortion
during the COVID-19 pandemic. Thus far, none of
those attempts has been successful in the face of a
constitutional challenge, either in the district courts
or on appeal. South Wind Women’s Center LLC v. Stitt,
No. CIV-20-277-G, 2020 WL 1677094, at *2 (W.D.
Okla. Apr. 6, 2020) (“[W]hile the current public health
emergency allows the state of Oklahoma to impose
some of the cited measures delaying abortion
procedures, it has acted in an ‘unreasonable,’
‘arbitrary’ and ‘oppressive’ way—and imposed an
‘undue burden’ on abortion access—in imposing
requirements that effectively deny a right of access to
abortion. Further, the court concludes that the benefit
to public health of the ban on medication abortions is
minor and outweighed by the intrusion on Fourteenth
Amendment rights caused by that ban.”); Robinson v.
Marshall, No. 2:19CV365-MHT, 2020 WL 1520243, at
*2 (M.D. Ala. Mar. 30, 2020) (“Because Alabama law
imposes time limits on when women can obtain
abortions, the March 27 order is likely to fully prevent
some women from exercising their right to obtain an
abortion. And for those women who, despite the
mandatory postponement, are able to vindicate their
right, the required delay may pose an undue burden
that is not justified by the State’s purported
rationales.”); Preterm-Cleveland v. Attorney Gen. of
Ohio, No. 1:19-cv-00360, slip op. at 7 (S.D. Ohio Mar.
30, 2020) (“Defendants have not demonstrated to the
Court, at this point, that Plaintiffs’ performance of
these surgical procedures will result in any beneficial
amount of net saving of PPE in Ohio such that the net
“immediately stop performing non-essential and elective surgical
abortions”).

43a

saving of PPE outweighs the harm of eliminating
abortion.”), appeal dismissed, No. 20-3365 (6th Cir.
Apr. 6, 2020). The American College of Obstetricians
and Gynecologists released a statement that “abortion
should not be categorized” as a “procedure[] that can
be delayed during the COVID-19 pandemic.”4 The
statement emphasized, as the district court did, that
abortion is “a time-sensitive service for which a delay
of several weeks, or in some cases days, may increase
the risks or potentially make it completely
inaccessible.”
Today, the majority concludes that allowing
women in Texas access to time-sensitive reproductive
healthcare, a right supported by almost 50 years of
Supreme Court precedent, was a “patently erroneous”
result that must be remedied by “one of the most
potent weapons in the judicial arsenal.” See In re
JPMorgan Chase & Co., 916 F.3d 494, 504 (5th Cir.
2019) (quoting Cheney v. U.S. Dist. Court for D.C., 542
U.S. 367, 380 (2004). Unfortunately, this is a
recurring phenomenon in this Circuit in which a
result follows not because of the law or facts, but
because of the subject matter of this case. See June
Med. Servs. L.L.C. v. Gee, 905 F.3d 787, 835 (5th Cir.
2018) (“[W]hen abortion shows up, application of the
rules of law grows opaque.” (Higginbotham, J.,
dissenting)), cert. granted, 140 S. Ct. 35 (2019)). For
the reasons that follow, I dissent.

4 Joint Statement on Abortion Access During the COVID-19
Outbreak, THE AMERICAN COLLEGE OF OBSTETRICS AND
GYNECOLOGISTS (Mar. 18, 2020), https://www.acog.org/news
/news-releases/2020/03/joint-statement-on-abortion-accessduring-the-covid-19-outbreak.

44a

I.
On March 22, 2020, Texas Governor Greg Abbott
signed Executive Order GA-09 (“GA-09”) to expand
hospital bed capacity as the state responds to the
COVID-19 virus. The Executive Order, which “ha[s]
the force and effect of law,” TEX. GOV’T CODE ANN.
§ 418.012 (West 2019), states that until 11:59 p.m. on
April 21, 2020,
[a]ll licensed health care professionals and all
licensed health care facilities shall postpone
all surgeries and procedures that are not
immediately medically necessary to correct a
serious medical condition of, or to preserve the
life of, a patient who without immediate
performance of the surgery or procedure
would be at risk for serious adverse medical
consequences or death, as determined by the
patient’s physician.5
The Executive Order exempts “any procedure that, if
performed in accordance with the commonly accepted
standard of clinical practice, would not deplete the
hospital capacity or the personal protective equipment
needed to cope with the COVID-19 disaster.”
The day after the Governor signed GA-09, Texas
Attorney General Ken Paxton issued a news release
stating that GA-09’s prohibition on medically
unnecessary surgeries and procedures “applies
throughout the State and to all surgeries and
procedures that are not immediately medically
necessary, including . . . any type of abortion that is
5
Tex. Exec. Order No. GA-09 (Mar. 22, 2020),
https://gov.texas.gov/uploads/files/press/EO-GA_09_COVID-19_
hospital_capacity_IMAGE_03-22-2020.pdf.

45a

not medically necessary to preserve the life or health
of the mother.”6 The release states that “[f]ailure to
comply with an executive order issued by the governor
related to the COVID-19 disaster can result in
penalties of up to $1,000 or 180 days of jail time.”
Paxton emphasized that “[n]o one is exempt from the
governor’s executive order on medically unnecessary
surgeries and procedures, including abortion
providers,” and “[t]hose who violate the governor’s
order will be met with the full force of the law.”
Several organizations that provide abortion
services in Texas and a board-certified family
medicine physician who provides abortion care
(collectively, “Respondents”) brought an action in the
Western District of Texas under 42 U.S.C. § 1983,
challenging GA-09 and the Texas Medical Board’s
emergency amendment to Title 22 Texas
Administrative Code section 187.57, which imposes
the same requirements. Respondents moved for a
temporary restraining order (“TRO”) to enjoin
enforcement of GA-09 and the Emergency Rule insofar
as they purport to ban all medication abortions and
procedural abortions, as the attorney general’s news
release suggests.
I include this explanation not to reiterate the
procedural history the majority has already explained,
but to emphasize what exactly we are reviewing.
6 News Release, Office of the Texas Attorney General,
Health Care Professionals and Facilities, Including Abortion
Providers, Must Immediately Stop All Medically Unnecessary
Surgeries and Procedures to Preserve Resources to Fight
COVID-19 Pandemic (Mar. 23, 2020), https://www.texas
attorneygeneral.gov/news/releases/health-care-professionalsand-facilities-including-abortion-providers-must-immediatelystop-all.

46a

Respondents brought a constitutional challenge to
GA-09, and though the attorney general’s
interpretation of that order constitutes the crux of the
constitutional issues present in this case, it is GA-09
and only GA-09 that we are interpreting. The majority
agrees that the attorney general’s news release
interpreting GA-09 is not legally binding. Maj. Op. at
25 n.22. The attorney general cannot modify the text
of the governor’s executive order through his news
release; only the governor has the power to “issue
executive orders . . . [that] have the force and effect of
law.” TEX. GOV’T CODE ANN. § 418.012. And GA-09
grants abortion providers the power to determine
whether a procedure is “immediately medically
necessary to correct a serious medical condition of . . .
a patient who without immediate performance of the
surgery or procedure would be at risk for serious
adverse medical consequences.” It also permits an
exception for any abortion that “if performed in
accordance with the commonly accepted standard of
clinical practice, would not deplete the hospital
capacity or the personal protective equipment needed
to cope with the COVID-19 disaster.”
The attorney general’s news release interprets
GA-09 to ban “any type of abortion that is not
medically necessary to preserve the life or health of
the mother,” regardless, apparently, of whether such
a procedure (1) in the view of the patient’s physician,
is immediately medically necessary and would put a
patient at risk for serious adverse medical
consequences if not performed, or (2) would fall under
GA-09’s exception for procedures that do not utilize
PPE or deplete hospital capacity.

47a

II.
The district court granted Respondents’ TRO,
halting enforcement of GA-09 insofar as it bans all
procedural and medication abortions. Petitioners seek
a writ of mandamus to remedy what they describe as
a “clearly and indisputably erroneous” decision. The
Supreme Court and this court have repeatedly
emphasized that mandamus is an “extraordinary
remedy” to be exercised only in “exceptional
circumstances.” See Cheney, 542 U.S. at 380 (quoting
Will v. United States, 389 U.S. 90, 95 (1967)); In re
Lloyd’s Register N. Am., Inc., 780 F.3d 283, 288, 294
(5th Cir. 2015); In re Volkswagen of Am., Inc., 545 F.3d
304, 309, 311 (5th Cir. 2008). To obtain relief,
Petitioners “must do more than prove merely that the
court erred.” In re Occidental Petroleum Corp., 217
F.3d 293, 295 (5th Cir. 2000). “The traditional use of
the writ . . . has been to confine the court against
which mandamus is sought to a lawful exercise of its
prescribed jurisdiction.” Cheney, 542 U.S. at 380
(alteration omitted) (quoting Roche v. Evaporated
Milk Ass’n, 319 U.S. 21, 26 (1943)). Its use is justified
in “only exceptional circumstances amounting to a
judicial ‘usurpation of power,’ or a ‘clear abuse of
discretion.’” Id. (quoting Will, 389 U.S. at 95; Bankers
Life & Casualty Co. v. Holland, 346 U.S. 379, 383
(1953)).
Mandamus relief generally requires that (1) “the
party seeking issuance of the writ [must] have no
other adequate means to attain the relief he desires—
a condition designed to ensure that the writ will not
be used as a substitute for the regular appeals
process”; (2) “the petitioner must satisfy the burden of
showing that [his] right to issuance of the writ is clear

48a

and indisputable”; and (3) “the issuing court, in the
exercise of its discretion, must be satisfied that the
writ is appropriate under the circumstances.” Id. at
380-81 (internal quotation marks and citations
omitted).
Under the “clear and indisputable” prong, id.,
Petitioners must show the district court’s
determination was a “clear abuse[] of discretion that
produce[d] patently erroneous results.” In re Lloyd’s
Register N. Am., Inc., 780 F.3d at 290 (quoting In re
Volkswagen of Am., Inc., 545 F.3d at 312). Both
conditions—clear abuse of discretion and a patently
erroneous result—must be met to obtain mandamus
relief. See id.
The majority concludes that the district court
clearly erred by not applying Jacobson v.
Commonwealth of Massachusetts, 197 U.S. 11 (1905),
and exercised only in “exceptional circumstances.” See
Cheney, 542 U.S. at 380 (quoting Will v. United States,
389 U.S. 90, 95 (1967)); In re Lloyd’s Register N. Am.,
Inc., 780 F.3d 283, 288, 294 (5th Cir. 2015); In re
Volkswagen of Am., Inc., 545 F.3d 304, 309, 311 (5th
Cir. 2008). To obtain relief, Petitioners “must do more
than prove merely that the court erred.” In re
Occidental Petroleum Corp., 217 F.3d 293, 295 (5th
Cir. 2000). “The traditional use of the writ . . . has
been to confine the court against which mandamus is
sought to a lawful exercise of its prescribed
jurisdiction.” Cheney, 542 U.S. at 380 (alteration
omitted) (quoting Roche v. Evaporated Milk Ass’n, 319
U.S. 21, 26 (1943)). Its use is justified in “only
exceptional circumstances amounting to a judicial
‘usurpation of power,’ or a ‘clear abuse of discretion.’”

49a

Id. (quoting Will, 389 U.S. at 95; Bankers Life &
Casualty Co. v. Holland, 346 U.S. 379, 383 (1953)).
Mandamus relief generally requires that (1) “the
party seeking issuance of the writ [must] have no
other adequate means to attain the relief he desires—
a condition designed to ensure that the writ will not
be used as a substitute for the regular appeals
process”; (2) “the petitioner must satisfy the burden of
showing that [his] right to issuance of the writ is clear
and indisputable”; and (3) “the issuing court, in the
exercise of its discretion, must be satisfied that the
writ is appropriate under the circumstances.” Id. at
380-81 (internal quotation marks and citations
omitted).
Under the “clear and indisputable” prong, id.,
Petitioners must show the district court’s
determination was a “clear abuse[] of discretion that
produce[d] patently erroneous results.” In re Lloyd’s
Register N. Am., Inc., 780 F.3d at 290 (quoting In re
Volkswagen of Am., Inc., 545 F.3d at 312). Both
conditions—clear abuse of discretion and a patently
erroneous result—must be met to obtain mandamus
relief. See id.
The majority concludes that the district court
clearly erred by not applying Jacobson v.
Commonwealth of Massachusetts, 197 U.S. 11 (1905),
and its result, allowing medication and procedural
abortions to proceed, was patently erroneous. It also
concludes that “the court usurped the power of the
governing state authority when it passed judgment on
the wisdom and efficacy of those emergency measures,
something squarely foreclosed by Jacobson.” Maj. Op.
at 9-10. For several reasons, the majority is wrong.

50a

III.
In
Jacobson,
the
city
of
Cambridge,
Massachusetts, pursuant to state statute, passed a
regulation requiring all of its citizens to receive a
smallpox vaccination to combat a smallpox outbreak.
197 U.S. at 12. Jacobson challenged the regulation,
arguing that it violated his Fourteenth Amendment
right “to care for his own body and health in such a
way as to him seems best.” Id. at 26. The Court
explained that the state’s action in compelling
vaccination was an exercise of its police power, which
“must be held to embrace, at least, such reasonable
regulations established directly by legislative
enactment as will protect the public health and the
public safety.” Id. at 25. In rejecting Jacobson’s
constitutional challenge, the Court explained “[e]ven
liberty itself, the greatest of all rights, is not
unrestricted license to act according to one’s own will.
It is only freedom from restraint under conditions
essential to the equal enjoyment of the same right by
others.” Id. at 26-27. The Court explained, however,
that individual rights are not gutted during a crisis:
Courts have a duty to review a state’s exercise of their
police power where the state’s action (1) goes “beyond
the necessity of the case, and, under the guise of
exerting a police power . . . violate[s] rights secured by
the Constitution,” (2) “has no real or substantial
relation to” “protect[ing] the public health, the public
morals, or the public safety,” or (3) “is, beyond all
question, a plain, palpable invasion of rights secured
by the fundamental law.” Id. at 28, 30. Jacobson, then,
stands for the proposition that a state by its
legislature may utilize its police power to enact laws
to protect the public health and safety, even though
such laws may impose restraints on citizens’ liberties,

51a

so long as that regulation is “justified by the
necessities of the case” and does not violate rights
secured by the Constitution “under the guise of
exerting a police power.” Id. at 28-29.
A.
This case is clearly distinguishable from Jacobson.
There, the city required its citizens to get a smallpox
vaccine to stop the spread of a smallpox outbreak. The
measure adopted by the city related directly to the
public health crisis—every citizen who did not receive
the vaccine could actively spread the disease, and
therefore mandatory vaccination actively curbed the
disease’s spread. The thread connecting GA-09 to
combatting COVID-19 is more attenuated—premised
not on the idea that abortion providers are spreading
the virus, but that their continuing operation requires
the use of resources that should be conserved and
made available to healthcare workers fighting the
outbreak. This reasoning requires the additional link
that those PPE resources denied to abortion providers
are indeed conserved, are significant in amount, and
can realistically be reallocated to healthcare workers
fighting COVID-19, a showing that Petitioners have
not made.
B.
The majority claims that “Jacobson disclaimed
any judicial power to second-guess the policy choices
made by the state in crafting emergency public health
measures.” Maj. Op. at 12. But the Court did not
conclude that an emergency situation deprives courts
of their duty and power to uphold the constitution—
quite the opposite, in fact.

52a

The Court in Jacobson determined that the
Massachusetts law should not be invalidated because
“[s]mallpox being prevalent and increasing in
Cambridge, the court would usurp the functions of
another branch of government if it adjudged, as a
matter of law, that the mode adopted under the
sanction of the state, to protect the people at large was
arbitrary, and not justified by the necessities of the
case.” Jacobson, 197 U.S. at 28 (emphases added). The
Court certainly did not disclaim any power to so rule,
under
appropriate
circumstances,
however,
explaining:
We say necessities of the case, because it
might be that an acknowledged power of a
local community to protect itself against an
epidemic threatening the safety of all might be
exercised in particular circumstances and in
reference to particular persons in such an
arbitrary, unreasonable manner, or might go
so far beyond what was reasonably required
for the safety of the public, as to authorize or
compel the courts to interfere for the
protection of such persons.
Id. The Court in Jacobson also explained that it had
previously “recognized the right of a state to pass
sanitary laws, laws for the protection of life, liberty,
[and] health . . . within its limits.” Id. (citing Hannibal
& St. J.R. Co. v. Husen, 95 U. S. 465, 471-73 (1877)).
While states have the right to pass such laws, the
Court explained, the courts have a “duty to hold . . .
invalid” laws that “went beyond the necessity of the
case, and, under the guise of exerting a police power,
invaded the domain of Federal authority, and violated
rights secured by the Constitution.” Id.

53a

Thus, the Court clearly anticipated that courts
would exercise judicial oversight over a state’s
decision to restrict personal liberties during
emergencies. See id. Jacobson merely acknowledged
that what is reasonable during an emergency is
different from what is reasonable under normal
circumstances, and that courts must not act as superexecutives in an emergency. Given the language of
Jacobson, then, the Court was concerned with both
what the majority focuses on—the state’s ability to
adequately protect its citizens during a public health
crisis—and what the majority ignores—the courts’
ability to protect citizens’ constitutional rights when
states attempt to unjustifiably seize and wield power
in the name of the health and safety.
Therefore, Jacobson reaffirms the district court’s
duty, and our duty, “to hold [GA-09] invalid” if it (1)
goes “beyond the necessity of the case, and, under the
guise of exerting a police power . . . violate[s] rights
secured by the Constitution,” (2) “has no real or
substantial relation to” “protect[ing] the public health,
the public morals, or the public safety,” or (3) “is,
beyond all question, a plain, palpable invasion of
rights secured by the fundamental law.” See id. at 28,
30.
IV.
After concluding that the district court clearly
abused its discretion in not relying on Jacobson, the
majority determines that this error produced a
patently erroneous result. Maj. Op. at 15-23. The
majority claims that the district court’s conclusion
that GA-09 amounts to a previability ban is patently
erroneous. Maj. Op. at 17. In my view, this
“conclusion” does not accurately characterize the

54a

“result” of the district court’s order. See In re
Volkswagen of Am., Inc., 545 F.3d at 310 (“[W]e only
will grant mandamus relief when such errors produce
a patently erroneous result.” (emphasis added)). The
result of the district court’s order is to uphold women’s
rights to abortions and to allow medical and
procedural abortions to proceed. That result is not
patently erroneous and therefore does not warrant
mandamus relief. Contrary to the majority’s view,
nothing in Jacobson or any of the Supreme Court’s
cases requires a different result.
A.
The goals of GA-09 are furthered by restricting
abortions, according to Petitioners, because abortions:
(1) “reduce[] the scarce supply of PPE available to
healthcare providers treating COVID-19 patients,” (2)
“result[] in the hospitalization of women,” reducing
hospital capacity for COVID-19 patients, and (3)
“contribute[] to the spread of the COVID-19 virus.”
Though GA-09 does not define PPE, Respondents
explain that the term is generally understood to refer
to N95 respirators, surgical masks, non-sterile and
sterile gloves, and disposable protective eyewear,
gowns, and hair and shoe covers. In response to
Petitioners’ argument that abortions will deplete PPE
necessary for healthcare providers treating COVID-19
patients, Respondents contend that abortions utilize
little or no PPE and that abortions are time-sensitive
procedures.
Regarding the first point, whether an abortion
takes no PPE or some PPE depends on the type of
procedure. Procedural abortions in Texas are singleday procedures that, unlike surgeries, require no
hospital bed, incision, general anesthesia, or sterile

55a

field. During the procedure, the providers use PPE
such as gloves, a surgical mask, disposable protective
eyewear, disposable or washable gowns, and hair and
shoe covers. Most Respondents do not have N95
respirators, and those that do have only a small
supply that they rarely, if ever, use. Medication
abortions, which involve only taking medications by
mouth, require no PPE to administer the medication,
and may require the use of gloves only at pre- and
post-procedure appointments, depending on the
circumstances. Petitioners identify no other
treatment through oral medication that would be
affected by GA-09.
Moreover, Respondents point out that Petitioners’
PPE conservation argument mistakenly assumes that
a patient unable to obtain an abortion will not
otherwise need medical care that requires the
consumption of PPE. Pregnant patients who cannot
access abortion require prenatal care and must often
undergo unplanned hospital visits. And to the extent
patients are prevented from obtaining abortions
altogether,
childbirth
and
delivery
require
exponentially more PPE than an abortion. Denying
pregnant patients access to abortion now may simply
change the purpose for which the PPE is used, without
any surplus that is able to be reallocated to healthcare
workers treating COVID-19 patients. Other pregnant
patients with the resources to do so may choose to seek
abortions outside of Texas—a result clearly contrary
to Texas’s purported goal of avoiding the spread of the
virus. GA-09 has already led patients to travel to other
states to obtain abortion care in a pandemic, exposing
patients and third parties to infection risks. One outof-state physician stated that he treated 30 abortion

56a

patients from Texas in the week after the attorney
general’s statement.
Petitioners also argue that the abortion
restrictions are necessary to preserve hospital
capacity, while Respondents point out that legal
abortions are safe and almost never require
hospitalization, and abortion care is substantially less
likely to lead to hospitalization than caring for a
patient with respect to full term pregnancy,
childbirth, and post-natal care.
Finally, Petitioners argue that GA-09 as
understood to ban all abortions provides the benefit of
restricting contact between patients, medical staff,
and physicians to help prevent the spread of COVID19. While this may be true, the language of GA-09
reveals that it was not adopted to serve this interest.
GA-09 exempts “any procedure . . . that would not
deplete the hospital capacity or the personal
protective equipment needed to cope with the COVID19 disaster.” It excludes all forms of medical care save
“surgeries and procedures,” and therefore does not
contemplate restricting any other type of medical care
that results in contact between providers and
patients. Restricting contact between abortion
providers and their patients cannot further the goals
of GA-09 if the same order permits in-person contact
between providers and patients in other settings.
Petitioners suggest that, in addition to these
reasons, “Plaintiffs have identified no substantial
burdens that will result from delaying elective
abortions in accordance with [GA-09].” The majority
agrees, concluding that “the expiration date makes
GA-09 a delay, not a ban.” Maj. Op. at 19. But it is
painfully obvious that a delayed abortion procedure

57a

could easily amount to a total denial of that
constitutional right: If currently scheduled abortions
are postponed, many women will miss the small
window of opportunity they have to access a legal
abortion. Texas generally prohibits abortion after
twenty-two weeks from the first day of the pregnant
person’s last menstrual period (“LMP”), see TEX.
HEALTH & SAFETY CODE § 171.044, and therefore GA09 has the potential to deny a woman’s constitutional
right to an abortion where that right will lapse during
the duration of GA-09. A woman has only a small
window of opportunity to exercise her constitutional
right to choose, and therefore Petitioners’ action in
further narrowing that window will present a burden
in many cases.
B.
First, prohibiting abortions for patients whose
pregnancies will, before the expiration of GA-09, reach
or exceed twenty-two weeks, the gestational point at
which abortion may no longer be provided in Texas,
represents “a plain, palpable invasion of rights
secured by the fundamental law.” Jacobson, 197 U.S.
at 31. Even if such state action is successful in
conserving the minimal PPE utilized in such
procedures, as applied to this group of people, the
state’s action constitutes an outright ban on
previability abortion, which is “beyond question, in
palpable conflict with the Constitution.” Id.; id. at 28
(explaining that a state’s police power “might be
exercised . . . in reference to particular persons in such
an arbitrary, unreasonable manner, or might go so far
beyond what was reasonably required for the safety of
the public, as to authorize or compel the courts to
interfere for the protection of such persons”); see Roe

58a

v. Wade, 410 U.S. 113, 153-54 (1973). Insofar as GA09 applies to this group of women, then, the district
court’s result in allowing abortions to proceed was not
patently erroneous. See In re Lloyd’s Register N. Am.,
Inc., 780 F.3d at 290.
Second, insofar as GA-09 bans procedural and
medication abortions generally, this act “has no real
or substantial relation to” Petitioners’ stated goal of
conserving PPE and maintaining access to hospital
beds and therefore it goes “beyond the necessity of the
case, and, under the guise of exerting a police power
. . . violate[s] rights secured by the Constitution.” See
Jacobson, 197 U.S. at 28, 31. In particular, abortions
require minimal PPE (and medication abortions
require no PPE to administer the medication), do not
require the use of N95 respirator masks, and rarely
require hospitalization. And as Respondents point
out, the medical resources conserved by prohibiting
abortions would simply be otherwise consumed
through prenatal care by women forced to continue
their pregnancies or incentivize women to travel out
of state to obtain abortions, facilitating the spread of
the virus. Finally, even assuming that delayed
abortions in fact conserve PPE, Respondents have not
demonstrated how the PPE could realistically be
reallocated to healthcare workers fighting COVID-19.
Petitioners have, therefore, failed to establish that
the district court “reached a patently erroneous
result” in temporarily restricting Texas’s ability to
enforce GA-09 insofar as it bans all procedural and
medication abortions. See In re Lloyd’s Register N.
Am., Inc., 780 F.3d at 290. Mandamus relief should be
denied.
***

59a

The district court’s result was supported by nearly
50 years of Supreme Court precedent protecting a
woman’s right to choose, and as such I would not
conclude that it was patently erroneous. In a time
where panic and fear already consume our daily lives,
the majority’s opinion inflicts further panic and fear
on women in Texas by depriving them, without
justification, of their constitutional rights, exposing
them to the risks of continuing an unwanted
pregnancy, as well as the risks of travelling to other
states in search of time-sensitive medical care.
I respectfully but emphatically dissent.

60a

Appendix B
IN THE UNITED STATES COURT OF
APPEALS FOR THE FIFTH CIRCUIT
____________
No. 20-50296
____________
In re: GREG ABBOTT, in his official capacity as
Governor of Texas; KEN PAXTON, in his official
capacity as Attorney General of Texas; PHIL
WILSON, in his official capacity as Acting Executive
Commissioner of the Texas Health and Human
Services Commission; STEPHEN BRINT CARLTON,
in his official capacity as Executive Director of the
Texas Medical Board; KATHERINE A. THOMAS, in
her official capacity as the Executive Director of the
Texas Board of Nursing,
Petitioners
____________
Petition for a Writ of Mandamus to the United States
District Court for the Western District of Texas
____________
REVISED April 20, 2020
____________
Before DENNIS, ELROD, and DUNCAN, Circuit
Judges.
____________

61a

JENNIFER WALKER ELROD and STUART KYLE
DUNCAN, Circuit Judges:
On April 7, 2020, we issued a writ of mandamus
vacating the district court’s temporary restraining
order (“TRO”)1 that exempted abortions from GA-09,
an emergency measure temporarily postponing nonessential medical procedures during the COVID-19
pandemic. In re Abbott, --- F.3d ---, 2020 WL 1685929
(5th Cir. Apr. 7, 2020) (Abbott II). Two days later, on
April 9, the district court entered a second TRO,
exempting various categories of abortion om GA-09.
See Planned Parenthood Ctr. for Choice v. Abbott, No.
A-20-CV-323, 2020 WL 1815587 (W.D. Tex. Apr. 9,
2020) (Abbott III). A flurry of litigation ensued, during
which state officials again sought mandamus and we
administratively stayed parts of the April 9 TRO.2
Over this period—from April 7 to 20—Texas COVID19 cases, hospitalizations, and deaths more than
doubled.3
We now consider the mandamus petition directed
to the April 9 TRO. We are persuaded by Petitioners’
arguments that the district court, in the April 9 TRO,
disregarded our mandate in Abbott II. The court again
1 See Planned Parenthood Ctr. for Choice v. Abbott, No. A20-CV-323, 2020 WL 1502102 (W.D. Tex. Mar. 30, 2020) (Abbott
I).
2 See In re Abbott, No. 20-50296, 2020 WL 1844644 (5th Cir.
Apr. 10, 2020) (administratively staying TRO in part) (Abbott
IV); In re Abbott, 2020 WL 1866010 (5th Cir. Apr. 13, 2020)
(denying stay in part and lifting administrative stay in part)
(Abbott V).
3 See Tex. Dep’t of State Health Servs., Texas Case Counts
COVID-19, https://txdshs.maps.arcgis.com/apps/opsdashboard/
index.html#/ed483ecd702b4298ab01e8b9 cafc8b83 (last visited
Apr. 20, 2020).

62a

“fail[ed] to apply . . . the framework governing
emergency exercises of state authority during a public
health crisis, established over 100 years ago in
Jacobson v. Commonwealth of Massachusetts, 197
U.S. 11 (1905).” Abbott II, 2020 WL 1685929, at *5.
Moreover, the court again second-guessed the basic
mitigation strategy underlying GA-09 (that is, the
concept of “flattening the curve”), and also acted
without knowing critical facts such as whether, during
this pandemic, abortion providers do (or should) wear
masks or other protective equipment when meeting
with patients. Those errors led the district court to
enter an overbroad TRO that exceeds its jurisdiction,
reaches patently erroneous results, and usurps the
state’s authority to craft emergency public health
measures “during the escalating COVID-19
pandemic.” Id. at *1.
Once again, the dissenting opinion accuses the
majority of treating abortion differently and once
again it is wrong. At issue is whether abortion can be
treated the same as other procedures under GA-09. It
is the district court that treated abortion differently,
issuing back-to-back TROs that did not follow the law.
We therefore grant the writ in part and direct the
district court to vacate these parts of the April 9 TRO:
● That part restraining enforcement of GA-09 as
a “categorical ban on all abortions provided by
Plaintiffs.”
● That part restraining the Governor of Texas
and the Attorney General.
● That part restraining enforcement of GA-09 as
to medication abortions.

63a

● That part restraining enforcement of GA-09 as
to patients who would reach 18 weeks LMP4 on
the expiration date of GA-09 and who would be
“unlikely” to be able to obtain abortion services
in Texas.
● That part restraining enforcement of GA-09
after 11:59 p.m. on April 21, 2020.
We do not grant the writ, and therefore do not
order vacatur, of that part of the TRO restraining GA09 as to patients “who, based on the treating
physician’s medical judgment, would be past the legal
limit for an abortion in Texas—22 weeks LMP—on
April 22, 2020.”
I.
We summarize the pertinent background, which
we have chronicled in greater detail elsewhere. See
Abbott II, 2020 WL 1685929, at *1–4; Abbott IV, 2020
WL 1844644, at *1–2. GA-09 is an emergency public
health measure, issued by the Governor of Texas on
March 22, 2020, that postpones non-essential
surgeries and procedures until April 22 to combat the
COVID-19 pandemic. It applies to all licensed
healthcare providers in Texas, covers a broad range of
procedures, does not mention abortion, and contains
life-and-health exceptions committed to a physician’s
judgment. Specifically, GA-09 requires healthcare
professionals and facilities to:
postpone all surgeries and procedures that are
not immediately medically necessary to
correct a serious medical condition of, or to
preserve the life of, a patient who without
4 That is, eighteen weeks after the first day of a pregnant
woman’s last menstrual period.

64a

immediate performance of the surgery or
procedure would be at risk for serious adverse
medical consequences or death, as determined
by the patient’s physician.5
The order does not apply to procedures that, if
performed under accepted standards, “would not
deplete the hospital capacity or the personal
protective equipment [“PPE”] needed to cope with the
COVID-19 disaster.”6 GA-09 is enforceable by
criminal and administrative penalties and expires at
11:59 p.m. on April 21, 2020.7 See Abbott II, 2020 WL
1685929, at *2–4 & nn.10–12.
When ordering vacatur of the first TRO, we
explained that Respondents’ challenge to GA-09 must
satisfy the standards in Jacobson v. Massachusetts,
197 U.S. 11 (1905). Specifically, we held:
[W]hen faced with a society-threatening
epidemic, a state may implement emergency
measures that curtail constitutional rights so
long as the measures have at least some “real
or substantial relation” to the public health
crisis and are not “beyond all question, a plain,
palpable invasion of rights secured by the
fundamental law.” Jacobson, 197 U.S. at 31.
Courts may ask whether the state’s
emergency measures lack basic exceptions for
5
Tex. Exec. Order No. GA-09 (Mar. 22, 2020),
https://gov.texas.gov/uploads/files/press/EO-GA_09_COVID-19_
hospital_capacity_IMAGE_03-22-2020.pdf.
6 Id.
7 Id. On April 17, 2020, the Governor announced executive
order GA-15, which becomes effective when GA-09 expires and
continues until 11:59 p.m. on May 8, 2020. As discussed infra,
GA-15 imposes similar—but not identical—requirements as
those imposed by GA-09.

65a

“extreme cases,” and whether the measures
are pretextual—that is, arbitrary or
oppressive. Id. at 38. At the same time,
however, courts may not second-guess the
wisdom or efficacy of the measures. Id. at 28,
30.
Abbott II, 2020 WL 1685929, at *7 (cleaned up). We
also articulated how the Jacobson framework works
with the Casey undue-burden analysis. Id. at *11
(discussing Planned Parenthood of Se. Pa. v. Casey,
505 U.S. 833 (1992)). A court should “ask[ ] whether
GA-09 imposes burdens on abortion that ‘beyond
question’ exceed its benefits in combating the
epidemic Texas now faces.” Id. (quoting Jacobson, 197
U.S. at 31). We emphasized that this analysis would
“require[ ] careful parsing of the evidence” and that
“[t]hese are issues that the parties may pursue at the
preliminary injunction stage, where Respondents will
bear the burden to prove, by a clear showing, that they
are entitled to relief . . . in any particular
circumstance.” Id. at *11–12 (cleaned up).
The day following our mandamus, April 8, 2020,
the district court: (1) vacated its March 30 TRO; (2)
cancelled the telephonic preliminary injunction
hearing previously scheduled for April 13; and (3)
ordered the parties to file a joint status report by April
15 outlining a schedule for a new preliminary
injunction hearing on a yet-unannounced date. That
same day, Respondents filed a new TRO application
supported by one new declaration. The next day, April
9, the district court convened a brief telephone
conference with the parties, during which the court
declined to allow Petitioners either to file a responsive
pleading or submit evidence opposing the application.

66a

In doing so, the court remarked to Petitioners, “[I]f I
were to make a ruling that was unsatisfactory to the
State defendants before then, then you may head back
to the Circuit with it.” Transcript of 4/9/20 Tele. Conf.
at 14:39.
Later that day, the court issued a new TRO.
Abbott III, 2020 WL 1815587. Adopting Respondents’
proposed findings of fact and conclusions of law,
compare id. at *1–7, with Proposed TRO, App. 445–57,
this TRO restrains Petitioners from enforcing GA-09
as follows: (1) “as a categorical ban on all abortions
provided by Plaintiffs”; (2) as to “medication
abortions”; (3) as to “procedural8 abortion[s]
[provided] to any patient who, based on the treating
physician’s medical judgment, would be more than 18
weeks LMP on April 22, 2020, and likely unable to
reach an ambulatory surgical center in Texas or to
obtain abortion care”; and (4) as to “procedural
abortion[s] [provided] to any patient who, based on the
treating physician’s medical judgment, would be past
the legal limit for an abortion in Texas—22 weeks
8 “Procedural” abortions, the term used by Respondents and
the district court, refers to what are more commonly called
“surgical” abortions. See, e.g., Gonzales v. Carhart, 550 U.S. 124,
175 (2007) (Ginsburg, J., dissenting) (referring to “surgical
abortions”) (quoting Carhart v. Ashcroft, 331 F. Supp.2d 805,
1011 (D. Neb. 2004), aff’d, 413 F.3d 791 (8th Cir. 2005)); Stenberg
v. Carhart, 530 U.S. 914, 924 (2000) (citing M. Paul et al., A
Clinician’s Guide to Medical and Surgical Abortion (1999));
Casey, 505 U.S. at 969 (Rehnquist, J., concurring in the judgment
in part and dissenting in part) (referring to “any other surgical
procedure except abortion”) (quoting Webster v. Reprod. Health
Servs., 492 U.S. 490, 517 (1989) (plurality opinion)); see also, e.g.,
Brief for Petitioners at 33 n.64, Planned Parenthood v. Casey, 505
U.S. 833 (1992) (Nos. 91-744, 91-902), 1992 WL 12006398
(referring to “induced abortion” as a “surgical procedure[ ]”).

67a

LMP—on April 22, 2020.” Abbott III, 2020 WL
1815587, at *7.
On April 10, Petitioners again requested
mandamus from our court, this time seeking vacatur
of the April 9 TRO. On April 10, we administratively
stayed the TRO except as to women who would reach
22 weeks LMP on April 22. Abbott IV, 2020 WL
1844644. On April 13, we denied an emergency stay,
and lifted the administrative stay, as to that part of
the TRO applying to medication abortions. Abbott V,
2020 WL 1866010.9
On April 14, the district court set a telephonic
preliminary injunction hearing for April 29. Doc. 82.
The court also extended the April 9 TRO—“in its
entirety under the same terms and conditions except
as modified by [our orders]”—until May 1, 2020, at
5:00 p.m. Id. The court stated there was “good cause”
for extending the TRO “so that the court and parties
have adequate time to prepare for [the April 29]
hearing.” Id.
On April 15, the Governor issued executive order
GA-15, which becomes effective when GA-09 expires
and continues until 11:59 p.m. on May 8, 2020. GA1510 is similar to GA-09, but has some textual
9 It is curious that the dissenting opinion accuses the
majority of altering the availability for abortion six times. In the
first place, it was back-to-back TROs following a mandamus that
altered abortions availability. In the second place, the dissenting
judge joined the denial of the stay as to medication abortions.
10 Here is the pertinent text of the two orders, with
differences noted in italics:
GA-09: [A]ll licensed health care professionals and all
licensed health care facilities shall postpone all
surgeries and procedures that are not immediately
medically necessary to correct a serious medical

68a

differences as well as an additional exception for
certain facilities.11
II.
Federal courts “may issue all writs necessary or
appropriate in aid of their respective jurisdictions and
agreeable to the usages and principles of law.” 28
condition of, or to preserve the life of, a patient who
without immediate performance of the surgery or
procedure would be at risk for serious adverse medical
consequences or death, as determined by the patient’s
physician.
GA-15: All licensed health care professionals and all
licensed health care facilities shall postpone all
surgeries and procedures that are not medically
necessary to diagnose or correct a serious medical
condition of, or to preserve the life of, a patient who
without timely performance of the surgery or procedure
would be at risk for serious adverse medical
consequences or death, as determined by the patient’s
physician[.]
See Tex. Exec. Order No. GA-15 (Apr. 17, 2020),
https://gov.texas.gov/uploads/files/press/EO-GA-15_hospital_cap
acity_COVID-19_TRANS_04-17-2020.pdf. Because the TRO as
issue in this petition only restrains enforcement of GA-09, we
express no opinion on the effect, if any, of the different language
in GA-15.
11 The new exception applies to:
any surgery or procedure performed in a licensed health
care facility that has certified in writing to the Texas
Health and Human Services Commission both: (1) that
it will reserve at least 25% of its hospital capacity for
treatment of COVID-19 patients, accounting for the
range of clinical severity of COVID-19 patients; and (2)
that it will not request any personal protective
equipment from any public source, whether federal,
state, or local, for the duration of the COVID-19
disaster.
Id. Again, we express no opinion on the effect, if any, of this new
exception on the issues in this litigation.

69a

U.S.C. § 1651(a). That includes the writ of mandamus
sought by Petitioners. See Cheney v. U.S. Dist. Court
for D.C., 542 U.S. 367, 380 (2004); In re Gee, 941 F.3d
153, 157 (5th Cir. 2019). Mandamus is proper only in
“exceptional circumstances amounting to a judicial
usurpation of power or a clear abuse of discretion.” In
re Volkswagen of Am., Inc., 545 F.3d 304, 309 (5th Cir.
2008) (en banc) (quoting Cheney, 542 U.S. at 380). An
“abuse of discretion” becomes a “clear abuse of
discretion” when it “produce[s] a patently erroneous
result.” Id. at 310. The writ has issued “where it was
the only means of forestalling intrusion by the federal
judiciary on a delicate area of federal-state relations
[and] where it was necessary to confine a lower court
to the terms of an appellate tribunal’s mandate.” Will
v. United States, 389 U.S. 90, 95–96 (1967) (citing
Maryland v. Soper, 270 U.S. 9 (1926) (federal-state
relations) and United States v. U.S. Dist. Ct., 334 U.S.
258 (1948) (effectuating appellate mandate)).
Before prescribing this strong medicine, “[w]e ask
(1) whether the petitioner has demonstrated that it
has no other adequate means to attain the relief it
desires; (2) whether the petitioner’s right to issuance
of the writ is clear and indisputable; and (3) whether
we, in the exercise of our discretion, are satisfied that
the writ is appropriate under the circumstances.” In
re Itron, Inc., 883 F.3d 553, 567 (5th Cir. 2018)
(quoting Cheney, 542 U.S. at 380–81) (cleaned up).
“These hurdles, however demanding, are not
insuperable. They simply reserve the writ for really
extraordinary causes.” Gee, 941 F.3d at 158 (cleaned
up). In such cases, mandamus provides a “useful
‘safety valve[ ]’ for promptly correcting serious errors.”
Mohawk Indus., Inc. v. Carpenter, 558 U.S. 100, 111

70a

(2009) (quoting Digital Equipment Corp. v. Desktop
Direct, Inc., 511 U.S. 863, 883 (1994)).
As in Abbott II, we address each prong in turn,
beginning with the second. Abbott II, 2020 1685929,
at *5.
III.
A. Failure to Narrowly Tailor April 9 TRO
We first address two threshold errors in the April
9 TRO that demonstrate Petitioners’ right to the writ.
Because “the scope of injunctive relief is dictated by
the extent of the violation established, [t]he district
court must narrowly tailor an injunction to remedy
the specific action which gives rise to the order.” John
Doe #1 v. Veneman, 380 F.3d 807, 818 (5th Cir. 2004)
(cleaned up). The April 9 TRO fails this narrow
tailoring requirement in two obvious ways.
First, the TRO enjoins enforcement of GA-09 “as a
categorical ban on all abortions provided by
Plaintiffs.” Abbott III, 2020 WL 1815587, at *7. But
GA-09 is obviously not a “categorical ban on all
abortions.” Because it expires on April 22, it is not a
ban, but a generally applicable postponement of PPEconsuming surgeries and procedures. And as we have
explained already, GA-09 facially exempts surgeries
and procedures immediately necessary to “correct a
serious medical condition of, or to preserve the life of,
a patient who without immediate performance of the
surgery or procedure would be at risk for serious
adverse medical consequences or death, as
determined by the patient’s physician.” Abbott II,
2020 WL 1685929, at *3. The district court reached its
overbroad construction of GA-09 by referring to the
Attorney General’s “interpretation” in a “press

71a

release,” which the court maintained “has been
adopted by the State Defendants.” Abbott III, 2020 WL
1815587, at *2. But Abbott II already found this chain
of reasoning flawed. We found “no reason to believe
[the] press release has the force of law,” and, in any
event, the press release itself recognized GA-09
exempts abortions “medically necessary to preserve
the life or health of the mother.” Abbott II, 2020 WL
1685929, at *13 n.25. The district court also cited no
evidence suggesting that the “State Defendants” have
adopted its overreading of GA-09.
Second, as now extended to May 1, the April 9
TRO is not “narrowly tailor[ed]” to remedy any harm
caused by GA-09 because it extends beyond the
expiration of GA-09. See John Doe #1, 380 F.3d at 818.
By its terms, GA-09 lasts “until 11:59 p.m. on April 21,
2020.”12 After that point, there will be no “actual case
or controversy” between the parties, John Doe #1, 380
F.3d at 814 (citation omitted), and no enforcement of
GA-09 for a court to restrain. The fact that the
Governor has since announced that a new order—GA15—will take effect on April 22 does nothing to change
this conclusion, as the extended TRO at issue here
applies only to GA-09. By purporting to restrain
Petitioners past the expiration date of GA-09, the
district court exceeded its jurisdiction. See, e.g.,
Preiser v. Newkirk, 422 U.S. 395, 401 (1975) (a federal
court’s judgment must award “specific relief through
a decree of a conclusive character, as distinguished
from an opinion advising what the law would be upon
a hypothetical state of facts”) (quoting North Carolina
12
Tex. Exec. Order No. GA-09 (Mar. 22, 2020),
https://gov.texas.gov/uploads/files/press/EO-GA_09_COVID-19_
hospital_capacity_IMAGE_ 03-22-2020.pdf.

72a

v. Rice, 404 U.S. 244, 246 (1971)). Likewise, “since the
scope of injunctive relief is dictated by the extent of
the violation established,” the relief was overbroad
because no violation can occur after 11:59 p.m. on
April 21. See Califano v. Yamasaki, 442 U.S. 682, 702
(1979). We therefore conclude that Petitioners have
demonstrated entitlement to the writ.
B. Failure to Dismiss Governor and Attorney
General Under Eleventh Amendment
Petitioners also argue they are entitled to
mandamus relief because the district court violated
the Eleventh Amendment by purporting to enjoin the
Governor and Attorney General. We agree. In Abbott
II, we instructed the district court to “consider
whether the Eleventh Amendment requires dismissal
of the Governor or Attorney General because they lack
any ‘connection’ to enforcing GA-09 under Ex parte
Young, 209 U.S. 123 (1908).” Abbott II, 2020 WL
1685929, at *5 n.17 (citing City of Austin v. Paxton,
943 F.3d 993, 999 (5th Cir. 2019); Morris v.
Livingston, 739 F.3d 740, 745–46 (5th Cir. 2014)). The
district court’s cursory analysis of this question in its
April 9 TRO was wrong.
Ex parte Young allows suits for injunctive or
declaratory relief against state officials, provided they
have sufficient “connection” to enforcing an allegedly
unconstitutional law. City of Austin, 943 F.3d at 997
(citing Raj v. La. State Univ., 714 F.3d 322, 328 (5th
Cir. 2013)). Otherwise, the suit is effectively against
the state itself and thus barred by the Eleventh
Amendment and sovereign immunity. See Va. Office
for Prot. & Advocacy v. Stewart, 563 U.S. 247, 253
(2011); Will v. Mich. Dep’t of State Police, 491 U.S. 58,
71 (1989); Edelman v. Jordan, 415 U.S. 651, 663–69

73a

(1974). If the official sued is not “statutorily tasked
with enforcing the challenged law,” then the requisite
connection is absent and “our Young analysis ends.”
City of Austin, 943 F.3d at 998 (citing Morris, 739 F.3d
at 746).
As to the Governor, the district court reasoned he
has “some connection” to GA-09 because of his
“statutory authority [under] Texas Government Code
§ 418.012.” Abbott III, 2020 WL 1815587, at *6
(cleaned up). But the cited section empowers the
Governor to “issue,” “amend,” or “rescind” executive
orders, not to “enforce” them. Tex. Gov’t Code
§ 418.012. The power to promulgate law is not the
power to enforce it. Cf. Martin v. Occupational Safety
& Health Review Comm’n, 499 U.S. 144, 152 (1991)
(distinguishing between the Secretary of Labor’s
“powers to promulgate and to enforce national health
and safety standards”). The April 9 TRO addresses
only “enforcing” GA-09 against plaintiffs who provide
certain abortion procedures. Abbott III, 2020 WL
1815587, at *7. And we have already explained that
violating GA-09 may result in “administrative or
criminal penalties,” Abbott II, 2020 WL 1685929, at *3
n.12, enforced by health and law enforcement officials
and not the Governor. Consequently, we hold the
Governor lacks the required enforcement connection
to GA-09 and may not be sued for injunctive relief
under the Eleventh Amendment. See Morris, 739 F.3d
at 746 (when challenged law “does not specially task
[Texas] Governor . . . with its enforcement, or suggest
that he will play any role at all in its enforcement,”
Governor “is not a proper defendant”).
As to the Attorney General, the district court
reasoned that he has “authority” to prosecute

74a

violations of GA-09 “at the request of local
prosecutors,” and that he has also “publicly
threatened enforcement” against abortion providers.
Abbott III, 2020 WL 1815587, at *6. Neither rationale
establishes the Attorney General’s “connection” to
enforcing GA-09 for Ex parte Young purposes. Nothing
in GA-09 tasks the Attorney General with enforcing it.
Speculation that he might be asked by a local
prosecutor to “assist” in enforcing GA-09, see Tex.
Gov’t Code § 402.028, is inadequate to support an Ex
parte Young action against the Attorney General. See
City of Austin, 943 F.3d at 1000 (evidence that
Attorney General “might . . . bring a proceeding to
enforce” the law insufficient under Ex parte Young).
Nor does a “press release” by the Attorney General,
Abbott III, 2020 WL 1815587, at *2, show authority to
enforce GA-09 for Ex parte Young purposes. Here, the
Attorney General did not even threaten to enforce GA09 in the disputed press release. The release warns
that “[t]hose who violate the governor’s order will be
met with the full force of the law.” App. 31. The
Attorney General threatened that GA-09 would be
enforced, not that he would enforce it. Moreover, our
cases do not support the proposition that an official’s
public statement alone establishes authority to
enforce a law, or the likelihood of his doing so, for
Young purposes. Cf., e.g., City of Austin, 943 F.3d at
1001 (applying Ex parte Young exception because
Attorney General sent “threatening letters” to enforce
DTPA and was authorized to enforce that law)
(discussing NiGen Biotech, LLC v. Paxton, 804 F.3d
389, 392–95 (5th Cir. 2015)). Consequently, we hold
the Attorney General also lacks the required
enforcement connection to GA-09 and may not be sued

75a

for injunctive relief under the Eleventh Amendment.
See City of Austin, 943 F.3d at 1002.
Mandamus
is
appropriate
to
“control
jurisdictional excesses,” Gee, 941 F.3d at 158 (citation
omitted), such as allowing suits against state officials
in violation of the Eleventh Amendment and sovereign
immunity. See, e.g., Block v. Tex. Bd. of Law
Examiners, 952 F.3d 613, 617 (5th Cir. 2020) (“Under
the Eleventh Amendment, federal courts lack
jurisdiction over suits against nonconsenting states.”);
Sissom v. Univ. of Tex. High Sch., 927 F.3d 343, 347
(5th Cir. 2019) (“[B]ecause the Eleventh Amendment
textually divests federal courts of jurisdiction over
states, it is indispensable to assessing this court’s
jurisdiction.”). Petitioners have demonstrated a clear
and indisputable right to the writ on this ground.
C. Failure to Follow Abbott II Mandate
Petitioners are also entitled to mandamus because
the district court, in entering the April 9 TRO, failed
to follow our mandate in Abbott II. Most obviously, we
instructed the district court to analyze GA-09 under
“the framework governing emergency exercises of
state authority during a public health crisis,
established . . . in Jacobson.” Abbott II, 2020 WL
1685929, at *5. We articulated the Jacobson
framework, id. at *6–7, and emphasized that adhering
to its narrow compass of judicial review is necessary
to prevent courts from “second-guess[ing] the wisdom
or efficacy” of emergency public health measures. Id.
at *7. Yet the district court did not apply Jacobson:
indeed, the court did not even state what Jacobson’s
framework is, but instead merely cited Jacobson in
passing in its conclusion. See Abbott III, 2020 WL
1815587, at *6 (stating only that applying GA-09 to

76a

certain abortion categories “violates the standards set
forth in both [Casey] and [Jacobson]).” That flatly
contradicted our Abbott II mandate, which left no
doubt that “[o]ur overriding consideration” was that
any further proceedings “adhere to the controlling
standards” in Jacobson “for adjudging the validity of
emergency measures like [GA-09].” Abbott II, 2020
WL 1685929, at *2.
The April 9 TRO violated the “mandate rule,” a
particular manifestation of the law-of-the-case
doctrine barring reexamination of issues already
decided by an appellate court. See United States v.
Smith, 814 F.3d 268, 273 (5th Cir. 2016). Under the
mandate rule, a district court “must implement both
the letter and the spirit of the appellate court’s
mandate and may not disregard the explicit directives
of that court.” United States v. Lee, 358 F.3d 315, 321
(5th Cir. 2004) (quoting United States v. Matthews,
312 F.3d 652, 657 (5th Cir. 2002)). Thus, this court has
held that a district court violated the mandate rule
when, after an appeal, a district court modified a
consent decree “without holding a hearing and
demanding a more developed factual record.” League
of United Latin Am. Citizens, Dist. 19 v. City of Boerne,
675 F.3d 433, 437–38 (5th Cir. 2012) (LULAC II).
Where a district court fails to fully implement the
mandate, a party may seek a writ of mandamus to
enforce compliance. See Kapche v. City of San Antonio,
304 F.3d 493, 500 (5th Cir. 2002).
Our Abbott II opinion plainly expected, as a
foundational premise for applying Jacobson, that the
district court would allow the parties to adduce
additional evidence about the effects of GA-09 in
specific circumstances. Our opinion made this

77a

impossible to miss. For example, we said that “[t]he
district court has scheduled a telephonic preliminary
injunction hearing for April 13, 2020, when all parties
will presumably have the chance to present evidence
on the validity of applying GA-09 in specific
circumstances.” Abbott II, 2020 WL 1685929, at *2
(emphases added). Following that adversarial
hearing, we explained, “[t]he district court can then
make targeted findings . . . about the effects of GA-09
on abortion access.” Id. (emphasis added). We said the
same thing a few pages later: despite finding no
evidence in the record that GA-09 violated Casey, we
stated that “Respondents will have the opportunity to
show at the upcoming preliminary injunction hearing
that certain applications of GA-09 may” violate Casey
“if they prove that, ‘beyond question,’ GA-09’s burdens
outweigh its benefits in those situations.” Id. at *9
(first and third emphases added). Similarly, after
canvassing the record, we declined to decide whether
a more narrowly tailored injunction would satisfy
Jacobson because “parties may pursue [those issues]
at the preliminary injunction stage,” then scheduled
for April 13. Id. at *12 (emphasis added). And again:
in assessing whether Respondents had any evidence
showing GA-09 pretextually targeted abortion, we
found “no evidence . . . [on] the record before us” of
pretext, but stated that “Respondents will have the
opportunity . . . to present additional evidence in
conjunction with the district court’s preliminary
injunction hearing.” Id. at *13 (emphasis added).
To be sure, the district court could have
rescheduled the preliminary injunction hearing (as it
now has done, to April 29) or afforded the parties some
other way of presenting new evidence on the burdens
and benefits of GA-09 in specific circumstances. But

78a

our opinion left no doubt that an additional
evidentiary showing was necessary to properly apply
Jacobson in particular circumstances. Among other
gaps in the record, for example, was evidence showing
what PPE is being used in medication and surgical
abortions during the current pandemic, or evidence
showing the standard of care for those procedures
during the pandemic. See infra Part III.D.1.a. Without
any means of answering critical questions like those,
the district court lacked any basis for finding, as
Jacobson requires, that GA-09 lacks a “real or
substantial relation” to the health crisis, or that
“beyond all question” it “plain[ly]” violates Casey.
Abbott II, 2020 WL 1685929, at *6 (quoting Jacobson,
197 U.S. at 31).
It is no answer to say that a TRO may be based on
a one-sided evidentiary record. See Fed. R. Civ. P.
65(b)(1) (allowing issuance of TRO without notice);
Dilworth v. Riner, 343 F.2d 226, 229 (5th Cir. 1965)
(observing that TROs are “generally issued ex parte or
after a hearing of a summary character”). Our plain
instructions in Abbott II were that properly applying
Jacobson to GA-09 required “additional evidence”
targeted to specific circumstances. Abbott II, 2020 WL
1685929, at *13. It is also no answer to say that our
decision did not tell the district court not to cancel the
preliminary injunction hearing and enter a different
TRO. The mandate rule requires the district court to
“implement both the letter and the spirit of the
appellate court’s mandate.” Lee, 358 F.3d at 321. Our
decision mentioned the then-upcoming preliminary
injunction hearing seven times as a forum for
adducing evidence from both sides about specific
applications of GA-09. See Abbott II, 2020 WL
1685929, at *2, *4 n.16, *8 n.19, *9, *11 n.24, *12, *13.

79a

The district court flouted both the letter and the spirit
of our mandate by cancelling that adversarial hearing,
convening a snap-TRO “hearing” at which one side
was barred from offering evidence or argument, and
then immediately issuing a new TRO based on
evidence we had already ruled insufficient to show a
violation of Jacobson and Casey. See LULAC II, 675
F.3d at 438.
The LULAC litigation provides helpful guidance.
In LULAC I, this court vacated the modification of a
consent decree because “the paucity of the record in
[that] case provided an insufficient basis for the
district court to determine that modification was
warranted.” League of United Latin Am. Citizens,
Dist. 19 v. City of Boerne, 659 F.3d 421, 438 (5th Cir.
2011) (LULAC I). This court instructed that on
remand, “the district court should permit
supplemental filings and conduct proceedings, as
necessary, to develop a sufficient record.” Id. at 439–
40. Yet on remand, the district court entered a new
“temporary” modification of the consent decree,
without “permit[ting] the parties to conduct discovery,
or hold an evidentiary hearing to receive competing
expert and lay testimony, or even offer [one party] a
substantial opportunity to rebut the evidence that [the
other parties] presented.” LULAC II, 675 F.3d at 438.
The LULAC II panel vacated that new “temporary”
order, holding that “[b]y approving a modification of
the Consent Decree without holding a hearing and
demanding a more developed factual record, the
district court failed to follow the ‘letter and spirt’ of
the LULAC I mandate.” Id. at 438.
So too here. After explaining that the factual
record was insufficient to support the TRO in Abbott

80a

I, we instructed that after the “preliminary injunction
hearing scheduled for April 13, 2020” at which the
parties could “present additional evidence,” Abbott II,
2020 WL 1685929, at *13, the district court could find
that GA-09 constituted an undue burden if “beyond
question” the law’s burdens exceeded its benefits. Id.
at *11. “The district court was required to do this
analysis” the first time, we explained, and “that
analysis would have required careful parsing of the
evidence.” Id. Yet on remand the district court entered
a second TRO “without holding a hearing and
demanding a more developed factual record.” See
LULAC II, 675 at 438. In doing so, “the district court
failed to follow the ‘letter and spirit’ of the” Abbott II
mandate. See id.13
To be sure, Respondents suggest that the April 9
TRO is based on a “more robust” record than the one
13 There is one minor distinction between this case and
LULAC. As here, after the district court entered the second
“temporary” modification of the order, the intervenor-appellant
sought mandamus. See LULAC II, 675 F.3d at 437. Unlike here,
however, the LULAC II panel denied the writ because the second
order, though labeled “temporary,” was “not a temporary
restraining order,” in substance, and could be appealed as a
preliminary injunction. See LULAC II, 675 F.3d at 437 n.2 (citing
LULAC v. City of Boerne, No. 12-50111, slip op. at 2–3). In this
litigation, we held that this court lacked jurisdiction over an
appeal of the extended April 9 order, concluding that it was in
effect TRO. See Planned Parenthood Ctr. for Choice v. Abbott, No.
12-50314, slip op. at 2. But that is a distinction without a
difference: Mandamus is an appropriate remedy for violations of
the mandate rule. See Will, 389 U.S. at 96 (explaining mandamus
is appropriate where “necessary to confine a lower court to the
terms of an appellate tribunal’s mandate”); Kapche, 304 F.3d at
500 (“[T]he appropriate action at this point would appear to
involve the issuance of a writ of mandamus, compelling the
district court to comply with our prior mandate.”).

81a

on which the district court based its March 30 TRO.
But on critical points, which we analyze in more detail
below, the April 9 TRO relied on the same ten
declarations already before the district court when it
issued the March 30 TRO.14 Furthermore, after the
March 30 TRO issued, Respondents filed
supplemental declarations in the district court
record—and then proceeded to use those declarations
to defend against mandamus in our court.15 In
granting mandamus, we reviewed the record—
including those supplemental affidavits—and found
the record before us failed to support the conclusion
that GA-09 violates Jacobson and Casey.16 The district
14 Compare Abbott III, 2020 WL 1815587, at *2–6 (relying,
inter alia, on declarations from Barraza, Dewitt-Dick, Ferrigno,
Hagstrom Miller, Klier, Lambrecht, Schutt-Aine, Wallace,
Connor, and Jane Doe), with Planned Parenthood Ctr. for Choice
v. Abbott, No. 1:20-cv-00323-LY (W.D. Tex.) (Dkt. Nos. 7 & 29)
(Mar. 25, 2020 & Mar. 30, 2020) (listing same declarations as
exhibits to TRO application).
15 Compare Planned Parenthood Ctr. for Choice v. Abbott,
No. 1:20-cv-00323-LY (W.D. Tex.) (Dkt. No. 49) (Apr. 2, 2020)
(noting “supplemental filing” of declarations supporting
preliminary injunction), with Abbott II, ECF 53 at 4, 6, 14, 17–
21, 23 (5th Cir. Apr. 2, 2020) (No. 20-50264) (opposition to
mandamus relying on supplemental declarations). Indeed,
Respondents’ opposition conceded that it “cite[s] to declarations
filed in the district court on April 2, 2020,” in support of its
preliminary injunction motion. ECF 53 at 4 n.2 (citing Dist. Ct.
Dkt. No. 49).
16 See Abbott II, 2020 WL 1685929, at *9 (“[I]t cannot be
maintained on the record before us that GA-09 bears ‘no real or
substantial relation’ to . . . the COVID-19 pandemic.”) (quoting
Jacobson, 197 U.S. at 31); id. at *11 & n.23–24 (noting conflicting
evidence regarding whether abortion procedures consume PPE
based on “[o]ur own review of the record”); id. at *13 (“[O]n this
record, we see no evidence that GA-09 was meant to exploit the
pandemic in order to ban abortion or . . . unreasonably delay

82a

court hardly answered Abbott II’s call for more
evidence by relying on evidence we had already
reviewed and found wanting. Moreover, we called for
additional evidence from both sides. See Abbott II,
2020 WL 1685929, at *2 (emphasizing “all parties”
would be able to “present evidence on the validity of
applying GA-09 in specific circumstances”). Yet the
district court barred Petitioners from proffering new
evidence or argument with respect to the April 9 TRO.
Mandamus is justified to correct the district
court’s failure to follow our Abbott II mandate. See,
e.g., Will v. United States, 389 U.S. 90, 95–96 (1967)
(explaining that “the writ [of mandamus] has been
invoked . . . where it was necessary to confine a lower
court to the terms of an appellate tribunal’s
mandate”). This is all the more vital here because the
failure to follow our mandate led the district court to
“embarrass the executive arm of the Government” and
“intru[de] . . . on a delicate area of federal-state
relations.” Cheney, 542 U.S. at 381 (cleaned up).17
Here too, Petitioners have demonstrated their clear
and indisputable right to the writ.
D. Patently Erroneous Results and Usurpation
of the State’s Authority to Craft Emergency
Health Measures
Mandamus relief is also justified because the
district court’s failure to follow our Abbott II mandate
abortions” (cleaned up)); id. (“Based on that record, we cannot
say that GA-09 is a pretext for targeting abortion.”).
17 Curiously, and as a possible further indication that the
district court failed to follow our Abbott II mandate, the April 9
TRO “incorporate[d] by reference” the conclusions of law from
Abbott I that this court held were mistaken in Abbott II. See
Abbott III, 2020 WL 1815587, at *7.

83a

led to patently erroneous results and usurped the
state’s authority to craft emergency public health
measures. See In re JPMorgan Chase & Co., 916 F.3d
494, 500 (5th Cir. 2019) (cleaned up) (mandamus
warranted where there has been a “usurpation of
judicial power” or “a clear abuse of discretion that
produces patently erroneous results”). We discuss
these problems below, both to explain why we grant
mandamus as to two of the three categories of abortion
procedures restrained by the April 9 TRO, and also to
provide guidance at the preliminary injunction stage.
1. The April 9 TRO Patently Erred by Exempting
Medication Abortions from GA-09
There is no constitutional right to any particular
abortion procedure. Gonzales v. Carhart, 550 U.S. 124,
164–65 (2007). Yet the district court bluntly concluded
that GA-09’s temporary postponement of one kind of
early-abortion method—medication abortions—is
“beyond question” a violation of Casey. See Abbott III,
2020 WL 1815587 at *6 (concluding, “based on the
court’s findings of fact, it is beyond question that [GA09’s] burdens outweigh the order’s benefits as applied
to . . . medication abortion”). Despite our instructions
in Abbott II, the district court failed to compile a
record that remotely justifies this conclusion. Indeed,
the record before the district court—which we already
reviewed in Abbott II and found inconclusive—does
not provide the tools even to answer the pertinent
factual question. That question is not, as the district
court evidently thought, whether medication abortion
consumes PPE during normal circumstances, but
instead whether it does so under the pandemic
conditions Texas faces and GA-09 addresses. As for
the legal question, the district court’s analysis fails to

84a

address why temporary postponement of one type of
early-abortion method is “beyond question”
unconstitutional if it leaves open other means of
obtaining an abortion. Restraining state officials from
implementing an emergency health measure based on
such findings is “a clear abuse of discretion that
produces patently erroneous results.” Abbott II, 2020
WL 1685929, at *5 (quoting JPMorgan Chase, 916
F.3d at 500 (cleaned up)).
a. Failure to consider PPE usage and standard of
care during the pandemic
As a general matter, we observe that the
regulation of medication abortion in Texas differs
from some other states. In Texas, “[b]efore the
physician gives, sells, dispenses, administers,
provides, or prescribes an abortion-inducing drug, the
physician must examine the pregnant woman.” Tex.
Health & Safety Code § 171.063(c). During that
examination, the patient must receive an ultrasound
examination. Tex. Health &
Safety
Code
§ 171.012(a)(4). The physician cannot provide the
patient an abortion until the second visit. Id. And the
patient must schedule a follow-up appointment to
ensure the abortion is complete. Tex. Health & Safety
Code § 171.063(e)-(f); 25 Tex. Admin. Code
139.53(b)(4).18
The district court found, as a matter of fact, that
“[p]roviding medication abortion does not require the
use of any PPE.” Abbott III, 2020 WL 1815587, at *3,
¶ 15. The pertinent question, however, is whether
18 At the preliminary injunction stage, a relevant question is
whether these acts ancillary to a medication abortion, such as the
ultrasound or follow-up appointment, are to be considered when
determining PPE usage.

85a

medication abortions require PPE during the COVID19 pandemic. See GA-09 (stating that “a shortage of
hospital capacity or [PPE] would hinder efforts to cope
with the COVID-19 disaster”). Respondents
submitted no evidence on that question: they neither
stated what PPE they were consuming “during the
COVID-19 disaster,” nor submitted evidence
establishing the standard of care for medication
abortions during the pandemic. Scour the twenty
declarations Respondents submitted to support their
claim. Does any testify that during the current
pandemic, abortion providers are not wearing masks?
No. Nor would one expect such a statement when
everyday life now presents police officers, priests, mail
carriers, grocery store cashiers, gas station
attendants, and retail clerks wearing them every
day.19 The question, then, is not whether medication
abortions consume PPE in normal times, but whether
they consume PPE during a public health emergency
involving a spreading contagion that places severe
strains on medical resources. See Abbott II, 2020 WL
1685929, at *1. The record contains scant material to
answer that question—certainly not to a degree to
permit the conclusion that merely postponing
medication abortions “beyond question” violates the
right to abortion.
19 For their part, Petitioners did submit evidence showing
the standard of care may have changed and that abortion
providers may be consuming more PPE because of COVID-19.
See, e.g., Harstad Decl. at ¶ 4, App. 230 (“Due to the current
COVID-19 outbreak, the specific type of mask that is currently
required is a N95 mask.”). But our point is not to weigh the
evidence. Rather, the point is to demonstrate that the record
before the district court does not purport to answer the pertinent
question about PPE use during the pandemic.

86a

The April 9 TRO did not analyze PPE
consumption for medication abortions during the
COVID-19 pandemic. The district court, with one
minor exception, relied exclusively on declarations
that were before it when it issued the March 30 TRO.
See Abbott III, 2020 WL 1815587 at *3, ¶¶ 10, 13, 15
(relying on prior declarations); but see id. ¶ 14 (relying
on new declaration). In Abbott II, we explained that
those declarations were “unclear” as to “how PPE is
consumed in medication abortions.” See Abbott II,
2020 WL 1685929 at *11. Those declarations did not,
and still do not, speak to the question of PPE usage
during the present public health emergency.
Moreover, there has been no consideration yet
how the pandemic has affected the standard of care for
abortion. No record evidence supports the
contention—which provides the unstated premise of
the district court’s findings—that the standard of care
for medication abortion during the COVID-19 is
identical to the normal standard. Relatedly, the record
does not establish what PPE abortion providers
presently use to protect against the spread of the
virus. Indeed, some record evidence indicates that
reasonable abortion providers would change PPE
usage during the pandemic. For instance, the state’s
infectious disease expert declared that “[n]ot wearing
face masks and other PPE when caring for patients
who are not under investigation for COVID 19 . . .
exposes health care workers to transmission of
infection” from asymptomatic patients. Marier Decl.
¶ 12, App. 242.
The declarations the district court cited (which are
exclusively those of Respondents) consider medication
abortion only during normal times. Abbott III, 2020

87a

WL 1815587 at *3, ¶ 15. One physician describes a
clinic’s PPE usage during an “average week.” Wallace
Decl. ¶ 12. That says nothing about PPE usage during
a pandemic. Cf. Klier Declaration ¶ 11, App. 110
(“Before the COVID-19 outbreak, Austin Women’s
used no PPE for medication abortion.”) (emphasis
added). And a declaration recently filed in the district
court clarifies that at least one plaintiff began using
surgical masks in response to COVID-19. See
Rosenfeld Decl. ¶ 13 (“Since the COVID-19 outbreak
began, Houston Women’s Clinic has . . . provided our
staff
with
surgical
masks
(not
N95
20
respirators) . . . .”).
In sum, the relevant question is not what PPE is
consumed during normal times but “during the
COVID-19 disaster,” as GA-09 states. Cf. Abbott II,
2020 WL 1685929 at *12 (“[T]he essence of equity is
the ability to craft a particular injunction meeting the
exigencies of a particular situation.”). The failure even
to consider that question—as well as to support its

20 Amici have submitted a report that one of the plaintiff
clinics has been operating without sufficient PPE. See Amicus
Brief of 19 States in Support of Petitioners at 16 n. 8 (citing Alex
Caprariello, Planned Parenthood employees laid off, claim it’s
retaliation for voicing concerns (KXAN, Apr. 10, 2020),
https://www.kxan.com/news/local/austin/planned-parenthoodemployees-laid-off-claim-its-retaliation-for-voicing-concerns/)
(“[The former staff member] said there is not enough PPE at the
clinics, workers are being forced to do non-essential work for
patients in-person and they’re not being offered paid sick leave if
they come down with COVID-19 symptoms.”)). This may be
relevant to assessing the benefits of GA-09 in combatting the
spread of COVID-19.

88a

findings with
erroneous.21

record

evidence—was

patently

b. Usurping state authority to craft emergency
health measures
As we explained before, Jacobson prohibits courts
from “usurp[ing] the state’s authority to craft
measures responsive to a public health emergency.”
See Abbott II, 2020 WL 1685929, at *12. Courts have
no authority to ask whether a “particular method
[is]—perhaps, or possibly—not the best.” Jacobson,
197 U.S. at 35. Instead, courts may ask only whether
the state has acted in an “arbitrary, unreasonable
manner.” Id. at 28. During a pandemic emergency,
public authorities must make numerous, complex
judgment calls. GA-09 addresses one of the most
vexing: how to prevent critical strains on medical
resources during a surge in contagious disease. Abbott
II, 2020 WL 1685929, at *1–2. Respondents have
submitted declarations of infectious disease experts
who believe GA-09 is profoundly misguided. See, e.g.,
Bassett Decl. ¶ 6–8, App. 311; Sharfstein Decl. ¶ 9–12,
App. 280–81. Texas authorities believe, to the
21 Additionally, Respondents concede medication abortions
sometimes result in hospitalization. See App. 129. The FDA label
for Mifeprex states that hospitalization “related to medical
abortion” occurs in up to 0.6% of cases. App. 129–30 (describing
use of Mifeprex); U.S. Food & Drug Admin., Mifeprex Label 17,
Table 2, https://www.accessdata.fda.gov/drugsatfda_docs/label/
2016/020687s020lbl.pdf. Applying this figure to Petitioners’
uncontested evidence that about 17,000 medication abortions
were performed in Texas in 2017, see App. 222, medication
abortions can be expected to result in slightly over 100
hospitalizations per year in Texas—or about two per week. In
comparing the benefits and burdens of GA-09, the district court
must weigh those hospitalizations against the delay in women
obtaining a medication abortion.

89a

contrary, that GA-09 is critical to protect the state’s
citizens and has supported that view with its own
medical experts. See, e.g., Marier Decl. ¶ 12, App. 242.
The Supreme Court, and this court, have already
explained how to resolve such an impasse: “[I]f the
choice is between two reasonable responses to a public
crisis, the judgment must be left to the governing state
authorities.” Abbott II, 2020 WL 1685929, at *12
(citing Jacobson, 197 U.S. at 30); cf. Dep’t of Commerce
v. New York, 139 S. Ct. 2551, 2570 (2019) (explaining,
in context of different legal standard, that “the choice
between reasonable policy alternatives in the face of
uncertainty was the Secretary’s to make”). The
district court’s findings in support of the April 9 TRO
failed to heed this basic constraint on judicial power.
In the April 9 TRO, as in the one before, the
district court’s weighing of the public interest
substituted its own opinion for the judgment of the
governing authorities. What we said before applies
here:
[T]he district court did little more than assert
its own view of the effectiveness of GA-09. The
district court did not provide any explanation
of its conclusion that the public health
benefits from an emergency measure like GA09 are “outweighed” by any temporary loss of
constitutional rights.
Abbott II, 2020 WL 1685929 at *12 (discussing Abbott
I, 2020 WL 1502102 at *3). In the April 9 TRO, the
district court concluded in cursory fashion that
Plaintiffs and their patients would “suffer irreparable
harm” absent a TRO, that the “balance of equities
favors Plaintiffs” and that a TRO “serves the public
interest.” Abbott III, 2020 WL 1815587 at *6. The

90a

court added “that entry of a [TRO] to restore abortion
access would serve the State’s interest in public
health.” Id. We find the district court’s approach as
flawed this time as the last.
To begin with, the district court ignored the entire
point of a mitigation measure like GA-09. The concept
of “flattening the curve” has become all-too-familiar
during the pandemic: as applied to GA-09, it means
that delaying procedures now may prevent short-term
exhaustion of critical medical resources. This is one
stated goal of GA-09: it does not prohibit non-essential
procedures, it delays them. As its findings show,
however, the district court preferred to second-guess
this strategy. For instance, the district court found
that delaying abortion access “will not conserve PPE
or hospital resources” because women will remain
pregnant and thus consume more PPE in the long run.
See Abbott III, 2020 WL 1815587 at *4, ¶¶ 20–23. But
that is not a policy choice federal judges are permitted
to make during a public health crisis, if ever.22 Public
authorities are entitled to make a different calculation
to protect citizens: even if GA-09 may increase
consumption of medical resources in the long run,
decreasing consumption now will help weather the
immediate surge of COVID-19 cases.23 Instead of reweighing the state’s cost-benefit calculus, a federal
court “must assume that, when [GA-09] was [issued],
22 Likewise, the dissenting opinion misunderstands the
record regarding PPE use for pregnancy during the pandemic.
Tests and visits have been reduced for pregnancy just as other
medical diagnosis and well visits have.
23 Nor did the district court consider that months will pass
between the time when a woman can generally lawfully obtain
an abortion (20-weeks gestation) and the full-term of a pregnancy
(40-weeks gestation).

91a

the [Governor of Texas] was not unaware of these
opposing theories, and was compelled, of necessity, to
choose between them.” Jacobson, 197 U.S. at 30. The
district court patently erred by doing the opposite. See
Jacobson, 197 U.S. at 31; Abbott II, 2020 WL 1685929,
at *7.
Similarly, the district court found that GA-09 did
not promote the public health, in part, because some
women might travel to other states to obtain
abortions. See Abbott III, 2020 WL 1815587 at *5,
¶ 25. But the evidence shows, as does common sense,
that an emergency measure like GA-09 weighs heavily
on people suffering all kinds of health issues. One
physician declares she has postponed or canceled
surgeries for “patients with possible uterine cancer
and cervical cancer diagnoses who are in need of
surgeries, as well as patients with heavy bleeding who
need surgery but where we can temporarily control
the bleeding with medication.” Thompson Decl. ¶ 4,
App. 235. It is possible that those patients too may
travel to other states to obtain desired procedures.
Moreover, evidence that some women travel to
other states to receive an abortion does not
demonstrate that GA-09 increases the risk of COVID19 transmission. Such a claim would require
comparing the amount of travel that GA-09 has
increased with the amount of travel it has reduced.
That calculation is uncertain: One respondent
provider declares that some women “come from over a
hundred miles to receive care at our clinic.” DewittDick Decl. ¶ 22, App. 87. Another testifies that
patients at her clinic “hail from all over Texas.”
Ferrigno Decl. ¶ 30, App. 95.

92a

A court must assume that the public health
experts at the Texas Department of State Health
Services—not to mention the CDC, the U.S. Surgeon
General, and the Centers for Medicare and Medicaid
Services—weighed these difficult trade-offs between
medical care and public health. Jacobson, 197 U.S. at
30. Federal judges get no vote on the matter. As the
Supreme Court instructed: “[N]o court . . . is justified
in disregarding the action of the [Governor] simply
because in its opinion that particular method was—
perhaps, or possibly—not the best.” Jacobson, 197
U.S. at 35 (cleaned up). The district court’s disregard
of that command usurped the power of the state in a
public health emergency.
c. Failure to carefully parse record evidence
The April 9 TRO also failed to “careful[ly] pars[e]
the evidence,” as instructed by our previous mandate.
See Abbott II, 2020 WL 1685929 at *11. For instance,
the district court did not discuss, or even cite, a single
declaration of submitted by Petitioners.24 It did not
explain why, to take a conspicuous example, it
disregarded the declaration of the state’s infectious
disease expert. Nor did the district court mention the
undisputed evidence that, “[i]f even one person
24 As a general matter, Federal Rule of Civil Procedure 52
does not require “punctilious detail [or] slavish tracing of the
claims issue by issue and witness by witness.” Schlesinger v.
Herzog, 2 F.3d 135, 139 (5th Cir.1993). Certain classes of cases,
however, require district courts to address contrary evidence.
See, e.g., Houston v. Lafayette County, Miss., 56 F.3d 606, 612
(5th Cir.1995) (voting rights); Lopez v. Current Director, 807 F.2d
430, 434 (5th Cir.1987) (employment discrimination). Because
we specifically required such an undertaking here, Abbott II,
2020 WL 1685929, at *11, the district court’s failure to do so
violated the mandate rule. See LULAC, 675 F.3d at 438.

93a

providing care is carrying COVID-19 but not yet
symptomatic, the results could be devastating if that
person is not equipped with proper PPE.” Abraham
Decl. ¶ 4, App. 225. The district court did not explain
whether it disagreed with this statement or thought it
was inapplicable to abortion providers. Nor did the
district court mention record evidence indicating that
N95 masks are now required for surgical abortions to
be performed safely. See Harstad Decl. ¶ 4.25 We say
this, not to make findings ourselves, but to show why
the delicate inquiry in this case requires “careful
parsing of the evidence.” Abbott II, 2020 WL 1685929
at *11. A scalpel must be employed, not a rubber
stamp.
Moreover, the district court’s wholesale adoption
of Respondents’ proposed findings resulted in findings
that are not supported by the record. One example
may suffice. The district court found that, “[a]lthough
some medication abortions require a follow-up
aspiration procedure, the number of those cases is
exceedingly small and can generally be handled in an
outpatient setting.” Abbott III, 2020 WL 1815587, at
*3, ¶ 14 (citing Levison Decl. ¶ 9; Schutt-Aine Decl.
¶ 12). The Levinson paragraph cited speaks only to
25 Consider another jarring incongruity regarding surgical
abortions: Petitioners submitted a declaration from a physician
stating that any physician performing a surgical abortion must
use a face mask and that “[d]ue to the current COVID-19
outbreak, the specific type of mask that is currently required is a
N95 mask.” Harstad Decl. at ¶ 4, App. 230. This declaration is
striking, in light of the district court’s finding that “[o]nly one
physician associated with Plaintiffs has used an N95 mask since
the beginning of the COVID-19 pandemic, and that physician has
been reusing the same mask over and over.” Abbott III, 2020 WL
1815587 at *4, ¶ 19.

94a

the frequency of hospitalization; it says nothing about
how many medication abortions require follow-up
aspiration. See App. 373. Nor does the cited SchuttAine paragraph provide any support for the frequency
of follow-up aspiration. See App. 129. Schutt-Aine
states that “[m]ajor complications—defined as
complications requiring hospital admission, surgery
or blood transfusion—occur in less than one-quarter of
one percent (0.23%) of all abortion cases.” App. 129
(citing Ushma Upadhyay, et al., Incidence of
Emergency Department Visits and Complications
After Abortion, 125 Obstetrics & Gynecology, 175
(2015)). But Figure 1 of the cited article clarifies that
subsequent uterine aspirations (i.e., surgical
abortions) were not considered “surgery” within the
meaning of the article. See Upadhyay, 125 Obstetrics
& Gynecology at 176.
Petitioners, by contrast, submitted evidence
demonstrating the rate of medication abortions
resulting in incomplete abortions, which are treated
either with a repeat dose of medication or aspiration.26
In our court, Respondents contend those numbers are
outdated.27 Analysis of such conflicting evidence is
hard; it requires careful parsing. We reach no
conclusions on the point. District courts, who can
26 See American College of Obstetricians and Gynecologists,
Clinical Guidelines: Medical management of first-trimester
abortion, 89 Contraception 148, 149 (2014), https://www.
contraceptionjournal.org/article/S0010-7824(14)00026-2/pdf
(estimating that 4–8% of mifepristone-induced abortions at seven
weeks gestation, and more than 15% after seven weeks gestation,
result in incomplete abortions).
27 See Opp. to Mandamus at 19 (citing U.S. Food & Drug
Admin., Mifeprex 13 tbl.3 (rev. Mar. 2016), https://www.access
data.fda.gov/drugsatfda_docs/label/2016/020687s020lbl.pdf).

95a

make fact findings after adversarial hearings, are
better suited to the task. Here, however, the district
court declined to avail itself of those tools, instead
cancelling the scheduled preliminary injunction
hearing and issuing a second TRO that adopted all 30
of Respondents’ proposed findings without citing or
discussing a single declaration submitted by
Petitioners. To be sure, a district court need not “recite
every piece of evidence supporting its findings.”
Schlesinger, 2 F.3d at 139. But “the record must
nevertheless support the district court’s decision.”
Sierra Club, Lone Star Chapter v. F.D.I.C., 992 F.2d
545, 551 (5th Cir. 1993). Here the record fails to do so.
The failure to parse the evidence led the district
court to reach legally erroneous results in two
respects. First, under Whole Woman’s Health v.
Hellerstedt, to determine whether a law “unduly
burdens” the abortion right, a court must “consider
the burdens a law imposes on abortion access together
with the benefits those laws confer.” 136 S. Ct. 2292,
2309–10, 2319 (2016). The April 9 TRO does not
meaningfully weigh either one. As noted, the order
does not cite or discuss a single declaration submitted
by Petitioners explaining the benefits of GA-09. Nor
does the order articulate the burden of a delay or why
that delay should be considered a “ban” on abortion.
The record belies any such notion. Medication
abortion is available until 10 weeks LMP, and surgical
abortion until 22 weeks LMP. Given that GA-09 had
only a 30-day duration, no woman would be pushed
beyond the legal limit by a 30-day delay in obtaining
a medication abortion. Moreover, health risks of a
delay are mitigated because GA-09, by its terms,
permits procedures that a patient’s physician
determines are “immediately medically necessary to

96a

correct a serious medical condition of, or to preserve
the life of, a patient who without immediate
performance of the surgery or procedure would be at
risk for serious adverse medical consequences or
death.” Abbott II, 2020 WL 1685929, at *10 (quoting
GA-09). The district court factored none of this into its
cursory analysis. That weighing of burdens versus
benefits would be inadequate under Hellerstedt in
normal circumstances. A fortiori it is inadequate
under the Jacobson framework, which asks whether
burdens outweigh the benefits “beyond question.” 197
U.S. at 31. Moreover, as we have explained, the
Supreme Court has approved “a wide variety of
abortion regulations . . . that in practice can occasion
real-world delays of several weeks.” Abbott II, 2020
WL 1685929 at *10 (quoting Garza v. Hargan, 874
F.3d 735, 755 (D.C. Cir. 2017) (en banc) (mem.)
(Kavanaugh, J., dissenting)). That leads us to the
second legal error resulting from the district court’s
findings: they treat a medication abortion as an
absolute right. But the constitutional right to abortion
does not include the right to the abortion method of
the woman’s (or the physician’s) choice. Gonzales, 550
U.S. at 164–65. On this record it was patently
erroneous to find that a mere 30-day postponement of
medication abortions “beyond question” violates
Casey.
d. The Pennhurst doctrine.
We address an additional point that arose during
our consideration of Petitioners’ emergency stay
motion, because it may become important as the
litigation continues. In the April 9 TRO, the district
court adopted Respondents’ proposed fact finding that
“[m]edication abortion is not a surgery or procedure.”

97a

Abbott III, 2020 WL 1815587 at *3, ¶ 10; cf. ECF 562, Plaintiff’s Proposed Order ¶ 10 (“Medication
abortion is not a surgery or procedure.”).28 When
considering Petitioners’ stay motion, we expressed
uncertainty as to whether medication abortions were
covered by GA-09, given ambiguity in the Texas
Medical Board’s guidance on the order. See Abbott V,
2020 WL 1866010, at *3. For that reason, we denied a
stay as to the part of the TRO applicable to medication
abortions, while “express[ing] no ultimate decision on
the ongoing mandamus proceeding.” Id. We have since
benefitted from additional briefing on this issue.
Given the lack of legal analysis in the April 9 order,
we are unable to discern what impact the district
court’s finding had on its decision to grant the TRO.
Going forward, however, we caution that any relief
ordering a state official to comply with state law would
be barred by the Pennhurst doctrine. See Pennhurst
State Sch. & Hosp. v. Halderman, 465 U.S. 89, 106
(1984).
28 It is unclear how Respondents tie this contention (which
revolves around the interpretation of GA-09) to their substantive
due process claim, which is the only claim they pursued on their
first and second applications for TROs. In any event,
Respondents may develop their arguments further at the
preliminary injunction stage, if they choose. Finally, based on
this finding and others, the dissenting opinion, infra at 18–21,
suggests that the April 9 TRO concludes that GA-09 was a
“pretext” for targeting abortion. But we discern no such
conclusion in the April 9 TRO. Instead, in its conclusions of law,
the April 9 TRO merely states that GA-09’s “burdens outweigh
[its] benefits,” Abbott III, 2020 WL 1815587 at *6, and makes no
legal finding that GA-09 pretextually targets abortion over other
medical procedures. Respondents, of course, may choose to
develop such a claim at the preliminary injunction stage, but we
do not find that legal issue presented by the April 9 TRO.

98a

Under Pennhurst, a federal court may not grant
“relief against state officials on the basis of state law.”
Id. at 106. A federal court may determine state
officials’ enforcement of state law violates a federal
right, but it may not order state officials to conform
their conduct to state law. See, e.g., Williams On
Behalf of J.E. v. Reeves, 19-60069, 2020 WL 1638411,
at *7 (5th Cir. Apr. 2, 2020) (under Pennhurst, “the
rule announced in Ex parte Young cannot be used to
redress a state official’s violation of state law”);
Hughes v. Savell, 902 F.2d 376, 378 (5th Cir. 1990)
(Pennhurst bars “a claim that state officials violated
state
law
in
carrying
out
their
official
responsibilities”).
To the extent the April 9 TRO finds that GA-09
violates Casey by postponing medication abortions, we
have already explained that it patently erred. But to
the extent the TRO might be construed to order relief
on a claim that state officials failed to conform their
actions to state law, the TRO would violate
Pennhurst. State health officials, who are Petitioners
here, insist that GA-09’s postponement of
“procedures” encompasses medication abortions.
Pennhurst bars a federal court from considering a
claim that those officials failed to comply with a
proper interpretation of the state executive order. See,
e.g., Hughes, 902 F.3d at 378 (quoting Pennhurst, 465
U.S. at 106) (explaining that “instruct[ing] state
officials on how to conform their conduct to state law
. . . conflicts directly with the principles of federalism
that underlie the Eleventh Amendment”).29 The
29 Such a claim would need to be brought in state court. Cf.
Russell v. Harris Cty., CV H-19-226, 2020 WL 1866835, at *12
(S.D. Tex. Apr. 14, 2020) (abstaining, under R.R. Comm’n v.

99a

district court should be aware of this issue in further
proceedings.
2. The April 9 TRO Patently Erred by Exempting
18-Week Gestation from GA-09
We turn to the part of the April 9 TRO blocking
application of GA-09 as to patients who “would reach
18 weeks LMP by April 21, 2020,” and who, in a
physician’s judgment, are “unlikely to be able to
obtain an abortion at an [ambulatory surgical center]
before [her] pregnancy reaches the 22-week cutoff.”
Abbott III, 2020 WL 1815587, at *6. For those
patients, the district court concluded GA-09 would
amount to “an absolute ban on abortion” that violates
Casey. Id. Once again, the district court’s failure to
apply the framework articulated in Abbott II led to a
patently erroneous result that cannot be sustained on
this record.
As we explained in Abbott II, a state emergency
measure like GA-09 violates the right to abortion if it
“has no real or substantial relation” to the public crisis
“or is, beyond all question, a plain, palpable invasion
of [Casey].” 2020 WL 1685929, at *6 (quoting
Jacobson, 197 U.S. at 31). Here, we take the district
court’s conclusion to turn only on the second part of
the analysis—whether GA-09 is “beyond all question”
a violation of Casey to the extent it results in delaying
a woman’s pregnancy to 18 weeks LMP.
Pullman Co., 312 U.S. 496 (1941), from hearing COVID-19
related equal protection and due process claims because there
was “a pending state-court lawsuit challenging the Executive
Order that raises questions about novel, uncertain issues of state
law”) (referring to Tex. Crim. Def. Laws. Ass’n v. Abbott, No. GN20-002034, 459th District Court of Travis County, Texas (Apr. 8,
2020)).

100a

The district court’s treatment of GA-09 as “an
absolute ban on abortion” as applied to this category
of women was obviously wrong. Abbott III, 2020 WL
1815587, at *6. A woman who would be 18 weeks LMP
when GA-09 expires has up to four weeks to legally
procure an abortion in Texas. No case we know of calls
that an “absolute ban” on abortion. Cf., e.g., Casey, 505
U.S. at 874 (explaining that “[n]umerous forms of
state regulation might have the incidental effect of
increasing the cost or decreasing the availability of
medical care, whether for abortion or any other
medical procedure”).
The district court may have had in mind an asapplied challenge to GA-09 on behalf of a woman
facing this particular combination of circumstances.
See, e.g., Gonzales, 550 U.S. at 167 (explaining that
“as-applied challenges” are “the proper manner to
protect the health of the woman if it can be shown in
discrete and well-defined instances” that particular
procedures are required). That would require evidence
of “discrete and well-defined instances” sufficient to
support such a challenge, id., but the district court
cited none and we can find none in the record.
Respondents attempt to bridge this gap by relying on
a new affidavit from a hotline coordinator at an
abortion-funding nonprofit. But that affidavit speaks
only in general terms about women at later stages of
pregnancy and does not even attempt to identify any
“discrete and well-defined instances” of a woman in
the 18-week category sufficient to support an asapplied challenge here. See App. 439–44.
Respondents also speculate that, due to patient
backlogs and the burden of traveling to one of the
limited number of Texas ASCs, women in the 18-week

101a

category will not be able to obtain an abortion. Once
again, this is the stuff of a possible as-applied
challenge. But we know of no precedent saying that it
violates Casey “beyond question” when a generally
applicable emergency health measure causes backlogs
and travel delays for women seeking abortion. In fact,
even outside of a public health crisis, the Supreme
Court has “recognize[d] that increased driving
distances do not always constitute an ‘undue burden.’”
Hellerstedt, 136 S. Ct. at 2313 (quoting Casey, 505
U.S. at 885–87). To the contrary, the Court has
treated increased travel distance only as one factor
that—“when taken together with others” such as “the
virtual absence of any health benefit”—could support
a conclusion of undue burden under Casey on a
particular record. Id. (emphasis added).
Perhaps in the context of a preliminary injunction
hearing, Respondents will be able to adduce evidence
to support an as-applied challenge to GA-09 (or its
successor order, GA-15) along these lines. But the
record presently before the district court fails to
provide even an arguable basis to conclude that GA09, as applied to women in the 18-week category, is
“beyond all question, a plain, palpable invasion of
[Casey].” Abbott II, 2020 WL 1685929, at *6 (quoting
Jacobson, 197 U.S. at 31).
3. The April 9 TRO Did Not Patently Err by
Exempting 22-Week Gestation from GA-09.
The district court also concluded that GA-09
“beyond question” violates Casey as applied to a
woman who “would otherwise be denied access to
abortion entirely because . . . [her] pregnancy would
reach 22 weeks LMP” before GA-09 expires. Abbott III,
2020 WL 1815587, at *6. While we harbor some doubts

102a

about the evidentiary basis for the district court’s
conclusion, we conclude that any error is not so clear
and indisputable as to warrant mandamus.
Unlike the 18-week category, Respondents have
adduced some evidence that they have clients who will
reach 22 weeks LMP during the operation of GA-09.
See App. 103, 353, 442. While this evidence is
secondhand, and thus weak, we cannot conclude it
was a “clear abuse of discretion” for the district court
to rely on it at this early stage. Abbott II, 2020 WL
1685929, at *4. The district court concluded that GA09’s delay of non-essential medical procedures would
operate as a permanent ban on abortion for women in
this category, and that the order’s burdens far
outweighed its benefits as to those women. Again,
given the weak evidence, we are not fully satisfied
with this cursory conclusion. Further, it remains
unclear whether GA-09’s exception for “patient[s] who
without immediate performance of the surgery or
procedure would be at risk for serious adverse medical
consequences . . . as determined by the patient’s
physician,” id. at *3, already covers women in these
circumstances. But Petitioners’ arguments do not
convince us, at this early stage, that the district
court’s order enjoining GA-09 as to women who will
reach 22 weeks LMP during the order’s operation was
so patently erroneous that mandamus is appropriate.
Cf. Gee, 941 F.3d at 158 (noting that mandamus is
only appropriate “for really extraordinary causes”).
As a result, we conclude Petitioners have not
shown entitlement to the writ of mandamus as to this
part of the TRO.
***

103a

To sum up, Petitioners have shown entitlement to
the writ of mandamus as to the parts of the April 9
TRO that:
● restrain enforcement of GA-09 as a “categorical
ban on all abortions provided by plaintiffs”;
● restrain enforcement of GA-09 after 11:59 p.m.
on April 21, 2020;
● restrain the Governor and Attorney General;
● restrain enforcement of GA-09 as to medication
abortions;
● restrain enforcement of GA-09 as to abortions
for patients who will reach 18 weeks LMP
during the operation of GA-09 and would be
“unlikely” to obtain abortion services in Texas.
Petitioners have not demonstrated entitlement to
the writ as to that part of the April 9 TRO that:
● restrains enforcement of GA-09 as to patients
“who, based on the treating physician’s medical
judgment, would be past the legal limit for an
abortion in Texas—22 weeks LMP—on April
22, 2020.”
IV.
The other two requirements for mandamus relief
are satisfied here. First, Petitioners “‘have no other
adequate means’ to obtain the relief they seek.” Abbott
II, 2020 WL 1685929, at *13. TROs, unlike
preliminary injunctions, are not appealable. See
Smith v. Grady, 411 F.2d 181, 186 (5th Cir. 1969); see
also 28 U.S.C. § 1292. Although Petitioners argued in
their separate appeal that the TRO at issue here has
the “actual content, purport, and effect” of a
preliminary injunction, Smith, 411 F.2d at 186, we

104a

concluded otherwise and dismissed that appeal for
lack of jurisdiction.
Second, for substantially the same reasons set out
in Abbott II, “[w]e are persuaded that this petition
presents an extraordinary case justifying issuance of
the writ.” Abbott II, 2020 WL 1685929, at *15. As we
stated there,
the current global pandemic has caused a
serious, widespread, rapidly-escalating public
health crisis in Texas. Petitioners’ interest in
protecting public health during such a time is
at its zenith. In the unprecedented
circumstances now facing our society, even a
minor delay in fully implementing the state’s
emergency measures could have major
ramifications . . . .
Id. The district’s failure to apply Jacobson and its
usurpation of the state’s power by second-guessing
“the wisdom and efficacy of [its] emergency measures”
are just as extraordinary now as they were on April 7.
Id. Moreover, the issues addressed in this litigation
“have an importance beyond the immediate case.” Id.
(quoting Volkswagen, 545 F.3d at 318).
“[W]e are aware of nothing that would render the
exercise of our discretion to issue the writ
inappropriate.” Id. (quoting Volkswagen, 545 F.3d at
319). We therefore exercise our discretion to grant
mandamus relief.
CONCLUSION
The petition for writ of mandamus is GRANTED
IN PART and DENIED IN PART.
The district court is directed to vacate any part of
the April 9 TRO that (1) restrains enforcement of GA-

105a

09 as a “categorical ban on all abortions provided by
Plaintiffs”; (2) restrains the Governor and Attorney
General; (3) restrains enforcement of GA-09 after
11:59 p.m. on April 21, 2020; (4) restrains enforcement
of GA-09 as to medication abortions; and (5) restrains
enforcement of GA-09 as to abortions for patients who
will reach 18 weeks LMP during the operation of GA09 and would be “unlikely” to obtain abortion services
in Texas.
We do not grant the writ or direct vacatur as to
that part of the April 9 TRO restraining enforcement
of GA-09 as to patients “who, based on the treating
physician’s medical judgment, would be past the legal
limit for an abortion in Texas—22 weeks LMP—on
April 22, 2020.”
Any portions of our April 10 administrative stay
remaining in effect are LIFTED.
As indicated in Abbott II, any future appeals or
mandamus petitions in this case will be directed to
this panel and will be expedited. See Gee, 941 F.3d at
173; In re First South Sav. Ass’n, 820 F.2d 700, 716
(5th Cir. 1987).
The mandate shall issue forthwith.

106a

JAMES L. DENNIS, Circuit Judge, dissenting in part.
For the second time in as many weeks, the
majority invokes the “drastic and extraordinary
remed[y]” of mandamus, Ex parte Fahey, 332 U.S. 258,
259 (1947), simply to second guess the district court’s
reasonable evaluation of the evidence and to interfere
with its inherent power to control the proceedings
before it. In so doing, the majority once again places
us at odds with seemingly every other federal court to
have considered whether the need to conserve hospital
capacity and personal protective equipment (“PPE”)
during the current COVID-19 pandemic can justify so
drastically curtailing the constitutional right to an
abortion. See In re Abbott, No. 20-50264, 2020 WL
1685929, at *16 (5th Cir. Apr. 7, 2020) (Abbott II)
(Dennis, J., dissenting) (collecting cases).1 This second
ruling is particularly inappropriate because, although
the district court properly fulfilled this court’s
previous mandate—unwarranted though the mandate
may have been—the majority now moves the goal
posts and chastises the district court for not abiding
by a series of phantom instructions that can be found
nowhere in its previous order. At bottom, the majority
simply disagrees with the district court’s decisions on
1 Indeed, in the interim between this case and our last
decision, one of our sister circuits has explicitly rejected the
proposition that a very similar temporary restraining order
(TRO) to the one at issue here would work such irreparable harm
that bypassing the normal appeals process was appropriate. See
S. Wind Women’s Ctr. LLC v. Stitt, No. 20-6045, 2020 WL
1860683, at *2-3 (10th Cir. Apr. 13, 2020); see also id. at 3
(Lucero, J., concurring) (observing that where—as here—the
State failed to present any evidence that abortion procedures
would result in a shortage of PPE or hospital capacity needed for
the COVID-19 response, it failed to establish that the TRO had
irreparable consequences).

107a

matters that are squarely within its discretion. This is
not a proper use of “one of the most potent weapons in
the judicial arsenal.” In re JPMorgan Chase & Co.,
916 F.3d 494, 504 (5th Cir. 2019) (quoting Cheney v.
U.S. Dist. Court for D.C., 542 U.S. 367, 380 (2004)).
This Circuit thus once again does not apply the
applicable rules of law because of the subject matter
of the case, and, equally troubling, ignores the words
of its own ruling from less than two weeks ago. I again
echo the words of a colleague in dissent in a case now
before the United States Supreme Court: “It is
apparent that when abortion comes on stage it
shadows the role of settled judicial rules.” June Med.
Services L.L.C. v. Gee, 905 F.3d 787, 816 (5th Cir.
2018) (Higginbotham, J., dissenting), cert. granted,
140 S. Ct. 35, 204 L. Ed. 2d 1193 (2019).
I.
The facts and procedural history of this case have
been documented in detail in our previous decision.
See In re Abbott, No. 20-50264, 2020 WL 1685929 at
*1-4 (5th Cir. Apr. 7, 2020) (Abbott II); id. at *17
(Dennis, J., dissenting). To briefly recount, on March
22, 2020, the Governor of Texas issued executive order
GA-09 in response to the current COVID-19 pandemic
and the accompanying shortage of personal protective
equipment (“PPE”) and hospital capacity. GA-09
requires all Texas healthcare providers to
postpone all surgeries and procedures
that are not immediately medically necessary
to correct a serious medical condition of, or to
preserve the life of, a patient who without
immediate performance of the surgery or
procedure would be at risk for serious adverse

108a

medical consequences or death, as determined
by the patient’s physician.
Tex. Exec. Order No. GA-09 (Mar. 22, 2020),
https://gov.texas.gov/uploads/files/press/EO-GA_09_C
OVID-19_hospital_capacity_IMAGE_03-22-2020.pdf.
The order contains an exception for “any procedure
that, if performed in accordance with the commonly
accepted standard of clinical practice, would not
deplete the hospital capacity or the [PPE] needed to
cope with the COVID-19 disaster.” Id. Violations of
GA-09 are punishable by criminal penalties and, by
virtue of a subsequent emergency rule with identical
requirements that was issued by the Texas Medical
Board, see 22 Tex. Admin. Code § 187.57, may
effectively result in the suspension or restriction of a
practitioner’s license.2 By its terms, GA-09 remains in
effect until 11:59 p.m. on April 21, 2020.
The day after GA-09 was issued, the Texas
Attorney General released a press release stating,
among other things, that GA-09 applied to “any kind
of abortion that is not medically necessary to preserve
the life and health of the mother,” and that “[t]hose
who violate the governor’s order will be met with the
full force of the law.” App. at 31.3 The Respondents,
who provide abortion services in Texas, filed suit in
district court under 42 U.S.C. § 1983 against the
Petitioners, who are various state officials. The
Respondents asserted that the application of GA-09 to
2 Because the requirements of GA-09 and the emergency
rule are coextensive, all parties to this litigation have
consistently referred to them collectively as GA-09, and this
opinion will follow suit.
3 References to “App.” in this opinion refer to the appendix
to the mandamus petition. See ECF 4 (5th Cir. No. 20-50296).

109a

prohibit abortion violated, inter alia, substantive due
process. The Respondents sought to enjoin the
Petitioners from enforcing GA-09 as applied to
abortion, and, after reviewing argument and evidence
on the point from both parties, the district court issued
a temporary restraining order (“TRO”) doing just that.
See Planned Parenthood Ctr. for Choice v. Abbott, No.
A-20-CV-323-LY, 2020 WL 1502102 (W.D. Tex. Mar.
30, 2020).
Before the district court could hold a scheduled
hearing on whether to issue a longer preliminary
injunction, the Petitioners filed a petition for
mandamus with this court, and on April 7, the
majority granted the petition and ordered that the
district court vacate its TRO. Abbott II, 2020 WL
1685929 at *16. The Respondents then moved for a
second, more limited TRO in the district court, which
the court granted. Planned Parenthood Ctr. for Choice
v. Abbott, No. A-20-CV-323-LY, 2020 WL 1815587, at
*7 (W.D. Tex. Apr. 9, 2020) (Abbott III). The second
TRO restrained the Petitioners from enforcing GA-09
(1) “as a categorical ban on all abortions provided by
[the Respondents]”; (2) as a prohibition on “medication
abortions”; (3) as a prohibition on “procedural
abortion[s] [for] any patient who, based on the
treating physician’s medical judgment, would be more
than 18 weeks LMP[4] on April 22, 2020, and [who are]
likely unable to reach an ambulatory surgical center
in Texas or to obtain abortion care” (“the 18-week
category”); and (4) as a prohibition on “procedural
abortion[s] [for] any patient who, based on the
4 LMP refers to the length of time that has passed since the
first day of a pregnant woman’s last menstrual period. See Tex.
Health & Safety Code § 171.063.

110a

treating physician’s medical judgment, would be past
the legal limit for an abortion in Texas—22 weeks
LMP—on April 22, 2020” (“the 22-week category”). Id.
The Petitioners filed a second petition for a writ of
mandamus with this court the following day.
II.
Petitioners once again ask that we direct the
district court to vacate its TRO. As noted, mandamus
is an “extraordinary remedy” that should only issue in
“exceptional circumstances.” See Cheney, 542 U.S. at
380 (quoting Will v. United States, 389 U.S. 90, 95
(1967)); In re Lloyd’s Register N. Am., Inc., 780 F.3d
283, 288, 294 (5th Cir. 2015); In re Volkswagen of Am.,
Inc., 545 F.3d 304, 309, 311 (5th Cir. 2008). It is not
sufficient for the petitioners to prove simply “that the
court erred.” In re Occidental Petroleum Corp., 217
F.3d 293, 295 (5th Cir. 2000). Rather, mandamus
relief generally requires that (1) “the party seeking
issuance of the writ [must] have no other adequate
means to attain the relief he desires—a condition
designed to ensure that the writ will not be used as a
substitute for the regular appeals process”; (2) “the
petitioner[s] must satisfy the burden of showing that
[their] right to issuance of the writ is clear and
indisputable”; and (3) “the issuing court, in the
exercise of its discretion, must be satisfied that the
writ is appropriate under the circumstances.” Cheney,
542 U.S. at 380-81 (internal quotation marks and
citations omitted).
The “clear and indisputable” prong of this test is
not met here. That the Petitioners’ right to relief is
indeed disputable should be evident by the very
existence of this dissent and the many other courts
that have concluded that relief is not warranted in

111a

very similar circumstances. But I will elaborate. To
establish a clear and indisputable right to relief, the
Petitioners must show that the district court not only
committed a “clear abuse[] of discretion,” but also that
the abuse “produce[d] patently erroneous results.” In
re Lloyd’s Register N. Am., Inc., 780 F.3d at 290
(quoting In re Volkswagen of Am., Inc., 545 F.3d at
312). Neither precondition is met here.
A.
The majority asserts that the district court abused
its discretion in several ways. None of these assertions
warrants mandamus relief.
1.
The majority first engages in what would appear
to be an academic exercise, concluding that the district
court erred by restraining the Petitioners’ conduct in
ways that apparently had no practical impact even
under the majority’s reasoning. Mandamus relief
cannot be warranted to fix a mistake that is of no
consequence.
To start, the majority faults the district court for
restraining the Petitioners from enforcing GA-09 “as
a categorical ban on all abortions” because it does not
interpret GA-09 to be a categorical ban on all
abortions. Majority at 9 (citing Abbott III, 2020 WL
1815587, at *7). As the majority acknowledges,
however, a federal court may determine that a state
official’s purported enforcement of state law would
violate a federal right, and this principle applies
regardless of whether that enforcement is a correct
interpretation of the state law. Majority at 31; See
Louise B. v. Coluatti, 606 F.2d 392, 399 (3d Cir. 1979)
(“To put the matter more bluntly, where a state

112a

violates federal law, it is no better off because it also
violates its own law.”). Whether GA-09 actually is a
categorical ban on abortions under state law is
therefore irrelevant. If the district court correctly
found a credible threat that the Petitioners would
enforce GA-09 as a categorical ban on abortion, that
factual finding is sufficient to restrain such
enforcement as a violation of a federal constitutional
right. See Susan B. Anthony List v. Driehaus, 573 U.S.
149, 159 (2014) (stating that when “plaintiffs face a
credible threat of enforcement,” they “should not be
required to await and undergo a criminal prosecution
as the sole means of seeking relief” (internal
quotations omitted)).
But as I said, this discussion is academic. By
restraining the Petitioners from enforcing GA-09 as to
medication abortions and those abortions falling into
the 18-week and 22-week categories, the district
court’s TRO also necessarily prevented the Petitioners
from enforcing GA-09 as a categorical ban on
abortions. Neither the Petitioners nor the majority
identify any possible conduct that would violate the
“categorical ban” prohibition in the district court’s
order that would not also violate the prohibition on
enforcing GA-09 against providers of medication
abortions or those that provide abortions that fall into
the 18-week or 22-week categories. Quite simply, the
TRO’s prohibition on enforcing GA-09 “as a categorical
ban on all abortions” has no independent effect; it does
not burden the Petitioners because it does not alter
the Petitioners’ rights or responsibilities in any way.
Accordingly, even if correct regarding the error, the
majority’s decision to order this portion of the order
vacated also does not change the rights and
responsibilities of any party and serves no purpose but

113a

to point out the district court’s purported mistake.
Invoking “one of the most potent weapons in the
judicial arsenal,” In re JPMorgan Chase, 916 F.3d at
504, simply to correct an alleged legal error with no
practical consequences is inappropriate. Indeed, we
have explicitly stated that mandamus is not
warranted upon a showing “merely that the court
erred.” Occidental Petroleum Corp., 217 F.3d at 295.
The Petitioners and the majority have not
demonstrated how the district court’s purported error
on this point could produce “patently erroneous
results,” In re Volkswagen of Am., Inc., 545 F.3d at
312, when, as a practical matter, it does not produce
any results at all.
Similarly, the majority concludes that, because
the district court restrained the enforcement of GA-09
past its nominal April 22 expiration date, the district
court abused its discretion by not narrowly tailoring
its TRO to end when the executive order potentially
expired. Majority at 9-10. But the majority fully
acknowledges that, following GA-09’s expiration,
there will be “no enforcement of GA-09 for a court to
restrain,” Majority at 10, and so the district court’s
TRO will have no effect on the Petitioners after the
executive order expires. By contrast, under the
majority’s reasoning, had GA-09 been extended, the
district court would have had to again extend its TRO
in order to maintain the status quo until the scheduled
preliminary injunction hearing—something that it is
not even clear the district court would have authority
to do under FED. R. CIV. P. 65(b)(2), which some
authorities have held limits a district court to one TRO

114a

extension.5 See Clements Wire & Mfg. Co. v. N. L. R.
B., 589 F.2d 894, 896 (5th Cir. 1979) (stating that
TROs “must expire not later than 20 days after
issuance,” when Rule 65(b) imposed a 10-day time
limit); U.S. Dep’t of Labor v. Wolf Run Mining Co., 452
F.3d 275, 281 (4th Cir. 2006) (stating “a TRO is limited
in duration to 10 days plus one 10–day extension”
under the former time limit (emphasis added)). The
extension of the TRO was a reasonable action by the
district court that was well within its discretion—
either its TRO would be harmless and would not affect
any rights or responsibilities after GA-09’s expiration,
or it would be appropriately tailored to its purpose. We
now know that, fortunately, GA-09 will indeed expire
on April 22,6 and the majority’s order will not wreak
the harm that it might have had GA-09 been extended
and the district court been left with a gap between the
expiration of the TRO and the preliminary injunction
hearing that it may arguably have been powerless to
fill. But again, the majority utilizes mandamus, a
“‘drastic and extraordinary’ remedy ‘reserved for
really extraordinary causes,’” Cheney, 542 U.S. at 380
(quoting Ex parte Fahey, 332 U.S. at 259–60), simply
to correct what it wrongly perceives to be a run-of-themill legal error that the majority acknowledges has no
practical consequences.
The majority next concludes that the district court
erred by failing to dismiss the Texas Governor and
Attorney General and by restraining them from
5 The district court already extended its second TRO once on
April 14. See Planned Parenthood Center for Choice v. Abbott, No.
1:20-cv-00323-LY (W.D. Tex.) (Dkt. No. 82) (Apr. 14, 2020).
6 See Tex. Exec. Order No. GA-15 (Apr. 17, 2020),
https://gov.texas.gov/uploads/files/press/EO-GA15_hospital_
capacity_COVID-19_TRANS_04-17-2020.pdf.

115a

enforcing GA-09 in the proscribed manner because
neither officer has the “connection” to enforcement of
GA-09 needed to overcome sovereign immunity under
Ex parte Young, 209 U.S. 123 (1908). Majority at 1013. With respect to the Attorney General, the majority
concludes that neither the fact that Texas law permits
the Attorney General to participate in prosecutions for
violations of GA-09, see TEX. GOV’T CODE § 402.028,
nor that the Attorney General publicly singled out
abortion providers for potential enforcement; stated
that GA-09 prohibits all abortion except in the case of
a medical emergency; and threatened that “[t]hose
who violate the governor’s order will be met with the
full force of the law,” App. at 30, are sufficient to
establish a connection to GA-09 enforcement. Our
cases have not explicitly held as much, and indeed we
have previously stated that authority and a
willingness to enforce a law can be inferred by an
official’s threats to do so. City of Austin v. Paxton, 943
F.3d 993, 1001 (5th Cir. 2019) (“[T]he fact that Paxton
sent letters threatening enforcement of the DTPA
makes it clear that he had not only the authority to
enforce the DTPA, but was also constraining the
manufacturer’s activities, in that it faced possible
prosecution if it continued to make and distribute its
products.”). It is difficult to see, then, how the district
court’s preliminary7 determination that the Attorney
General had a connection to enforcement was so
7 Notably, the Petitioners have not at any point filed a
motion to dismiss the Respondents’ claims against the Governor
and Attorney General, instead raising their jurisdictional
arguments only in opposition to the TRO. Had one been filed, the
denial of the motion would have been immediately appealable,
see Texas v. Caremark, Inc., 584 F.3d 655, 658 (5th Cir. 2009),
obviating any need for mandamus on this point.

116a

contrary to established law as to constitute a “clear
abuse of discretion,” In re Volkswagen of Am., Inc., 545
F.3d at 312, and thereby justify this court’s extraordinary intervention on this point.
But even assuming arguendo that the majority is
correct, the sum effect of restraining the Governor and
Attorney General from enforcing GA-09 would be nil
if they lack any authority to enforce GA-09 in the first
place. Thus, the majority acts again to use the “drastic
and extraordinary remedy” of mandamus, where it at
most has little, if any, practical effect. Fahey, 332 U.S.
at 259.
I therefore disagree that mandamus is appropriate with respect to any of these alleged errors.
2.
Next the majority concludes that the district court
violated the “mandate rule” by not following the
instructions issued in Abbott II. Majority at 14 (citing
United States v. Smith, 814 F.3d 268, 273 (5th Cir.
2016)). But a review of the district court’s substantive
and procedural decisions makes clear that the court
complied fully with the majority’s previous directives.
a.
The majority first argues that the district court
failed to apply the legal framework that the majority
previously derived from Jacobson v. Commonwealth of
Massachusetts, 197 U.S. 11 (1905), and Planned
Parenthood v. Casey, 505 U.S. 833 (1992). Majority at
13. This is contradicted by the district court’s plain
statement that applying GA-09 to the classes of
abortions identified in its TRO “violates the standards
set forth in both [Casey] and [Jacobson].” Abbott III,
2020 WL 1815587. The majority appears to regard

117a

this as only a formalistic recitation. On the contrary,
the district courts’ findings and conclusions makes
clear that it properly considered each step of the
majority’s framework.
Specifically, the test the majority previously
formulated required the district court to determine (1)
whether applying GA-09 to the abortions at issue8
lacks a “real or substantial relation” to the current
public health crisis, and (2) whether the benefits of
applying GA-09 to these abortions are “beyond all
question” outweighed by its burden on the
constitutional right to an abortion, thus creating an
undue burden under Casey. Abbott II, 2020 WL
1685929, at *7, *9. The district court faithfully made
findings and conclusions tied to both steps of this
analysis.
With respect to the first, the majority stated in its
previous opinion that the district court should
“inquire whether Texas has exploited the present
8 In its previous decision, the majority without explanation
chose to analyze whether GA-09 as a whole had a real or
substantial relation to the current public health crisis,
notwithstanding the fact that the Respondents were not
challenging GA-09 as a whole, nor had the district court enjoined
all applications of GA-09. As discussed in more detail below, the
proper focus should have been whether the application of GA-09
to abortions bore any real or substantial connection to the current
public health crisis. See Jacobson, 197 U.S. at 28 (“We say
necessities of the case, because it might be that an acknowledged
power of a local community to protect itself against an epidemic
threatening the safety of all might be exercised in particular
circumstances and in reference to particular persons in such an
arbitrary, unreasonable manner, or might go so far beyond what
was reasonably required for the safety of the public, as to
authorize or compel the courts to interfere for the protection of
such persons.” (emphases added)).

118a

crisis as a pretext to target abortion providers sub
silentio.” Id. at *13 (citing Lawton v. Steele, 152 U.S.
133, 137 (1894)). On this point, the district court found
that “[m]edication abortion is not a surgery or
procedure” within conventional definitions of the
terms and that “[p]roviding medication abortion does
not require the use of any PPE,” which would suggest
that it is not covered by the plain language of the
prohibition within GA-09. Abbott III, 2020 WL
1815587, at *3. And the court found that “[p]hysicians
are continuing to provide [other] obstetrical and
gynecological procedures comparable to abortion in
PPE use or time-sensitivity, based on their
professional medical judgment” without hinderance
from GA-09. Id. at *5. And, though this significantly
overlaps with the second prong of the majority’s test,
the district court made extensive findings as to why
applying GA-09 to abortions “will not conserve PPE”
and “will not conserve hospital resources”—the two
explicitly stated goals of the executive order. Id. at *4.
These findings all suggest that the application of GA09 to abortions—particularly medication abortions—
is pretextual and not motivated by any desire to
conserve PPE or hospital capacity, meaning it lacks a
“real or substantial relation” to the current public
health crisis under the framework the majority
instructed the district court to employ. Abbott II, 2020
WL 1685929, at *7.
The district court’s analysis is even more explicit
at the second stage of the inquiry in which the
majority instructed it to weigh the benefits of applying
GA-09 to abortions against the burden on the
constitutional right to an abortion. Id. at *9. As stated,
the district court made a range of findings indicating
that applying GA-09 to abortions not only would not

119a

result in a public health benefit but in fact would be a
net drain on PPE and hospital capacity and would be
otherwise harmful to public health. The court made
specific findings as to how much and what kind of PPE
are consumed during the performance of medication
and procedural abortions and their surrounding
services, as well as the frequency with which
complications require hospitalization with each
method. Abbott III, 2020 WL 1815587, at *3-4. The
court then compared this figure to the amount of each
resource typically consumed by a woman continuing a
pregnancy and found that substantially more of each
resource is consumed “at each stage of the [continued]
pregnancy” than in a pre-viability abortion.9 Id. at *4.
And the district court noted that continuing a
pregnancy requires significantly more “in-person
healthcare” and that many women denied an abortion
by GA-09 are traveling out-of-state to obtain one,
increasing their risk of contracting COVID-19. Id. at
*4-5.
9 The majority now faults the district court for not explicitly
stating that its findings were with regard to how much of each
resource are being consumed during the current COVID-19
pandemic. Majority at 20-23. As discussed in more detail below,
this is an incorrect reading of the district court’s order, see Abbott
II, 2020 WL 1685929, at *4 (noting the amount of N95 masks the
physicians associated with the Respondents had used “since the
beginning of the COVID-19 pandemic” and citing the
“recommendations from the American College of Obstetricians
and Gynecologists (‘ACOG’) and other medical authorities for
providing obstetrical care during the COVID-19 pandemic”
(emphasis added)), and the majority mistakenly insists on
punctilious formality rather than making reasonable inferences
from the evidence and the district court’s findings. For now,
suffice it to say that this new requirement can be found nowhere
in the majority’s previous order.

120a

The district court then made a variety of findings
regarding the burden that applying GA-09 to the
classes of abortion at issue placed on the
constitutional right to abortion. The court found that
the Respondents had “turned away hundreds of
patients seeking abortion care,” and that “[t]here will
be significant pent-up need for abortion care when the
Executive Order expires,” resulting in further delays.
Id. at *5. The court noted that progressively more
invasive techniques are required to perform an
abortion the longer that it is delayed. Id. And the court
found that the health risks, financial costs, and
emotional cost of an abortion increases with
gestational age, meaning the delays make abortions
riskier and more cost prohibitive. Id. at *5-6. The
court also found that for many women, the delay
would result in them being effectively denied a legal
right to an abortion in Texas, either because they
would exceed the 22-week maximum legal limit or
they would reach a gestational age at which they were
legally required to go to a facility that they did not
have access to in order to receive an abortion. Id.
The district court then weighed these benefits and
burdens against each other, just as the majority
instructed, and concluded that “based on the court’s
findings of fact, it is beyond question that the
Executive Order’s burdens outweigh the order’s
benefits as applied” to the classes of abortion at issue.
Id. at *6. And in doing so, it explicitly relied Jacobson.
It is one thing for the majority to disagree with the
district court’s findings or its weighing of the relative
benefits and burdens of applying GA-09 to these
abortions (though, as will be discussed, the majority is
wrong to do so). But it is simply inaccurate for the

121a

majority to conclude that the district court
disregarded its instructions to apply a legal
framework that it is abundantly clear the district
court in fact applied. I therefore disagree that the
district court violated the mandate rule in this respect
and, therefore, that mandamus is appropriate to
correct the supposed error.
b.
The majority next reprimands the district court
for entering a TRO at all. Majority at 14-19. The
majority seems to have wanted the district court to
instead proceed directly to an adversarial hearing on
a preliminary injunction without issuing another TRO
to preserve the status quo until that hearing could be
held. This requirement is stated nowhere in the
previous mandamus order and cannot be reconciled
with the principle that district courts have broad
discretion in ordering their affairs. To be sure, the
majority made several references to the sort of
evidence that could be adduced and arguments that
could be made at an upcoming preliminary injunction
hearing. See, e.g., Abbott II, 2020 WL 1685929, at *2
(“The district court has scheduled a telephonic
preliminary injunction hearing for April 13, 2020,
when all parties will presumably have the chance to
present evidence on the validity of applying GA-09 in
specific circumstances.”); id. at *9 (“Respondents will
have the opportunity to show at the upcoming
preliminary injunction hearing that certain
applications of GA-09 may” violate Casey); id. at *12
(“These are issues that parties may pursue at the
preliminary injunction stage[.]”). But even assuming
arguendo these off-hand comments could be construed
as a directive to hold a preliminary injunction

122a

hearing—they obviously cannot—at no point did the
majority suggest the district court was not permitted
to issue a TRO to prevent irreparable harm in the
interim until a hearing could be held.
Nor is it clear by what authority the majority
would have imposed such a restriction if it had been
contained in the previous mandamus order. It is well
established that “[d]istrict courts have broad
discretion to evaluate the irreparability of alleged
harm and to make determinations regarding the
propriety of injunctive relief.” Wagner v. Taylor, 836
F.2d 566, 575–76 (D.C. Cir. 1987). This broad
discretion extends to “manag[ing] the timing and
process for entry of all interlocutory injunctions—both
TROs and preliminary injunctions[.]” Ciena Corp. v.
Jarrard, 203 F.3d 312, 319 (4th Cir. 2000).
The majority and the Petitioners make much of
the fact that the district court did not permit the
Petitioners to “respond [to the second TRO motion] in
writing” before entering the second TRO. Transcript
of 4/9/20 Tele. Conf. at 14:39; see Majority at 18
(“Moreover, we called for additional evidence from
both sides.”). But as the majority acknowledges, the
district court was not required to do so, as the Rules
explicitly allow a TRO to be entered ex parte. Majority
at 14 (citing Fed. R. Civ. P. 65(b)(1)). Further, the
Petitioners had already been permitted to make
argument and introduce evidence in response to the
Respondents’ first motion for a TRO. See Planned
Parenthood Center for Choice v. Abbott, No. 1:20-cv00323-LY (W.D. Tex.) (Dkt. No. 30) (March 30, 2020).
It was not an abuse of the district court’s discretion for
it to conclude that, given the time constraints and the
potential for irreparable harm that had been

123a

established, it was imprudent to wait for further
argument or evidence from the Petitioners before
entering a TRO to preserve the status quo until the
preliminary injunction hearing. All that was required
was that “the opposing party [be] given a reasonable
opportunity, commensurate with the scarcity of time
under the circumstances, to prepare a defense and
advance reasons why the [preliminary] injunction
should not issue.” Ciena Corp., 203 F.3d at 319. The
Petitioners would have had that opportunity at the
rescheduled preliminary injunction hearing, and they
could have filed a motion to dissolve the TRO with
accompanying exhibits at any time under Rule
65(b)(4) if they truly believed that time was of the
essence such that they could not wait for the
hearing.10 Instead, they filed the present motion for
mandamus.
The majority alternately argues that the district
court defied the mandate by entering a TRO on
essentially the same record that the previous
mandamus order found was inadequate to support a
TRO. Majority at 14-19. This is simply inaccurate.
Following the district court’s first March 30 TRO
order, which was based on ten declarations submitted
by the Respondents, the Respondents filed nine
additional declarations as supplements to their
10 Petitioners’ failure to do so, together with their stated
resistance to “an overly ambitious schedule” in the latest status
report filed with the district court in which they requested that
the preliminary injunction hearing be held no earlier than April
30, Abbott, No. 1:20-cv-00323-LY (Dkt. No. 78) at 3 (Apr. 14,
2020), conflicts with any assertion that time truly is so of the
essence that Petitioners had “no other adequate means to attain
the relief [they] desire[],” as is required for a grant of mandamus.
Occidental Petroleum Corp., 217 F.3d at 380.

124a

motion for a preliminary injunction. See Abbott, No.
1:20-cv-00323-LY (Dkt. No. 49) (April 2, 2020). And
the Respondents included a new tenth declaration
with their second motion for a TRO. See Abbott, No.
1:20-cv-00323-LY (Dkt. No. 56) (April 8, 2020). The
district court thus had twice the number of
declarations filed by the Respondents before it when
it entered its second TRO than when it entered its
first.
In an attempt to overcome the fact that the record
was clearly substantially more developed when the
district court entered its second TRO, the majority
argues that the Respondents cited to the
supplemental declarations in their opposition to the
Petitioners last mandamus petition, and so these
declarations were included in the record that the
majority reviewed and declared insufficient. Majority
at 17-18. But the majority’s last mandamus order
commented only on “the record before us.” Abbott II,
2020 WL 1685929, at *9. The fact that the
Respondents cited to additional declarations in their
briefing is of no moment. The additional declarations
were not included in the appendix filed with the
previous mandamus petition and they were not before
the district court when it made the decision we
reviewed. Further, the majority did not explicitly take
judicial notice of the additional declarations, and the
contents of the declarations are not the type of
indisputable information suitable for judicial notice in
any event. See Gov’t of Canal Zone v. Burjan, 596 F.2d
690, 694 (5th Cir. 1979) (noting that Federal Rule of
Evidence 201, which permits judicial notice only of
generally known facts or those that can be readily
determined from an indisputably reliable source,
applies at every stage of a proceeding). There was no

125a

reason for the district court—or anyone, for that
matter—to assume the supplemental declarations
were included in the majority’s review of “the record
before us” that resulted in its conclusion that the
evidence was inadequate. Abbott II, 2020 WL
1685929, at *9. Indeed, if the additional declarations
were included in that review, the majority’s statement
was arguably an improper advisory opinion on
matters not before the court because the sufficiency of
those declarations had no bearing on whether the
district court’s previous decision was correct at the
time it was made. Cf. United States v. Marine Shale
Processors, 81 F.3d 1329, 1352 (5th Cir. 1996)
(declining to give an advisory opinion on matters that
did not affect the issues before it and that could be
litigated in a later proceeding); Henry v. Dep’t of Hous.
& Urban Dev. (HUD), Washington, D. C., 451 F.2d
355, 356 (8th Cir. 1971) (noting that the court could
not give an advisory opinion as to the validity of a
different complaint that was not the complaint the
district court dismissed).
In sum, the district court considered new evidence
just as the majority instructed, and it applied the legal
framework that the majority prescribed. The majority
is thus wrong to now hold that the district court failed
to fulfill the majority’s previous mandate simply
because it did not meet new additional requirements
that were not stated in the majority’s order, and I
therefore disagree that this supposed defiance
warrants mandamus.
B.
That the district court did not commit a clear
abuse of discretion is sufficient reason on its own to
deny mandamus. See In re Lloyd’s Register N. Am.,

126a

Inc., 780 F.3d at 290 (quoting In re Volkswagen of Am.,
Inc., 545 F.3d at 312). But mandamus is also not
warranted because, contrary to the majority’s
contention, the district court’s analysis did not lead to
patently erroneous results. Assuming arguendo that
the majority’s interpretation of Jacobson is correct
and the standard it articulated applies here,
restraining the enforcement of GA-09 as a prohibition
on the classes of abortion at issue was appropriate if
(1) that enforcement is “pretextual—that is, arbitrary
or oppressive” because it “has no real or substantial
connection” to protecting public health during the
COVID-19 epidemic; or (2) if that enforcement is
“‘beyond all question, a plain, palpable invasion’ of the
[constitutional] right to abortion.” Abbott II, 2020 WL
1685929, at *7, *8 (quoting Jacobson, 197 U.S. at 31).
There is ample evidence in the record to support the
conclusion that both of these requirements are met
with respect to the applications of GA-09 the district
court restrained through its second TRO, and the
majority’s disagreement with the district court’s
reasonable evaluation of this evidence does not make
the TRO palpably erroneous.
As an initial matter, the majority breezes past the
pretext prong of its test, barely even mentioning it in
its analysis of the results of the district court’s
reasoning. This is likely because, in its previous order,
the majority without explanation elected to analyze
this question as whether GA-09 as a whole had a real
or substantial relation to the current public health
crisis, and so was able to easily conclude that it did.
See id. at *8 (“The answer is obvious: the district court
itself conceded that GA-09 is a valid emergency
response to the COVID-19 pandemic.”). But this is the
wrong focus of the inquiry. The Respondents were not

127a

challenging GA-09 as a whole, nor had the district
court enjoined all applications of GA-09. The
Respondents had challenged, and the district court
had restrained, the application of GA-09 to abortions,
and Jacobson itself makes clear that the question
should not have been whether “GA-09 is a pretext for
targeting abortion.” Id. at *13. It should have been
whether the enforcement of GA-09, a concededly valid
public health measure, was being used as a pretext to
target abortions by state actors motivated by hostility
to abortion rights. See Jacobson, 197 U.S. at 28 (“We
say necessities of the case, because it might be that an
acknowledged power of a local community to protect
itself against an epidemic threatening the safety of all
might be exercised in particular circumstances and in
reference to particular persons in such an arbitrary,
unreasonable manner, or might go so far beyond what
was reasonably required for the safety of the public,
as to authorize or compel the courts to interfere for the
protection of such persons.” (emphases added)).
Indeed, to hold otherwise would sanction the use of
valid public health measures as tools for the arbitrary
deprivation of any number of constitutional rights,
regardless of the logical efficacy of applying the
measure in that manner or even whether the
enforcement was in fact motivated by a desire to
further public health. See, e.g., On Fire Christian Ctr.,
Inc. v. Fischer, No. 3:20-CV-264-JRW, 2020 WL
1820249, at *2 (W.D. Ky. Apr. 11, 2020) (finding that
a ban on public gatherings during the pandemic,
which would obviously be a valid public heath
measure, was unconstitutional when used to prevent
a drive-through Easter Sunday church service in
which parishioners remained in their cars and had no

128a

direct personal contact (quoting Jacobson, 197 U.S.
11, 31 (1905)).
Considered in this light, there was sufficient
evidence in the record to conclude that the
enforcement of GA-09 as a prohibition on all three of
the classes of abortion at issue was pretextual and
motivated not by a desire to advance public health, but
rather to reduce the number of abortions performed
for its own sake. To begin with, as the district court
determined and as the majority acknowledged in a
previous order in this case, see In re Abbott, No. 2050296, 2020 WL 1866010 (5th Cir. Apr. 13, 2020),
medication abortion, which in itself consists entirely
of providing a patient with two sets of oral medication,
is not a “surgery or procedure” under either the
conventional definitions of those terms or the meaning
assigned to them in informal guidance from the Texas
Medical Board. See TEXAS MEDICAL BOARD, Frequently
Asked Questions (FAQs) Regarding Non-Urgent,
Elective Surgeries and Procedures During Texas
Disaster Declaration for COVID-19 Pandemic (Mar.
29, 2020), https//www.tmb.state.tx.us/idl/59C9706284FA-BB86-91BF-F9221E4DEF17 (last visited Apr.
19, 2020). And, as a wide range of declarations in the
record establish, medication abortion consumes no
PPE whatsoever when considered in isolation without
the preceding ultrasound or post-abortion tests that
Texas law requires. See App. at 73, 86, 91-92, 100, 110,
117, 134, 157. Medication abortion therefore does not
appear to fall within the facial, plain meaning of GA09’s prohibition on non-urgent elective “surgery or
procedures,” and if it did, it would seem to fall into the
exception for “any procedure that, if performed in
accordance with the commonly accepted standard of
clinical practice, would not deplete the hospital

129a

capacity or the personal protective equipment needed
to cope with the COVID-19 disaster.”11 Texas
Executive Order No. GA-09 (Mar. 22, 2020),
https://gov.texas.gov/uploads/files/press/EO-GA_09_C
OVID-19_hospital_ capacity_IMAGE_03-22-2020.pdf.
The Petitioners’ stated desire to nonetheless enforce
the order against the providers of medication abortion
raises a strong inference that the enforcement against
abortion providers more generally is pretextual and
motivated by hostility to abortion rights. Further
supporting this inference are multiple declarations
from practicing physicians stating that GA-09 is not
being enforced to prohibit many obstetrical and
gynecological procedures that consume as much or
more PPE and hospital capacity than the categories of
abortion at issue here, suggesting that abortions were
being singled out for differential treatment. See App.
at 368, 373-74. And, as discussed in more detail below,
there is substantial evidence in the record that
enforcing GA-09 against these categories of abortion
leads to a net loss of PPE and hospital capacity
because the amount of each resource consumed at
11 The majority theorizes that, because the district court
found that medication abortion is not a surgery or procedure
within the meaning of GA-09, its TRO might be construed as
enjoining state officials to comply with state law, which would
violate principles of sovereign immunity. Majority at 30-31
(citing Pennhurst State Sch. & Hosp. v. Halderman, 465 U.S. 89,
106 (1984)). But “[a]scertaining state law is a far cry from
compelling state officials to comply with it.” Williams ex rel. J.E.
v. Reeves, No. 19-60069, 2020 WL 1638411, at *7 (5th Cir. Apr. 2,
2020) (quoting Everett v. Schramm, 772 F.2d 1114, 1119 (3d Cir.
1985)). To the extent the district court interpreted GA-09 and
considered that the Petitioners were likely improperly enforcing
it in determining whether the enforcement was pretextual, it did
nothing improper.

130a

every stage of a continued pregnancy is greater than
the amount consumed in the performance of a
medication or procedural abortion. See App. at 135,
372-74, 414.
Based on this evidence, the district court could
reasonably conclude at the TRO stage that
Petitioner’s enforcement of GA-09 as a prohibition
against the categories of abortion at issue here was
“pretextual” and had “no real or substantial
connection” to protecting public health during the
COVID-19 epidemic. Abbott II, 2020 WL 1685929, at
*7, *8 (quoting Jacobson, 197 U.S. at 31). Under the
majority’s framework, this fact alone is enough to
demonstrate that the district court’s determinations
did not produce “patently erroneous results” as
required for the issuance of mandamus. See In re
Lloyd’s Register N. Am., Inc., 780 F.3d at 290 (quoting
In re Volkswagen of Am., Inc., 545 F.3d at 312). But
the majority doubly errs because there was also ample
evidence to conclude that enforcement of GA-09
against each of these categories of abortion fails the
second prong of its test by being “‘beyond all question,
a plain, palpable invasion’ of the [constitutional] right
to abortion.” Abbott II, 2020 WL 1685929, at *7, *8
(quoting Jacobson, 197 U.S. at 31). I will consider the
two classes of abortions the majority vacates the TRO
with respect to in turn.
1.
The majority first considers whether the evidence
was sufficient for a district court to reasonably
conclude that enforcing GA-09 against providers of
medication abortion “beyond all question” violated the
constitutional right to an abortion. Majority at 19-31.
The majority begins by asserting that the district

131a

court considered only the relative consumption of PPE
associated with medication abortions under normal
circumstances and asserts that there is no evidence
documenting PPE usage rates during the current
pandemic. Majority at 20-23.
First, it is worth reiterating that the majority’s
previous order did not include a directive to the
district court to specify that findings it was making
regarding relative usage were about rates during the
current pandemic. The majority now changes the
rules in order to find error where there is none. Its new
requirement is based solely on the majority’s own
supposition that, during the current pandemic, there
is PPE used during medication abortions that would
not otherwise be used by abortion providers
furnishing other healthcare services, and that this
increase shifts the balance between the relative
benefits and burdens of applying GA-09 to prohibit
medication abortions. There is no evidence for the
majority’s supposition.
In support of its contention that the rate of PPE
usage has likely changed, the majority points to a
declaration by an infectious disease expert that states
“[n]ot wearing face masks and other PPE when caring
for patients who are not under investigation for
COVID 19 . . . exposes health care workers to
transmission of infection” from asymptomatic
patients. Majority at 22. But there is no indication
that the abortion providers would not wear the same
amount of PPE “caring for patients” in ways other
than providing abortion. The majority fails to make
the simple logical inference that, if medication
abortion requires no PPE under normal conditions, it
requires no more PPE than would be used by medical

132a

staff providing other services under pandemic
conditions. For the majority’s premise to be correct,
one would have to assume that abortion providers only
(or at least primarily) provide abortion services and
would not fill canceled abortion appointment slots
with appointments for other medical services that
would bring them into personal contact with patients
at a similar frequency.12
Even assuming arguendo that medication
abortions do consume more PPE in a pandemic, the
pertinent question is not whether prohibiting
medication abortion prevents the use of some
marginal amount of PPE. It is whether it creates a net
benefit that outweighs its burden on the
constitutional right to abortion. See Whole Woman’s
Health v. Hellerstedt, 136 S. Ct. 2292, 2310 (2016). As
I stated before, there was no evidence in the record
suggesting that any PPE purchased by or in the
possession of abortion providers that would be
conserved by applying GA-09 to abortions could be
redirected to the COVID-19 response, nor have the
majority or Petitioners articulated any logical way in
which this could be so. Abbott II, 2020 WL 1685929, at
*22 (Dennis, J., dissenting). Moreover, there are
multiple declarations in the record from health care
professionals documenting that any increase in PPE
12 According to Planned Parenthood’s website, in addition to
abortion services, the organization provides health services
associated with emergency contraception, general preventative
healthcare, testing and treatment for HIV and other sexually
transmitted diseases, LGBT services, fertility treatments,
treatment for sexual dysfunction, pregnancy testing and
associated services, pelvic exams, and cancer screenings. See Our
Services, Planned Parenthood, https://www.plannedparenthood.
org/get-care/our-services (last visited Apr. 20, 2020).

133a

consumption from medication abortion during the
pandemic is more than matched by an increase in PPE
consumption from the necessary medical services
associated with continuing a pregnancy. See, e.g., App.
at 135 (“By comparison, even if a provider of prenatal
care reduces the scheduling of such care during the
COVID-19 outbreak, it will still involve use of masks,
sterile gloves, and potentially other PPE during
multiple visits. A patient continuing pregnancy will
thus require significantly more PPE than a patient
presenting for abortion.”); App. at 375 (stating that
“most prenatal and postpartum care is continuing”
during the COVID-19 pandemic and cannot be done
remotely before concluding that “requiring people to
continue unwanted pregnancies utilizes more PPE
and more hospital resources than abortion care”).
Thus, there is more than sufficient evidentiary
support to conclude that applying COVID-19 to
prohibit medication abortions does not preserve PPE
during the current pandemic.
The majority attempts to overcome this basic
conclusion by asserting that the state made a policy
judgment that it was more important to conserve PPE
in the near term than the long term in order to “flatten
the curve.” Majority at 25. But this ignores the
evidence that continuing a pregnancy results in more
PPE usage at every stage of the pregnancy than is
typically used in an abortion of any sort. See App. at
414 (“[T]he imaging and laboratory tests alone needed
during early pregnancy require the use of more PPE
than is typically used in connection with an abortion.”)
There is thus ample evidentiary support to conclude
that applying GA-09 to medication abortions results
in no conservation of PPE in the short or long term.

134a

Similar evidence exists with respect to hospital
capacity; when a pregnancy is continued, more
hospital beds and resources are consumed than when
a woman obtains a pre-viability abortion, and there is
no indication that the current pandemic has changed
this. See, e.g., App. at 375. And significant evidence
supports a conclusion that women who are unable to
obtain an abortion because of GA-09 will travel out of
state to obtain one, increasing their risk of contracting
COVID-19 and spreading it to others.13 See, e.g., App.
at 258-59, 311. Thus, this is not an instance in which
the district court made a “choice . . . between two
reasonable responses to a public crisis,” that should
have been “left to the governing state authorities.”
Abbott II, 2020 WL 1685929, at *12 (citing Jacobson,
197 U.S. at 30). This is an instance in which the
district court logically concluded that applying GA-09
to medication abortions was not reasonable because it
produced no public health benefit, and indeed, was
detrimental to achieving even its ostensible goals. And
against this total lack of a benefit, there is substantial
evidence that applying GA-09 to prohibit medication
abortions posed a significant burden on the
constitutional right to abortion, including by
increasing the health risks, financial costs, and
emotional toll associated with obtaining an abortion.
It was thus entirely reasonable for the district court to
13 The majority’s unsupported supposition that similar
travel might occur as a result of any medical procedures being
postponed, Majority at 26, is particularly misplaced. There is no
evidence that any other delayed medical service increases in cost
and health risk if delayed in the same manner as an abortion,
nor that there exists a legal deadline by which such procedures
must be procured comparable to Texas’s ban on post 22-week
abortions.

135a

conclude that the benefits of applying GA-09 to
medication abortions are “beyond all question”
outweighed by its burden on the constitutional right
to an abortion, Abbott II, 2020 WL 1685929, at *7, *9,
thereby creating an unconstitutional undue burden
under Casey.
The majority faults the district court for not citing
to the Petitioners’ exhibits purportedly containing
contrary evidence on some of these points, calling this
a failure to “carefully parse the evidence.” Majority at
26-30. But “[i]t is the province of the district court to
weigh conflicting evidence,” including by choosing
which evidence to credit and which evidence to
discount. R. S. by & through Ruth B. v. Highland Park
Indep. Sch. Dist., 951 F.3d 319, 337 (5th Cir. 2020). It
is not our role to second guess what would appear to
be a reasonable evaluation of the evidence under
commonplace circumstances, let alone on mandamus
review. There is thus no basis to conclude that the
district court’s reasoning produced “patently
erroneous results” as to medication abortions. In re
Lloyd’s Register N. Am., Inc., 780 F.3d at 290 (quoting
In re Volkswagen of Am., Inc., 545 F.3d at 312).
2.
The majority similarly concludes that the district
court’s reasoning led to a patently erroneous result
with regard to the TRO’s blocking application of GA09 to those abortions in the 18-week category—that is,
those abortions for women who would exceed the
maximum gestational age to legally have an abortion
other than in an ambulatory surgical center by the
expiration of the executive order and who would, in
their physicians’ judgment, be unable to obtain an
abortion at one of these centers. Majority at 32-34.

136a

The majority first criticizes the district court for
categorizing the application of GA-09 to women in this
18-week category as an “absolute ban on abortion”
because, it contends, women falling into this category
can, theoretically, still legally obtain an abortion.
Majority at 32 (quoting Abbott III, 2020 WL 1815587,
at *6). The majority’s argument is based on a
theoretical legal possibility that is a practical
impossibility. Many women in this category will not be
able to obtain an abortion for a number of reasons. In
reality, there are no ambulatory surgical centers that
provide abortion care outside of Texas’s four largest
metropolitan areas, see Hellerstedt, 136 S. Ct. at 2316,
and thus many women in rural areas of Texas would
need to secure transportation over a great distance
and lodging in a metropolitan area in order to undergo
the two-day procedure necessary for an abortion after
the 18-week mark. See App. at 130-31. For many this
will not be possible due to time constraints, financial
limitations, health reasons, or any number of other
factors. And there is evidence that, because of the
buildup of need for abortion care during the time GA09 is in effect, the delays associated with the resulting
backlog may prevent many women who will be past
the 18-week mark upon the expiration of the executive
order from obtaining an abortion before the 22-week
legal cutoff.14 See, e.g., App. at 95. For these women,
GA-09 is for all intents and purposes an absolute ban
on abortion. And the majority offers no authority for
the prospect that a law that theoretically leaves a
legal path to abortion cannot as a practical matter
14 This is especially true because the 18-week category
contains even women that will be only one or a few days shy of
the 22-week legal cutoff for an abortion when GA-09 expires.

137a

function as the sort of absolute ban that violates “the
essential holding of Roe v. Wade,” Casey, 505 U.S. at
846.
In light of the balancing test for identifying an
undue burden set forth in Casey, 505 U.S. at 874, and
Hellerstedt, 136 S. Ct. at 2310, the outright ban on
previability abortion might be thought of as the
ultimate burden on the constitutional right to
abortion which no benefit or interest yet identified can
outweigh. In that case, a law that nominally allows
abortion but places it functionally out of reach for a
class of women is only slightly less of a burden, and it
stands to reason that a truly compelling benefit would
be required to justify it.
We need not speculate what that benefit might be,
though, because on the evidence in the record, it was
reasonable for the district court to conclude that
applying GA-09 to prohibit this class of abortions
offered no benefit at all. Much of the evidence already
recounted concerned not only the relative
consumption of PPE and hospital capacity between a
medication abortion and a continued pregnancy, but
rather any pre-viability abortion and a continued
pregnancy. See, e.g., App. at 135 (“By comparison,
even if a provider of prenatal care reduces the
scheduling of such care during the COVID-19
outbreak, it will still involve use of masks, sterile
gloves, and potentially other PPE during multiple
visits. A patient continuing pregnancy will thus
require significantly more PPE than a patient
presenting for abortion.”); App. at 375 (stating that
“most prenatal and postpartum care is continuing”
during the COVID-19 pandemic and cannot be done
remotely before concluding that “requiring people to

138a

continue unwanted pregnancies utilizes more PPE
and more hospital resources than abortion care”).
It is true that, as the majority notes, the Supreme
Court acknowledged that “increased driving distances
do not always constitute an ‘undue burden.’”
Hellerstedt, 136 S. Ct. at 2313. But the district court’s
conclusion was not based on increased driving
distance alone. The distance was “one additional
burden, which, when taken together” with the forced
postponement of abortion care, which created a
significant backlog of need with a “virtual absence of
any health benefit,” id., “beyond question” constituted
an undue burden, Abbott II, 2020 WL 1685929, at *11.
This conclusion was a reasonable interpretation of the
evidence, and it therefore did not produce palpably
erroneous results such that mandamus is
appropriate.15
15 The majority determines that the district court did not
patently err by enjoining the enforcement of GA-09 against
abortions in the 22-week category. Majority at 34-35. I agree that
the district court did not patently err and that mandamus is not
warranted. However, I disagree with the majority’s
characterization of the evidence of women who would be denied
abortions in this category as “second-hand” and “weak.” Majority
at 34. Contra App. at 103 (declaration from CEO of nonprofit
operator of an abortion clinic stating from personal knowledge
that her clinic canceled two appointments with women who will
be past the 22-week legal limit for an abortion by the expiration
of GA-09); App at 349 (declaration from general manager of
surgical center stating from personal knowledge that at least
three of the patients whose appointments were canceled will be
past the 22-week legal limit for abortion by the expiration of GA09); App. at 353 (declaration from senior director of ambulatory
surgical center stating from personal knowledge that, based on
ultrasound dating, at least three of the appointments the clinic
canceled were for women who will be beyond the legal gestational
age limit to obtain an abortion by the expiration of GA-09); App.

139a

CONCLUSION
The present case is an excellent demonstration of
the dangers of using the extraordinary remedy of
mandamus to overmanage matters that are properly
left to a district court’s discretion. In part because of
the decisions of this court, the legality of abortion in
Texas has changed no less than six times since the
beginning of the COVID-19 pandemic. This court has
expended substantial time and judicial resources in an
effort to prevent interference with the state’s
pandemic response at a most urgent time, only to
instead contribute to a confusion that is likely more
disruptive than the alleged harm it sought to prevent.
Even today’s order will have little practical effect
other than to briefly change the legality once more.
Under GA-15, which takes effect at midnight on April
22, abortion legality in Texas will apparently change
for an eighth time, as the Respondents have
represented that all of their abortion care will fall into
the new exception that exempts services provided by
heath facilities that certify they will not draw upon
any public supply of PPE.
The majority again concludes that mandamus is
appropriate to correct what it perceives as rampant
abuses of discretion by the district court that produced
patently erroneous results. As I have said, I strongly
disagree with the majority’s critique of the district
court’s work, and I do not believe that this case
warrants mandamus relief. I therefore once again
respectfully but emphatically dissent.
at 442 (declaration from employ of abortion financial assistance
fund stating from personal knowledge that at least ten of the
funds clients will be past the 22-week gestational age limit for an
abortion by the expiration of GA-09).

140a

Appendix C
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
AUSTIN DIVISION
____________
No. A-20-CV-323-LY
____________
PLANNED PARENTHOOD CENTER FOR
CHOICE, PLANNED PARENTHOOD OF GREATER
TEXAS SURGICAL HEALTH SERVICES,
PLANNED PARENTHOOD SOUTH TEXAS
SURGICAL CENTER, WHOLE WOMAN’S
HEALTH, WHOLE WOMAN’S HEALTH
ALLIANCE, SOUTHWESTERN WOMEN’S
SURGERY CENTER, BROOKSIDE WOMEN’S
MEDICAL CENTER PA D/B/A BROOKSIDE
WOMEN’S HEALTH CENTER AND AUSTIN
WOMEN’S HEALTH CENTER, ROBIN WALLACE,
M.D., M.A.S.,
PLAINTIFFS,
v.
GREG ABBOTT, GOVERNOR OF TEXAS, KEN
PAXTON, ATTORNEY GENERAL OF TEXAS, PHIL
WILSON ACTING EXECUTIVE COMMISSIONER
OF THE TEXAS HEALTH AND HUMAN
SERVICES COMMISSION, STEPHEN BRINT
CARLTON, EXECUTIVE DIRECTOR OF THE
TEXAS MEDICAL BOARD, KATHERINE A.
THOMAS, EXECUTIVE DIRECTOR OF THE

141a

TEXAS BOARD OF NURSING, EACH IN THEIR
OFFICIAL CAPACITY, AND MARGARET MOORE,
DISTRICT ATTORNEY FOR TRAVIS COUNTY,
JOE GONZALES, CRIMINAL DISTRICT
ATTORNEY FOR BEXAR COUNTY, JAIME
ESPARZA, DISTRICT ATTORNEY FOR EL PASO
COUNTY, JOHN CREUZOT, DISTRICT
ATTORNEY FOR DALLAS COUNTY, SHAREN
WILSON, CRIMINAL DISTRICT ATTORNEY
TARRANT COUNTY, RICARDO RODRIGUEZ, JR.,
CRIMINAL DISTRICT ATTORNEY FOR HIDALGO
COUNTY, BARRY JOHNSON, CRIMINAL
DISTRICT ATTORNEY FOR MCLENNAN
COUNTY, KIM OGG, CRIMINAL DISTRICT
ATTORNEY FOR HARRIS COUNTY, AND BRIAN
MIDDLETON CRIMINAL DISTRICT ATTORNEY
FOR FORT BEND COUNTY, EACH IN THEIR
OFFICIAL CAPACITY,
DEFENDANTS.
____________
Filed: March 30, 2020
____________
ORDER GRANTING PLAINTIFFS’ REQUEST FOR
TEMPORARY RESTRAINING ORDER
____________
Before the court is the above styled and numbered
cause. Plaintiffs include several licensed abortion
facilities, Robin Wallace, a board-certified family
medicine physician who provides abortion care and is
co-medical director at Southwestern Women’s Surgery
Center, who bring this action on behalf of herself and

142a

her patients, and other organizations that provide
abortion services in the State of Texas. Plaintiffs bring
this constitutional challenge, pursuant to Title 42
United States Code section 1983, following the
publication of a March 23, 2020 press release by the
Texas attorney general titled, “Health Care
Professionals and Facilities, Including Abortion
Providers, Must Immediately Stop All Medically
Unnecessary Surgeries and Procedures to Preserve
Resources to Fight COVID-19 Pandemic.”1 The press
release interprets the governor of Texas’s “Executive
Order GA-09 relating to hospital capacity during the
COVID-19 disaster” (“Executive Order”) signed March
22, 2020.2 To the extent the attorney general’s
interpretation is consistent with the Executive Order,
Plaintiffs challenge the Executive Order itself.
Plaintiffs also challenge the Texas Medical Board’s
emergency amendment to Title 22 Texas
Administrative Code section 187.57 (“Emergency
Rule”), which imposes the same requirements as the
Executive Order.3 The Executive Order remains in
1
Available at https://www.texasattorneygeneral.gov/
news/releases/health-care-professions-and-facilities-includingabortion-providers-must-immediately-stop-all.
2
Available at https://gov.texas.gov/news/post/govornerabbott-issues-executive-order-increasing-hospital-capacityannounces-supply-chain-strike-force-for
COVID-19-response.
Under the Emergency Management Chapter of the Texas
Government Code, “the governor may issue executive orders,
proclamations, and regulations and amend or rescind them.
Executive orders, proclamations, and regulations have the force
and effect of law.” Tex. Gov’t Code Ann. § 418.012 (West 2019).
3 Available at https://tinyurl.com/v4pz99u. On March 24,
2020, the Texas Medical Board adopted an emergency rule to
enforce the Executive Order. Under preexisting law, the Texas
Medical Board could temporarily suspend or restrict a
physician’s license if the physician’s “continuation in practice

143a

effect until 11:59 PM on April 21, 2020, at the earliest,
or until the governor rescinds or modifies it.
Pending now before the court is Plaintiffs’ Motion
for Temporary Restraining Order and/or Preliminary
Injunction filed March 25, 2020 (Clerk’s Document
No. 7). The court held a telephone conference on
March 26, 2020, at which Plaintiffs and several
Defendants participated by counsel. The court
granted the State Defendants’4 request to file a
written response to the motion. The State Defendants
responded March 30, 2020 (Clerk’s Document No. 30),
and Plaintiffs filed a Supplemental Statement In
Support of Motion For Temporary Restraining Order
the same day (Clerk’s Document No. 29).
Plaintiffs argue that they have shown they are
entitled to a temporary restraining order following the
attorney general’s press release. Plaintiffs interpret
the press release as “suggesting that [the attorney
general] believes continuing to provide any abortion
care (other than for an immediate medical emergency)
would violate the Executive Order, and as a warning
would constitute a continuing threat to the public welfare.” 22
Tex. Admin. Code § 187.57(b). The Emergency Rule expands this
basis for discipline to include “performance of a non-urgent
elective surgery or procedure.”
Because the Emergency Rule contains the same
requirements to postpone surgeries and procedures that are not
immediately necessary, Plaintiffs discuss the Emergency Rule
together with the Executive Order.
4 Defendants Greg Abbott, Governor of Texas, Ken Paxton,
Attorney General of Texas, Phil Wilson, Acting Executive
Commissioner of the Texas Health and Human Services
Commission, Stephen Brint Carlton, Executive Director of the
Texas Medical Board, Katherine A. Thomas, Executive Director
of the Texas Board of Nursing, each in their official capacity, are
referred to as “State Defendants.”

144a

to abortion providers that ‘[t]hose who violate the
[Executive O]rder will be met with the full force of the
law.’ ” The Executive Order provides that failure to
comply is a criminal offense punishable by a fine of up
to $1,000, confinement in jail for up to 180 days, or
both fine and confinement. See Tex. Gov’t Code Ann.
§ 418.173 (West 2019) (“Penalty for Violation of
Emergency Management Plan”). These criminal
penalties also trigger administrative enforcement
provisions for the Texas Health and Human Services
Commission, the Texas Medical Board, and the Texas
Board of Nursing, each of which is authorized to
pursue disciplinary action against licensees who
violate criminal laws. See 25 Tex. Admin. Code
§§ 139.32(b)(6), 135.24(a)(1)(F); 22 Tex. Admin. Code
§ 185.17(11); Tex. Occ. Code Ann. §§ 164.051(a)(2)(B),
(a)(6); 301.452(b)(3), (b)(10).
Plaintiffs move for a temporary restraining order
that restrains Defendants and their employees,
agents, successors, and all others acting in concert or
participating with them from enforcing the Executive
Order and the Texas Medical Board’s Emergency Rule
as banning all medication abortions and procedural
abortions.
The court, having considered the pleadings, the
motion and supporting exhibits, the response, the
applicable law, and arguments of counsel, finds and
concludes for the specific reasons required under
Federal Rule of Civil Procedure 65(d) and Local Rule
65.01, that Plaintiffs have shown (1) a likelihood of
success on the merits, (2) that they will suffer
irreparable harm if temporary relief is not granted, (3)
that the injury to Plaintiffs outweighs any harm the
temporary relief might cause Defendants; and (4) that

145a

a temporary restraining order will not disserve the
public interest. See, e.g., Jackson Women’s Health Org.
v. Currier, 760 F.3d 448, 452 (5th Cir. 2014) (“Jackson
I”); Janvey v. Alguire, 647 F.3d 585, 595 (5th Cir.
2011).
Substantial likelihood of success on the merits
Specifically, the court finds that Plaintiffs have
established a substantial likelihood of success on the
merits of their claim that the Executive Order, as
interpreted by the attorney general, violates
Plaintiffs’ patients’ Fourteenth Amendment rights,
which derive from the Bill of Rights, by effectively
banning all abortions before viability. See Planned
Parenthood v. Casey, 505 U.S. 833, 848-49, 112 S.Ct.
2791, 120 L.Ed.2d 674 (1992) (citing Griswold v.
Conn., 381 U.S. 479, 481-82, 85 S.Ct. 1678, 14 L.Ed.2d
510 (1965); Roe v. Wade, 410 U.S. 113, 153-54, 93 S.Ct.
705, 35 L.Ed.2d 147 (1973)). The Due Process Clause
of the Fourteenth Amendment to the United States
Constitution protects a woman’s right to choose
abortion, Roe v. Wade, 410 U.S. 113, 153-54, 93 S.Ct.
705, 35 L.Ed.2d 147 (1973), and before fetal viability
outside the womb, a state has no interest sufficient to
justify an outright ban on abortions. Roe, 410 U.S. at
163-65, 93 S.Ct. 705; see also Casey, 505 U.S. at 846,
871, 112 S.Ct. 2791 (1992) (reaffirming Roe’s “central
principle” that “[b]efore viability, the State’s interests
are not strong enough to support a prohibition of
abortion”); Jackson Women’s Health Org. v. Dobbs,
951 F.3d 246, 248 (5th Cir. 2020) (per curiam)
(“Jackson III”); Jackson Women’s Health Org. v.
Dobbs, 945 F.3d 265, 268-69 (5th Cir. 2019) (“Jackson
II”).

146a

Under the attorney general’s interpretation, the
Executive Order either bans all non-emergency
abortions in Texas or bans all non-emergency
abortions in Texas starting at 10 weeks of pregnancy,
and even earlier among patients for whom medication
abortion is not appropriate. Either interpretation
amounts to a previability ban which contravenes
Supreme Court precedent, including Roe. See, e.g.,
Jackson III, 951 F.3d at 248 (ban on abortions starting
at six weeks). Previability abortion bans are
“unconstitutional under Supreme Court precedent
without resort to the undue burden balancing test.”
Id. States “may regulate abortion procedures prior to
viability so long as they do not impose an undue
burden on the woman’s right, but they may not ban
abortions.” Jackson II, 945 F.3d at 269.
The State Defendants well describe the emergency
facing this country at the present time. They do not
overstate when they say, “Texas faces it worst public
health emergency in over a century.” The Executive
Order, as written, does not exceed the governor’s
power to deal with the emergency. But the attorney
general’s interpretation of that order constitutes the
threat of criminal penalties against those whose
interpretation differs. Yes, the attorney general is not
the enforcer of those penalties, but many of those who
are charged with enforcement are named as
defendants in this action. The court takes notice that
the opinion or notion of the attorney general as to the
breadth of a law, even if expressed informally, carries
great weight with those who must enforce it.
Regarding a woman’s right to a pre-fetal-viability
abortion, the Supreme Court has spoken clearly.
There can be no outright ban on such a procedure.

147a

This court will not speculate on whether the Supreme
Court included a silent “except-in-a-nationalemergency clause” in its previous writings on the
issue. Only the Supreme Court may restrict the
breadth of its rulings. The court will not predict what
the Supreme Court will do if this case reaches that
Court. For now, the State Defendants, and perhaps
the others, agree that the Executive Order bans all
pre-fetal-viability abortions. This is inconsistent with
Supreme
Court
precedent.
Plaintiffs
have
demonstrated a strong likelihood of success on the
merits of their action.
Plaintiffs will suffer irreparable harm
Plaintiffs’ patients will suffer serious and
irreparable harm in the absence of a temporary
restraining
order.
The
attorney
general’s
interpretation of the Executive Order prevents Texas
women from exercising what the Supreme Court has
declared is their fundamental constitutional right to
terminate a pregnancy before a fetus is viable. It is
well established that, upon a plaintiff’s demonstrating
a constitutional violation, no further irreparable
injury is necessary. See Elrod v. Burns, 427 U.S. 347,
373, 96 S.Ct. 2673, 49 L.Ed.2d 547 (1976) (“The loss of
[constitutional]
freedoms
...
unquestionably
constitutes irreparable injury.”); Opulent Life Church
v. City of Holly Springs, 697 F.3d 279, 295 (5th Cir.
2012); Deerfield Med. Ctr. v. City of Deerfield Beach,
661 F.2d 328, 338 (5th Cir. Unit B Nov. 1981).
The threatened injury to Plaintiffs outweigh
any damage the temporary restraining order
may cause Defendants
A delay in obtaining abortion care causes
irreparable harm by “result[ing] in the progression of

148a

a pregnancy to a stage at which an abortion would be
less safe, and eventually illegal.” Planned Parenthood
of Wis., Inc. v. Van Hollen, 738 F.3d 786 (7th Cir.
2013). This “disruption or denial of . . . patients’ health
care cannot be undone after a trial on the merits.”
Planned Parenthood of Kan. v. & Mid-Mo. v.
Andersen, 882 F.3d 1205, 1236 (10th Cir. 2018). For
some patients, such a delay will deprive them of any
access to abortion. See Tex. Health & Safety Code
Ann. § 171.044 (West 2017) (prohibiting abortions
after 20 or more weeks post-fertilization age). The
court finds that the threatened injury to Plaintiffs
outweighs any damage the temporary restraining
order may cause Defendants.
Temporary restraining order will not disserve
the public interest
“The grant of an injunction will not disserve the
public interest ... when an injunction is designed to
avoid constitutional deprivations.” Jackson’s Women’s
Health Org. v. Currier, 940 F. Supp. 2d 416, 424 (S.D.
Miss. 2013), aff’d, 760 F.3d 448 (5th Cir. 2014).
Plaintiffs’ requested relief will essentially continue
the status quo, tipping the balance of equities toward
Plaintiffs and serving the public interest. Id.; United
States v. Tex., 508 F.2d 98, 101 (5th Cir. 1975). The
benefits of a limited potential reduction in the use of
some personal protective equipment by abortion
providers is outweighed by the harm of eliminating
abortion access in the midst of a pandemic that
increases the risks of continuing an unwanted
pregnancy, as well as the risks of travelling to other
states in search of time-sensitive medical care. The
court finds that a temporary restraining order will not
disserve the public interest.

149a

The court concludes that Plaintiffs have shown
that they are entitled to a temporary restraining
order. Therefore,
IT IS ORDERED that Plaintiffs’ Motion for
Temporary Restraining Order filed March 25, 2020
(Clerk’s Document No. 7) is GRANTED.
IT IS FURTHER ORDERED that Defendants
and their employees, agents, successors, and all others
acting in concert or participating with them, are
TEMPORARILY RESTRAINED from enforcing
Executive Order GA-09, “Relating to hospital capacity
during the COVID-19 disaster,” and the Texas
Medical Board’s emergency amendment to Title 22
Texas Administrative Code section 187.57, as applied
to medication abortions and procedural abortions.5
IT IS FURTHER ORDERED that this
Temporary Restraining Order shall expire on April 13,
2020 at 3:00 p.m. This order may be extended for good
cause, pursuant to Federal Rule of Civil Procedure 65.
Plaintiffs have also moved for a preliminary
injunction. Therefore,
IT IS ORDERED that the hearing on Plaintiffs’
motion for a preliminary injunction is set for a
telephonic hearing on April 13, 2020 at 9:30 a.m.
Counsel and parties may call in to the court’s
conference line at (877) 873-8017, with Access Code
7996289.

5 Pursuant to an Agreed Stipulation for Non-Enforcement
Pending Final Resolution, Attorneys Fees and Costs filed March
28, 2020 (Clerk’s Document No. 25) this order does not apply to
Defendant Brian Middleton, Criminal District Attorney for Fort
Bend County.

150a

Plaintiffs shall not be required to post a bond. See
Kaepa, Inc. v. Achilles Corp., 76 F.3d 624, 628 (5th Cir.
1996).
SIGNED at 3:00 p.m., this 30th day of March,
2020.
/s/ Lee Yeakel
LEE YEAKEL
UNITED STATES DISTRICT
JUDGE

151a

Appendix D
IN THE UNITED STATES COURT OF
APPEALS FOR THE FIFTH CIRCUIT
____________
No. 20-50264
____________
In re: GREG ABBOTT, in his official capacity as
Governor of Texas; KEN PAXTON, in his official
capacity as Attorney General of Texas; PHIL
WILSON, in his official capacity as Acting Executive
Commissioner of the Texas Health and Human
Services Commission; STEPHEN BRINT CARLTON,
in his official capacity as Executive Director of the
Texas Medical Board; KATHERINE A. THOMAS, in
her official capacity as the Executive Director of the
Texas Board of Nursing,
Petitioners
____________
Petition for a Writ of Mandamus to the United States
District Court for the Western District of Texas
____________
Filed: March 31, 2020
____________
Before DENNIS, ELROD, and DUNCAN, Circuit
Judges.
____________

152a

PER CURIAM:
IT IS ORDERED that the district court’s order of
March 30, 2020 (Dkt. No. 40) is TEMPORARILY
STAYED until further order of this court to allow this
court sufficient time to consider petitioners’
emergency motion for stay and petition for writ of
mandamus.
IT IS FURTHER ORDERED that plaintiffsrespondents be directed to file a response to the
emergency motion for stay no later than Wednesday,
April 1, 2020, at 8:00 a.m. Any reply by petitioners is
due no later than Wednesday, April 1, 2020, at 8:00
p.m.
IT IS FURTHER ORDERED that plaintiffsrespondents be directed to file a response to the
petition for writ of mandamus no later than Thursday,
April 2, 2020, at 8 p.m. Any reply by petitioners is due
no later than Friday, April 3, 2020, at 5 p.m.
IT IS FURTHER ORDERED that the filing of an
amicus brief by States, Alabama, Arkansas, Idaho,
Indiana, Kentucky, Louisiana, Mississippi, Missouri,
Nebraska, Ohio, Oklahoma, South Carolina, South
Dakota, Tennessee, Utah, and West Virginia, is
allowed.
JAMES L. DENNIS, Circuit Judge, dissenting:
A federal judge has already concluded that
irreparable harm would flow from allowing the
Executive Order to prohibit abortions during this
critical time. I would deny the stay. Moreover, I write
separately to make clear that, per the Executive
Order, “any procedure that, if performed in
accordance with the commonly accepted standard of
clinical practice, would not deplete the hospital

153a

capacity or the personal protective equipment needed
to cope with the COVID-19 disaster” is exempt.

154a

Appendix E
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
AUSTIN DIVISION
____________
No. A-20-CV-323-LY
____________
PLANNED PARENTHOOD CENTER FOR
CHOICE, PLANNED PARENTHOOD OF GREATER
TEXAS SURGICAL HEALTH SERVICES,
PLANNED PARENTHOOD SOUTH TEXAS
SURGICAL CENTER, WHOLE WOMAN’S
HEALTH, WHOLE WOMAN’S HEALTH
ALLIANCE, SOUTHWESTERN WOMEN’S
SURGERY CENTER, BROOKSIDE WOMEN’S
MEDICAL CENTER PA D/B/A BROOKSIDE
WOMEN’S HEALTH CENTER AND AUSTIN
WOMEN’S HEALTH CENTER, ROBIN WALLACE,
M.D., M.A.S.,
PLAINTIFFS,
v.
GREG ABBOTT, GOVERNOR OF TEXAS, KEN
PAXTON, ATTORNEY GENERAL OF TEXAS, PHIL
WILSON ACTING EXECUTIVE COMMISSIONER
OF THE TEXAS HEALTH AND HUMAN
SERVICES COMMISSION, STEPHEN BRINT
CARLTON, EXECUTIVE DIRECTOR OF THE
TEXAS MEDICAL BOARD, KATHERINE A.
THOMAS, EXECUTIVE DIRECTOR OF THE

155a

TEXAS BOARD OF NURSING, EACH IN THEIR
OFFICIAL CAPACITY, AND MARGARET MOORE,
DISTRICT ATTORNEY FOR TRAVIS COUNTY,
JOE GONZALES, CRIMINAL DISTRICT
ATTORNEY FOR BEXAR COUNTY, JAIME
ESPARZA, DISTRICT ATTORNEY FOR EL PASO
COUNTY, JOHN CREUZOT, DISTRICT
ATTORNEY FOR DALLAS COUNTY, SHAREN
WILSON, CRIMINAL DISTRICT ATTORNEY
TARRANT COUNTY, RICARDO RODRIGUEZ, JR.,
CRIMINAL DISTRICT ATTORNEY FOR HIDALGO
COUNTY, BARRY JOHNSON, CRIMINAL
DISTRICT ATTORNEY FOR MCLENNAN
COUNTY, KIM OGG, CRIMINAL DISTRICT
ATTORNEY FOR HARRIS COUNTY, AND BRIAN
MIDDLETON CRIMINAL DISTRICT ATTORNEY
FOR FORT BEND COUNTY, EACH IN THEIR
OFFICIAL CAPACITY,
DEFENDANTS.
____________
Filed: April 9, 2020
____________
ORDER GRANTING PLAINTIFFS’ SECOND
MOTION FOR A TEMPORARY RESTRAINING
ORDER
____________
Before the court is Plaintiffs’ Second Motion for a
Temporary Restraining Order and Memorandum in
Support (Dkt. #56). Having considered the motion, the
evidence in the record, the legal arguments made by
all parties to date, and the opinion, order, and writ of

156a

mandamus issued by the United States Court of
Appeals for the Fifth Circuit April 7, 2020, In re
Abbott, No. 20-50264 2020 WL 1685929 (5th Cir. April
7, 2020), the court again considers whether Plaintiffs
are entitled to temporary relief limiting the scope of
Executive Order GA-09 issued by the governor of
Texas on March 22, 2020.
Accompanying Plaintiffs’ motion are proposed
findings of fact and conclusions of law. The proposed
findings and conclusions carefully and painstakingly
track the evidence before the court regarding both of
Plaintiffs’ motions for temporary relief and the
applicable law. The court has reviewed and considered
these proposed findings and conclusions and
determined that they are, in substantial part,
accurate and in concurrence with court’s own review
of the evidence and the law. The court will, therefore,
adopt the bulk of the proposed findings and
conclusions as its own.
The court makes the following findings of fact:
1. On March 13, 2020, the United States declared
a state of emergency and the State of Texas declared
a state of disaster related to the COVID-19 pandemic.
See Proclamation by the Governor of the State of
Texas (Mar. 13, 2020);1 Proclamation No. 9994, 85
Fed. Reg. 15,337, 2020 WL 1272563 (Mar. 13, 2020).
2. On March 22, 2020, the governor issued an
executive order barring “all surgeries and procedures
that are not immediately medically necessary to
correct a serious medical condition of, or to preserve
1
Available at https://gov.texas.gov/uploads/files/press/
DISASTER_covidl9_disaster_proclamation_IMAGE_03-132020.pdf.

157a

the life of, a patient who without immediate
performance of the surgery or procedure would be at
risk for serious adverse medical consequences or
death, as determined by the patient’s physician.”
Executive Order GA-09, “Relating to hospital capacity
during the COVID-19 disaster” (March 22, 2020)
(“Executive Order”) at 3.2 The Executive Order further
states that procedures that, “if performed in
accordance with the commonly accepted standard of
clinical practice, would not deplete the hospital
capacity or the personal protective equipment needed
to cope with the COVID-19 disaster” are exempt from
the order. Id. The Executive Order remains in effect
until 11:59 PM on April 21, 2020, unless the governor
rescinds or modifies it. Id.
3. Federal officials and medical professionals
expect the pandemic to last well beyond April 21,
2020. Schutt-Aine Dec. ¶ 40. This court likewise
expects the pandemic to last beyond April 21. The
current shortage of personal protective equipment
(“PPE”) is expected to continue for the next three to
four months. Sharfstein Decl. ¶ 13.
4. Failure to comply with the Executive Order is a
criminal offense punishable by a fine of up to $1,000,
confinement in jail for up to 180 days, or both.
Executive Order at 3 (citing Tex. Gov’t Code
§ 418.173). Violation of the Executive Order may also
give rise to disciplinary action against licensed healthcare providers by the Texas Health and Human
Services Commission, the Texas Medical Board, and
the Texas Board of Nursing. See 25 Tex. Admin. Code
2
Available at https://gov.texas.gov/uploads/files/press/
EO-GA_09_COVID19_hospital_capacity_IMAGE_03-22-2020.pd
f.

158a

§§ 139.32(b)(6), 135.24(a)(1)(F); 22 Tex. Admin. Code
§ 185.17(11); Tex. Occ. Code Ann. §§ 164.051(a)(2)(B),
(a)(6); 301.452(b)(3), (B)(10).
5. On March 23, 2020, the Texas Attorney General
issued a press release titled “Health Care
Professionals and Facilities, Including Abortion
Providers, Must Immediately Stop All Medically
Unnecessary Surgeries and Procedures to Preserve
Resources to Fight Covid-19 Pandemic.” The press
release states that providing any abortion care (other
than for an immediate medical emergency) would
violate the Executive Order and warned that “[t]hose
who violate the governor’s order will be met with the
full force of the law.”
6. On March 24, 2020, the Texas Medical Board
(“Medical Board”) adopted an emergency rule
(“Emergency Rule”) to enforce the Executive Order.
Under pre-existing law, the Medical Board can
temporarily suspend or restrict a physician’s license if
the physician’s “continuation in practice would
constitute a continuing threat to the public welfare.”
22 Tex. Admin. Code § 187.57(b). The Emergency Rule
expands this basis for discipline to include
“performance of a non-urgent elective surgery or
procedure” and incorporates the terms of the
Executive Order, requiring all licensed health-care
professionals to postpone all surgeries and procedures
that are not immediately necessary. 22 Tex. Admin.
Code § 187.57 (emergency regulation adopted Mar. 23,
2020).3
7. On March 29, 2020, the Medical Board
published updated guidance regarding the scheduling
3

Available at https://tinyurl.com/v4pz99u.

159a

of elective surgeries and procedures in light of the
Executive Order. Tex. Med. Bd., Updated Texas
Medical Board [ ] Frequently Asked Questions (FAQs)
Regarding Non-Urgent Elective Surgeries and
Procedures During Texas Disaster Declaration for
COVID-19 Pandemic (Mar. 29, 2020) (“Medical Board
Guidance”).4 The Medical Board explained that
postponing non-urgent elective cases would preserve
PPE, ventilator availability, and [intensive-care-unit]
beds.” It defined “urgent or elective urgent”
procedures as those where “there is a risk of patient
deterioration or disease progression likely to occur if
the procedure is not undertaken or is significantly
delayed.” The Medical Board noted that “the
prohibition does not apply to office-based visits
without surgeries or procedures.” Further, the
Medical Board explained that “[a] ‘procedure’ does not
include
physical
examinations,
non-invasive
diagnostic tests, the performing of lab tests, or
obtaining specimens to perform laboratory tests.”
8. The attorney general’s interpretation of the
Executive Order, which has been adopted by the State
Defendants,5 creates a credible threat of enforcement
against Plaintiffs and their agents for the provision of
any abortion. This has had a profound chilling effect
on the provision of abortion care in Texas. Plaintiffs
4 Available at http://www.tmb.state.tx.us/idl/59C9706284FA-BB86-91BF-F9221E4DEF17.
5 Defendants Greg Abbott, Governor of Texas, Ken Paxton,
Attorney General of Texas, Phil Wilson, Acting Executive
Commissioner of the Texas Health and Human Services
Commission, Stephen Brint Carlton, Executive Director of the
Texas Medical Board, Katherine A. Thomas, Executive Director
of the Texas Board of Nursing, each in their official capacity, are
referred to as “State Defendants.”

160a

and their agents have ceased providing nearly all
abortion care as a result. Barraza Decl. ¶ 15; DewittDick Decl. ¶ 8; Ferrigno Decl. ¶¶ 25–28; Hagstrom
Miller ¶¶ 26–28; Klier Decl. ¶ 17; Lambrecht Decl.
¶¶ 18–20; Schutt-Aine ¶¶ 32–34; Wallace Decl. ¶ 9.
9. Plaintiffs use two methods of providing an
abortion: medication abortion and procedural
abortion. Schutt-Aine Decl. ¶ 12.
10. Medication abortion is not a surgery or
procedure. It involves the patient ingesting a
combination of two pills: mifepristone and
misoprostol. Schutt-Aine Decl. ¶ 13. The patient takes
the mifepristone in the health center and then,
typically 24 to 48 hours later, takes the misoprostol at
a location of their choosing, most often at their home,
after which they expel the contents of the pregnancy
in a manner similar to a miscarriage. Schutt-Aine
Decl. ¶ 13. Texas law restricts this method to the first
10 weeks of pregnancy as measured from the first day
of a pregnant woman’s last menstrual period (“LMP”).
Tex. Health & Safety Code § 171.063. Plaintiffs
provide medication abortion up to the 10-week limit.
11. Despite sometimes being referred to as
“surgical abortion,” procedural abortion is not what is
commonly understood to be “surgery”; it involves no
incision, no need for general anesthesia, and no
requirement of a sterile field. Schutt-Aine Decl. ¶ 16.
Early in pregnancy, procedural abortions are
performed using a technique called aspiration, in
which a clinician uses gentle suction from a narrow,
flexible tube to empty the contents of the patient’s
uterus. Schutt-Aine Decl. ¶ 16. Beginning around 15
weeks LMP, the clinician generally must use
instruments to complete the procedure, a technique

161a

called dilation and evacuation (“D&E”). Later in the
second trimester of pregnancy, the clinician may begin
cervical dilation the day before the procedure itself,
resulting in a two-day procedure. Schutt-Aine Decl.
¶ 16. Plaintiffs provide procedural abortion in both
the first and second trimester. Procedural abortions
may not be performed in an abortion clinic after 18
weeks LMP. Tex. Health & Safety Code 171.004. At
that point, outpatient procedural abortions may only
be performed at an ambulatory surgery center
(“ASC”), id., but there are no ASCs that provide
abortion care outside of Texas’s four largest
metropolitan areas, Whole Woman’s Health v.
Hellerstedt, 136 S. Ct. 2292, 2316 (2016).
12. Absent exceptional circumstances, Texas law
prohibits abortion care altogether after 22 weeks
LMP. See Tex. Health & Safety Code § 171.044.
13.
Abortion
patients
rarely
require
hospitalization. Ferrigno Decl. ¶ 14; Hagstrom Miller
Decl. ¶ 17; Schutt-Aine Decl. ¶ 12; Whole Woman’s
Health, 136 S. Ct. at 2311.
14. Although some medication abortions require a
follow-up aspiration procedure, the number of those
cases is exceedingly small and can generally be
handled in an outpatient setting. Levison Decl. ¶ 9;
Schutt-Aine Decl. ¶ 12.
15. Providing medication abortion does not
require the use of any PPE. Barraza Decl. ¶ 7; DewittDick Decl. ¶ 19; Ferrigno Decl. ¶ 10; Hagstrom Miller
Decl. ¶ 13; Lambrecht Decl. ¶ 12; Klier Decl. ¶ 11;
Schutt-Aine Decl. ¶ 25; Wallace Decl. ¶ 12.
16. Texas law requires an in-person consultation
between patient and provider, which must include an

162a

ultrasound examination, before every abortion. See
Tex. Health & Safety Code § 171.012(a)(4), (b). For
patients who reside within 100 miles of the facility
where the abortion will be performed, the consultation
must occur at least 24 hours prior to the abortion
procedure. See id. According to the Medical Board,
“non-invasive diagnostic tests” such as ultrasounds
are not procedures, and the prohibition contained in
the Executive Order “does not apply to office-based
visits without surgery or procedures.” Medical Board
Guidance. In any event, pre-procedure ultrasound
examinations require minimal PPE. Use of PPE is not
required at
all for abdominal ultrasound
examinations. Ferrigno Decl. ¶ 11; Hagstrom Miller
Decl. ¶ 14; Macones Decl. ¶ 14. For vaginal ultrasound
examinations, doctors or ultrasound technicians
typically wear only non-sterile gloves that are
discarded after each scan. Ferrigno Decl. ¶ 11;
Hagstrom Miller Decl. ¶ 14; Macones Decl. ¶ 14.
When laboratory testing is required, technicians
likewise utilize only non-sterile gloves. Hagstrom
Miller Decl. ¶ 14.
17. For procedural abortion, providers may use
some or all of the following PPE items, depending on
the circumstances: gloves, a surgical mask, disposable
protective eyewear, disposable or washable gowns,
hair covers, and shoe covers. Barraza Decl. ¶ 7;
Dewitt-Dick Decl. ¶ 19; Ferrigno Decl. ¶¶ 10, 12;
Hagstrom Miller Decl. ¶¶ 13, 15; Klier Decl. ¶ 11;
Lambrecht Decl. ¶ 12; Schutt-Aine Decl. ¶ 25; Wallace
Decl. ¶ 12.
18. Following a procedural abortion, the tissue
removed from a patient is examined in a pathology
laboratory. Ferrigno Decl. ¶ 12; Hagstrom Miller ¶ 15.

163a

This task is typically performed by a single staff
member who utilizes one washable gown per shift,
either one disposable face shield per shift or one set of
reusable goggles, one set of disposable shoe covers per
shift, one disposable hair cap per shift, and one or
more sets of non-sterile gloves. Hagstrom Miller ¶ 15.
According to the Medical Board, “the performing of lab
tests” is not subject to the Executive Order. Medical
Board Guidance; see also Tex. Med. Ass’n, TMB
Releases Emergency Rules: Non-Urgent Surgeries
and Procedures, at 3, 6 (Mar. 29, 2020).6
19. Abortion providers generally do not use N95
masks. Only one physician associated with Plaintiffs
has used an N95 mask since the beginning of the
COVID-19 pandemic, and that physician has been
reusing the same mask over and over. Barraza Decl.
¶ 8; Ferrigno Decl. ¶ 13; Hagstrom Miller Decl. ¶ 16;
Klier Decl. ¶ 6; Lambrecht Decl. ¶ 12; Schutt-Aine
Decl. ¶ 27.
20. Pregnant women prevented from accessing
abortion will still require medical care. Chang Decl.
¶ 8; Levison Decl. ¶ 8; Macones Decl. ¶ 10. Consistent
with recommendations from the American College of
Obstetricians and Gynecologists (“ACOG”) and other
medical authorities for providing obstetrical care
during the COVID-19 pandemic, obstetricians are
generally having two in-person visits with pregnant
patients during the first-trimester and more frequent
in-person visits during later trimesters. Chang Decl.
¶ 11; Levison Decl. ¶ 19; Macones Decl. ¶¶ 9–10;
Wood Decl. ¶ 11. High-risk patients, including those
6
Available at https://www.texmed.org/uploadedFiles/
Current/2016_Public_Health/Infectious_Diseases/Emergency%
20rule% 20guidance% 20-% 203.25% 20Update.pdf.

164a

with diabetes or high blood pressure, must have more
frequent in-person visits. Chang Decl. ¶ 10; Levison
Decl. ¶ 14; Macones Decl. ¶¶ 7, 10; Wood Decl. ¶¶ 11–
12. Urine specimens are generally collected and tested
at each in-person visit, and blood is sometimes
collected and tested also. Chang Decl. ¶ 12; Levison
Decl. ¶ 13; Macones Decl. ¶ 11; Wood Decl. ¶ 11.
Additionally, obstetricians are generally performing
at least one ultrasound during the first trimester and
another one at 20 weeks LMP. Chang Decl. ¶¶ 11–12;
Macones Decl. ¶ 12; Wood Decl. ¶ 14. High-risk
patients will require more frequent ultrasounds.
Macones Decl. ¶ 12; Wood Decl. ¶ 14.
21. Because individuals with ongoing pregnancies
require more in-person healthcare, including lab tests
and ultrasounds, at each stage of pregnancy than
individuals who have previability abortions, delaying
access to abortion will not conserve PPE. Levison Decl.
¶¶ 12–14; Macones Decl. ¶ 20; Schutt-Aine Decl. ¶ 26.
22. Individuals with ongoing pregnancies are
more likely to seek treatment in a hospital—for a
variety of conditions—than individuals who have previability abortions. Therefore, delaying access to
abortion will not conserve hospital resources. Levison
Decl. ¶¶ 8–11; Macones Decl. ¶ 19; Schutt-Aine Decl.
¶ 26; Whole Woman’s Health, 136 S. Ct. at 2311.
23. Individuals who are delayed past the legal
limit for abortion will have to deliver babies. Delivery
generally takes place in a hospital and requires
extensive use of PPE. Thus, requiring patients to
carry unwanted pregnancies to term will not conserve
PPE or hospital resources. Chang Decl. ¶¶ 16–17;
Levison Decl. ¶¶ 9, 15–17; Macones Decl. ¶ 18; SchuttAine Decl. ¶ 26.

165a

24. Physicians are continuing to provide
obstetrical and gynecological procedures comparable
to abortion in PPE use or time-sensitivity, based on
their professional medical judgment. See Chang Decl.
¶ 24; Levison Decl. ¶ 18.
25. The inability to obtain abortion care in Texas
as a result of the Executive Order is causing
individuals with unwanted pregnancies who have the
ability to travel to go to other states to obtain
abortions. The record shows that these individuals are
traveling by both car and airplane to places as far
away as Colorado and Georgia. Doe Decl. ¶¶ 15–22;
Johnson Decl. ¶¶ 8–10; Nguyen Decl. ¶ 17; Ward Decl.
¶¶ 12–14. This long-distance travel increases an
individual’s risk of contracting COVID-19. Bassett
Decl. ¶¶ 7–8; Schutt-Aine Decl. ¶ 37; Sharfstein Decl.
¶ 10; Doe Decl. ¶ 18. The record shows that patients
traveling to other states for abortion care include
patients seeking medication abortion. Doe Decl. ¶¶ 9,
19–22.
26. Plaintiffs have turned away hundreds of
patients seeking abortion care, and will turn away
hundreds more, absent entry of a temporary
restraining order. Barraza Decl. ¶¶ 6, 15; Dewitt-Dick
Decl. ¶ 8; Ferrigno Decl. ¶¶ 26–28; Hagstrom Miller
Decl. ¶¶ 27–28; Johnson Decl. ¶ 4; Klier Decl. ¶ 17;
Lambrecht Decl. ¶¶ 18–20; Nguyen Decl. ¶ 8; SchuttAine Decl. ¶¶ 33–34; Wallace Decl. ¶9.
27. There will be significant pent-up need for
abortion care when the Executive Order expires. It
will take Plaintiffs weeks to resolve the resulting
backlog of patients, meaning that a significant
number of patients will face additional delays in
accessing abortion even after the Executive Order’s

166a

now month-long duration expires. Ferrigno Decl. ¶ 29;
Hagstrom Miller Decl. ¶ 29; Johnson Decl. ¶ 12;
Nguyen Decl. ¶ 23.
28. Patients delayed past 10 weeks LMP are no
longer eligible for a medication abortion in Texas. See
Tex. Health & Safety Code § 171.063(a)(2). Patients
delayed past 14 to 16 weeks LMP are no longer eligible
for an aspiration abortion, and must instead have a
D&E, which is a lengthier and more complex
procedure. Ferrigno Decl. ¶ 35; Hagstrom Miller Decl.
¶ 34; Lambrecht Decl. ¶ 18; Schutt-Aine Decl. ¶¶ 16,
39. Patients who are delayed past 18 weeks LMP are
no longer eligible for an abortion at an abortion clinic
in Texas and must obtain care from an ASC. See Tex.
Health & Safety Code § 171.004. Patients delayed
past 22 weeks LMP are no longer eligible to obtain an
abortion in Texas at all, absent exceptional
circumstances. See Tex. Health & Safety Code
§ 171.044. Declarations in the record demonstrate
that some patients have already exceeded the
gestational age limit to obtain an abortion in Texas
while the Executive Order has been in place.
Hagstrom Miller Decl. ¶ 27; Johnson Decl. ¶ 10;
Nguyen Decl. ¶¶ 7–8, 11; Ward Decl. ¶¶ 12–13, 16.
29. The health risks associated with both
pregnancy and abortion increase with gestational age.
Dewitt-Dick Decl. ¶ 22; Ferrigno Decl. ¶ 36; Hagstrom
Miller Decl. ¶ 35; Schutt-Aine Decl. ¶ 22; Macones
Decl. ¶ 8. As ACOG and other well-respected medical
professional organizations have observed, specifically
in relation to the COVID-19 pandemic, abortion “is an
essential component of comprehensive health care”
and “a time-sensitive service for which a delay of
several weeks, or in some cases days, may increase the

167a

risks [to patients] or potentially make it completely
inaccessible.” ACOG et al., Joint Statement on
Abortion Access During the COVID-19 Outbreak (Mar.
18, 2020);7 Schutt-Aine Decl. ¶ 22; Sharfstein Decl.
¶ 8.
30. In addition to increasing health risks, delayed
access to abortion imposes financial and emotional
costs on people with unwanted pregnancies. The cost
of an abortion increases with gestational age. DewittDick Decl. ¶ 22; Ferrigno Decl. ¶ 36; Hagstrom Miller
Decl. ¶ 35; Schutt-Aine Decl. ¶ 39. Women with
ongoing pregnancies must cope with the physical
symptoms of pregnancy, which often include morning
sickness and weight gain; must struggle to conceal
their pregnancies from abusive partners or family
members; and must deal with the stress and anxiety
of not knowing when—or if—they will be able to
obtain an abortion. Connor Decl. ¶ 11; Ferrigno Decl.
¶ 34; Hagstrom Miller Decl. ¶ 33; Nguyen Decl.
¶¶ 10–14; Northcutt Decl. ¶¶ 5–6; Ward Decl. ¶¶ 1617.
31. The court incorporates by reference the
findings of fact contained in the court’s March 30,
2020 Order Granting Plaintiffs’ Request for
Temporary Restraining Order. Planned Parenthood
Center for Choice v. Abbott, 1:20-CV-323-LY (W.D.
Tex. Mar. 30, 2020).
The court makes the following conclusions of law:
1. Plaintiffs have standing to bring their claim and
a justiciable controversy exists. See In re Abbott, No.
7 Available at https://www.acog.org/news/news-releases/
2020/03/joint-statement-on-abortionaccess-during-the-covid-19outbreak.

168a

20-50264, slip op. at 8 n.17, 2020 WL 1685929 (5th
Cir. Apr. 7, 2020). For purposes of sovereign
immunity, the governor and attorney general likely
have “some connection with the governor, Executive
Order at 3, consistent with the governor’s statutory
authority, Tex. Gov’t Code Ann. § 418.012. Similarly,
the attorney general has the authority to prosecute
Plaintiffs and their agents, at the request of local
prosecutors, for alleged violations of the Executive
Order, Tex. Gov’t Code Ann. § 402.028(a), and he has
publicly threatened enforcement against abortion
providers in particular.
2. Plaintiffs are entitled to the requested
temporary restraining order. In particular, the court
concludes that Plaintiffs are likely to succeed on the
merits of their substantive due-process claim because,
based on the court’s findings of fact, it is beyond
question that the Executive Order’s burdens outweigh
the order’s benefits as applied to Plaintiffs’ provision
of (1) medication abortion; and (2) procedural abortion
where, in the treating physician’s medical judgment,
the patient would otherwise be denied access to
abortion entirely because (a) the patient’s pregnancy
would reach 22 weeks LMP by April 21, 2020; or (b)
the patient’s pregnancy would reach 18 weeks LMP by
April 21, 2020, thus requiring abortion care at an ASC
and, in the judgment of the treating physician, the
patient is unlikely to be able to obtain an abortion at
an ASC before the patient’s pregnancy reaches the 22week cutoff. The court therefore concludes that
application of the Executive Order to these categories
of abortion care violates the standards set forth in
both
Planned
Parenthood
of
Southeastern
Pennsylvania v. Casey, 505 U.S. 833 (1992), and

169a

Jacobson v. Commonwealth of Massachusetts, 197
U.S. 11 (1905).
To women in these categories, the Executive
Order is an absolute ban on abortion. When a
temporary delay reaches 22 weeks LMP, the ban is not
temporary, it is absolute. A ban within a limited
period becomes a total ban when that period expires.
As a minimum, this is an undue burden on a woman’s
right to a previability abortion.
limited period becomes a total ban when that period
expires. As a minimum, this is an undue burden on a
woman’s right to a previability abortion.
3. Plaintiffs and their patients will suffer
irreparable harm in the absence of a temporary
restraining order; the balance of equities favors
Plaintiffs; and entry of a temporary restraining order
serves the public interest. In particular, the record
demonstrates that entry of a temporary restraining
order to restore abortion access would serve the State’s
interest in public health. See, e.g., Bassett Decl. ¶¶ 6–
8; Levison Decl. ¶¶ 20–23; Sharfstein Decl. ¶¶ 9–12.
4. The court incorporates by reference the
conclusions of law contained in the court’s March 30,
2020 Order Granting Plaintiffs’ Request for
Temporary Restraining Order. Planned Parenthood
Center of Choice, No. 1:20-CV-323-LY (W.D. Tex. Mar.
30, 2020).
Therefore,
IT IS ORDERED that Plaintiffs’ Second Motion
for Temporary Restraining Order (Dkt. #56), filed
April 8, 2020, is GRANTED.
IT IS FURTHER ORDERED that Defendants
and their employees, agents, successors, and all others

170a

acting in concert or participating with them are
TEMPORARILY RESTRAINED from enforcing
Executive Order GA-09, “Relating to hospital capacity
during the COVID-19 disaster,” and the Texas
Medical Board’s emergency amendment to Title 22
Texas Administrative Code section 187.57, as a
categorical ban on all abortions provided by Plaintiffs.
IT IS FURTHER ORDERED that Defendants
and their employees, agents, successors, and all others
acting in concert or participating with them, are
TEMPORARILY RESTRAINED from enforcing
Executive Order GA-09 and the Emergency Rule
against Plaintiffs or agents of Plaintiffs who provide
medication abortions.
IT IS FURTHER ORDERED that Defendants
and their employees, agents, successors, and all others
acting in concert or participating with them, are
TEMPORARILY RESTRAINED from enforcing
Executive Order GA-09 and the Emergency Rule
against Plaintiffs or agents of Plaintiffs who provide a
procedural abortion to any patient who, based on the
treating physician’s medical judgment, would be more
than 18 weeks LMP on April 22, 2020, and likely
unable to reach an ambulatory surgical center in
Texas or to obtain abortion care.
IT IS FURTHER ORDERED that Defendants
and their employees, agents, successors, and all others
acting in concert or participating with them, are
TEMPORARILY RESTRAINED from enforcing
Executive Order GA-09 and the Emergency Rule
against Plaintiffs or agents of Plaintiffs who provide a
procedural abortion to any patient who, based on the
treating physician’s medical judgment, would be past

171a

the legal limit for an abortion in Texas—22 weeks
LMP—on April 22, 2020.
IT IS FURTHER ORDERED that this
Temporary Restraining Order shall expire on April 19,
2020, at 4:25 pm. This order may be extended for good
cause, pursuant to Federal Rule of Civil Procedure 65.
Pursuant to an Agreed Stipulation for NonEnforcement Pending Final Resolution, Attorneys
Fees and Costs filed March 28, 2020 (Clerk’s Dkt. #25)
this order does not apply to Defendant Brian
Middleton, Criminal District Attorney for Fort Bend
County.
Plaintiffs shall not be required to post a bond. See
Kaepa, Inc. v. Achilles Corp., 76 F.3d 624, 628 (5th Cir.
1996).
This court’s April 8, 2020 Order (Dkt. #58) is not
affected by this order, and the parties shall continue
to comply with the April 8 order.
SIGNED this 9th day of April, 2020 at 4:25 p.m.
/s/ Lee Yeakel
LEE YEAKEL
UNITED STATES DISTRICT JUDGE

172a

Appendix F
IN THE UNITED STATES COURT OF
APPEALS FOR THE FIFTH CIRCUIT
____________
No. 20-50296
____________
In re: GREG ABBOTT, in his official capacity as
Governor of Texas; KEN PAXTON, in his official
capacity as Attorney General of Texas; PHIL
WILSON, in his official capacity as Acting Executive
Commissioner of the Texas Health and Human
Services Commission; STEPHEN BRINT CARLTON,
in his official capacity as Executive Director of the
Texas Medical Board; KATHERINE A. THOMAS, in
her official capacity as the Executive Director of the
Texas Board of Nursing,
Petitioners
____________
Petition for a Writ of Mandamus to the United States
District Court for the Western District of Texas
____________
Filed: April 10, 2020
____________
Before DENNIS, ELROD, and DUNCAN, Circuit
Judges.
____________

173a

PER CURIAM:
On April 7, 2020, we issued a writ of mandamus
directing the district court to vacate its temporary
restraining order (“TRO”) that exempted abortion
procedures from GA-09, an emergency executive order
issued on March 22 by the Governor of Texas
postponing certain non-essential medical procedures
for three weeks during the escalating COVID-19
pandemic. See In re Abbott, --- F.3d ---, 2020 WL
1685929 (5th Cir. April 7, 2020). As we explained, GA09 sought to preserve critical medical resources and
slow the spread of a pandemic during what the district
court itself recognized was Texas’s “worst public
health emergency in over a century.” Id. at *1, 4, 9. We
further explained that GA-09 “is a concededly valid
public health measure that applies to all ‘surgeries
and procedures,’ does not single out abortion, and . . .
has an exemption for serious medical conditions.” Id.
at *10.
In our opinion, we emphasized that the district
court had “scheduled a telephonic preliminary
injunction hearing for April 13, 2020, when all parties
will presumably have the chance to present evidence
on the validity of applying GA-09 in specific
circumstances.” Id. at *2. The evidence presented at
this hearing, we said, would allow the district court to
make “targeted findings, based on competent
evidence, about the effects of GA-09 on abortion
access.” Id. We emphasized that “those proceedings”
must “adhere to the controlling standards, established
by the Supreme Court over a century ago, for
adjudging the validity of emergency measures like
[GA-09].” Id. As we stated in our opinion, those
“controlling” standards come from the Supreme

174a

Court’s decision in Jacobson v. Commonwealth of
Massachusetts, 197 U.S. 11 (1905). In re Abbott, 2020
WL 1685929, at *1, 6–7. Having already painstakingly
explained those standards in our opinion, we reiterate
our holding:
[W]hen faced with a society-threatening
epidemic, a state may implement emergency
measures that curtail constitutional rights so
long as the measures have at least some “real
or substantial relation” to the public health
crisis and are not “beyond all question, a plain,
palpable invasion of rights secured by the
fundamental law.” Jacobson, 197 U.S. at 31.
Courts may ask whether the state’s
emergency measures lack basic exceptions for
“extreme cases,” and whether the measures
are pretextual—that is, arbitrary or
oppressive. Id. at 38. At the same time,
however, courts may not second-guess the
wisdom or efficacy of the measures. Id. at 28,
30.
In re Abbott, 2020 WL 1685929, at *7 (cleaned up).
We also articulated how the Jacobson framework
would apply to the Casey undue-burden analysis. Id.
at *11 (discussing Planned Parenthood of Se. Pa. v.
Casey, 505 U.S. 833 (1992)). We explained that this
analysis “ask[s] whether GA-09 imposes burdens on
abortion that ‘beyond question’ exceed its benefits in
combating the epidemic Texas now faces.” Id. (quoting
Jacobson, 197 U.S. at 31). We explained further that
this analysis would “require[] careful parsing of the
evidence,” and we noted some of the conflicting
evidence in the record. Id. But we emphasized that
“[t]hese are issues that the parties may pursue at the

175a

preliminary injunction stage, where Respondents will
bear the burden to prove, by a clear showing, that they
are entitled to relief . . . in any particular
circumstance.” Id. at *12 (cleaned up).
The day following our mandamus, April 8, 2020,
the district court did the following: (1) it vacated its
March 30 TRO (Doc. 54); (2) it cancelled the telephonic
preliminary injunction hearing previously scheduled
for April 13 (Doc. 54); and (3) it ordered the parties to
confer and propose a status report before April 15
setting out the parties’ agreement on procedures and
a schedule for a new preliminary injunction hearing
on a yet-unannounced date (Doc. 58).
Also on April 8, plaintiffs filed in the district court
a new application for TRO supported only by one
additional declaration (Doc. 56). The next day, April 9,
the district court—without allowing defendants either
to file a pleading or to submit evidence in opposition
to the TRO application—entered an order granting
plaintiffs a TRO (Doc. 63). The new TRO enjoins all
defendants from enforcing GA-09 against Plaintiffs or
their agents in the following ways: (1) it enjoins
enforcement of GA-09 “as a categorical ban on all
abortions provided by Plaintiffs”; (2) it enjoins
enforcement as to providing “medication abortions”;
(3) it enjoins enforcement as to providing “procedural
abortion[s] to any patient who, based on the treating
physicians’ medical judgment, would be more than 18
weeks LMP [“last menstrual period”] on April 22,
2020, and likely unable to reach an ambulatory
surgical center in Texas or to obtain abortion care”;
and, finally (4) it enjoins enforcement as to providing
“procedural abortion[s] to any patient who, based on
the treating physician’s medical judgment, would be

176a

past the legal limit for an abortion in Texas—22 weeks
LMP—on April 22, 2020.” (Doc. 63, at 14–15).
Texas officials have now filed a petition for writ of
mandamus seeking vacatur of the April 9 TRO, as well
as an emergency motion for stay of the TRO and a
temporary administrative stay of the TRO.
IT IS ORDERED that the motion for temporary
administrative stay of the district court’s order of
April 9, 2020 (Doc. 63) is GRANTED, until further
order of this court, to allow sufficient time to consider
the mandamus petition and emergency stay motion.
This stay operates against the April 9 TRO in all
respects EXCEPT that part of the TRO applying to
“any patient who, based on the treating physician’s
medical judgment, would be past the legal limit for an
abortion in Texas—22 weeks LMP—on April 22, 2020”
(Doc. 63, at 15). Our stay does not operate against that
part of the April 9 TRO.*1
IT IS FURTHER ORDERED that plaintiffsrespondents be directed to file a response to the
emergency stay motion no later than Saturday, April
11, 2020, at 8:00 p.m. Any reply by petitioners is due
no later than Monday, April 13, 2020, at noon.
IT IS FURTHER ORDERED that plaintiffsrespondents be directed to file a response to the
petition for writ of mandamus no later than Tuesday,
April 14, 2020, at 2:00 p.m. Any reply by petitioners is
due no later than Wednesday, April 15, 2020, at 2:00
p.m.

1* Judge Dennis dissents, in part, because he would not stay
any part of the district court’s April 9 TRO.

177a

Appendix G
IN THE UNITED STATES COURT OF
APPEALS FOR THE FIFTH CIRCUIT
____________
No. 20-50296
____________
In re: GREG ABBOTT, in his official capacity as
Governor of Texas; KEN PAXTON, in his official
capacity as Attorney General of Texas; PHIL
WILSON, in his official capacity as Acting Executive
Commissioner of the Texas Health and Human
Services Commission; STEPHEN BRINT CARLTON,
in his official capacity as Executive Director of the
Texas Medical Board; KATHERINE A. THOMAS, in
her official capacity as the Executive Director of the
Texas Board of Nursing,
Petitioners
____________
Petition for a Writ of Mandamus to the United States
District Court for the Western District of Texas
____________
Filed: April 11, 2020
____________
Before DENNIS, ELROD, and DUNCAN, Circuit
Judges.
____________

178a

PER CURIAM:
On April 10, 2020, we entered a partial
administrative stay of the district court’s April 9
temporary restraining order (“TRO”) against the
Texas Governor’s emergency executive order, GA-09.
In our previous mandamus opinion, we explained that
GA-09 seeks to preserve critical medical resources and
slow the spread of the COVID-19 pandemic by
postponing certain non-essential medical procedures
for three weeks until April 21, 2020. In re Abbott, --F.3d ---, 2020 WL 1685929, at *1 (5th Cir. Apr. 7,
2020). We further explained that GA-09 “is a
concededly valid public health measure that applies to
all ‘surgeries and procedures,’ does not single out
abortion, and . . . has an exemption for serious medical
conditions.” Id. at *1. The district court’s April 9 TRO
restrains operation of GA-09 as to three specific
categories of abortion procedures: (1) medication
abortions; (2) abortions for women who would be more
that 18 weeks LMP [“last menstrual period”] on April
22, 2020; and (3) abortions for women who would be
past the legal limit for an abortion in Texas—22 weeks
LMP—on April 22, 2020. Doc. 63. On April 10, Texas
officials sought mandamus relief in our court, as well
as filing motions for emergency stay of the TRO and
for a temporary administrative stay of the TRO
pending our consideration of the mandamus petition
and emergency stay motion. Later that same day, we
granted a partial administrative stay of the April 9
TRO. Our stay expressly does not apply to the third
category of abortions in the TRO—namely, abortions
for women who would on April 22 be past the legal
limit for abortions in Texas. See In re Abbott, No. 2050296, ECF 12 at 4 (5th Cir. Apr. 10, 2020). We
simultaneously ordered expedited briefing on the

179a

emergency stay motion to be completed by Monday,
April 13 at noon, and expedited briefing on the
mandamus petition to be completed by Wednesday,
April 15 at 2:00 pm. Id.
Our dissenting colleague insists there is
something untoward in our entering a temporary
administrative stay here. That is incorrect. Entering
temporary administrative stays so that a panel may
consider expedited briefing in emergency cases is a
routine practice in our court. See, e.g., M.D. by
Stukenberg v. Abbott, No. 18-40057, ECF 12 (5th Cir.
Jan. 19, 2018) (granting “temporary, administrative
stay . . . to provide sufficient time to receive any
opposition and fairly consider whether a formal stay
pending appeal should issue or whether this
temporary stay should be dissolved”) (Dennis,
Southwick, and Higginson, JJ.). This routine action
falls within the “power inherent in every court to
control the disposition of the causes on its docket with
economy of time and effort for itself, for counsel, and
for litigants.” Landis v. N. Am. Co., 299 U.S. 248, 254
(1936). Moreover, as we have explained, the panel has
ordered expedited briefing on the underlying stay
motion and mandamus petitions that will be
completed by Monday and Wednesday of next week,
respectively. The merits issues discussed by the
dissenting opinion will be more appropriately
addressed in the context of those expedited
proceedings.
IT IS ORDERED that respondents’ emergency
motion to lift the partial administrative stay entered
by this Court on April 10, 2020, is DENIED.

180a

JAMES L. DENNIS, Circuit Judge, dissenting.
I would grant the motion to lift the administrative
stay. As the petitioners note, the authority to
administratively stay a lower court order while this
court considers a matter is within our inherent
discretionary powers, and the standard for its use is
only that it is warranted in our reasoned judgment.
See Landis v. N. Am. Co., 299 U.S. 248, 254 (1936). So
too then is the power to lift such a stay, and I believe
doing so is warranted here.
The district court in this case reviewed the
evidence and made detailed factual findings as to why
applying the Executive Order to the classes of abortion
at issue here would not preserve personal protective
equipment or hospital capacity. Indeed, the district
court found that doing so would have a net negative
effect on the conservation of both resources and on the
overall effort to combat the COVID-19 pandemic. By
contrast, the district court found that temporarily
barring the respondents from performing these
procedures would permanently deny many people the
fundamental bodily autonomy to which they are
constitutionally entitled and subject many more to
greatly increased financial costs and elevated risk to
their health, safety, and general well-being. Based on
my preliminary review, these findings are not clearly
erroneous—the record is replete with accounts of the
devastating effect the Executive Order has already
had on these people’s lives, many of whom were
already experiencing great personal and economic
hardship as a result of the pandemic.
Thus, the administrative stay does not operate
simply to preserve the status quo to facilitate our
review of the lower court decision. Instead, the risk

181a

that it will inflict—and is currently inflicting—real,
tangible harm far outweighs the risk that harm may
result from leaving the district court’s order in effect
while we decide the petitioners’ emergency motion for
a stay on the merits. I therefore respectfully dissent.

182a

Appendix H
IN THE UNITED STATES COURT OF
APPEALS FOR THE FIFTH CIRCUIT
____________
No. 20-50296
____________
In re: GREG ABBOTT, in his official capacity as
Governor of Texas; KEN PAXTON, in his official
capacity as Attorney General of Texas; PHIL
WILSON, in his official capacity as Acting Executive
Commissioner of the Texas Health and Human
Services Commission; STEPHEN BRINT CARLTON,
in his official capacity as Executive Director of the
Texas Medical Board; KATHERINE A. THOMAS, in
her official capacity as the Executive Director of the
Texas Board of Nursing,
Petitioners
____________
Petition for a Writ of Mandamus to the United States
District Court for the Western District of Texas
____________
Filed: April 13, 2020
____________
Before DENNIS, ELROD, and DUNCAN, Circuit
Judges.
____________

183a

PER CURIAM:
On April 10, 2020, Petitioners filed an emergency
motion to stay the district court’s order (Doc. 63)
temporarily restraining executive order GA-09,
pending our consideration of their mandamus
petition. Having addressed emergency motions
concerning GA-09 more than once in the past week,
we refer readers to our description of this fast-moving
litigation elsewhere. See In re Abbott, --- F.3d ---, 2020
WL 1685929, at *2–4 (5th Cir. Apr. 7, 2020) (Abbott
II). For present purposes, suffice it to say that GA-09
is an emergency public health measure, issued by the
Governor of Texas on March 22, 2020, that postpones
non-essential surgeries and procedures until April 22
in the face of the COVID-19 pandemic. Id. at *2–3.
GA-09 applies to a broad range of procedures, does not
mention abortion, and contains exceptions for
procedures immediately necessary to preserve the life
or health of patients. Id. at *3, 9-10. GA-09 is
enforceable by both criminal and administrative
penalties and is currently set to expire after 11:59 p.m.
on April 21, 2020. Id. at *3.
On March 30, the district court entered a TRO
against GA-09 as applied to all abortion procedures.
Planned Parenthood Ctr. for Choice et al. v. Abbott,
2020 WL 1502102, at *4 (W.D. Tex. Mar. 30, 2020)
(Abbott I). We administratively stayed that TRO on
March 31 and, on April 7, we issued a writ of
mandamus directing the district court to vacate its
TRO. Abbott II, 2020 WL 1685929, at *2. In doing so,
we explained that the challenge to GA-09 must be
analyzed under the controlling legal standards set
forth in Jacobson v. Commonwealth of Massachusetts,
197 U.S. 11 (1905). See Abbott II, 2020 WL 1685929,

184a

at *2. We emphasized that our decision was based only
on the record before us, and that both sides would
presumably have a chance to present evidence
concerning narrower remedies at a preliminary
injunction hearing then scheduled for April 13. Id. at
*2.
The next day, April 8, the district court vacated its
TRO and cancelled the April 13 preliminary
injunction hearing. Doc. 54. The district court stated
it “anticipates that the governor will extend or amend
and extend [GA-09] to a date past April 21, 2020,” and
that “[i]t makes no sense to take up the request for [a]
preliminary injunction until the parties and the court
have the benefit of any subsequent order.” Doc. 58 at
3. The district court therefore ordered the parties to
confer and agree to a schedule and procedures for the
yet-undetermined preliminary injunction hearing. Id.
That same day Respondents sought another TRO,
which the district court granted the next day, April 9,
following a brief telephone hearing at which
Petitioners were not allowed to present evidence or file
an opposition. Transcr. of 4/9/20 Tel. Conf. at 14:39;
Planned Parenthood Ctr. for Choice v. Abbott, 2020
WL 1815587 (W.D. Tex. Apr. 9, 2020) (Abbott III). The
April 9 TRO prevents GA-09 from applying, until
April 19, to three categories of abortion: (1) medication
abortions; (2) abortions for women who would be more
than 18 weeks LMP (“last menstrual period”) by April
22 and unable to reach an ambulatory surgical center;
and (3) abortions for women who would be past
Texas’s legal limit—22 weeks LMP—for abortion by
April 22. Abbott III, 2020 WL 1815587, at *7. On April
10, Petitioners sought another writ of mandamus from
our court, as well as an emergency stay. Later that

185a

day, we granted a partial administrative stay of the
TRO, except as to the part applying to women who
would be 22 weeks LMP by April 22. We expedited
briefing on both the emergency stay motion and the
mandamus petition.
We now consider Petitioners’ motion for
emergency stay of the April 9 TRO as it applies to the
provision of medication abortions. Four factors guide
our analysis: (1) whether Petitioners have made a
strong showing of entitlement to mandamus; (2)
whether Petitioners will be irreparably harmed
absent a stay; (3) whether other parties will be
substantially harmed by a stay; and (4) the public
interest. See Nken v. Holder, 556 U.S. 418, 426 (2009);
ODonnell v. Goodhart, 900 F.3d 220, 223 (5th Cir.
2018). “The first two factors are the most critical.”
ODonnell, 900 F.3d at 223 (citing Barber v. Bryant,
833 F.3d 510, 511 (5th Cir. 2016)).
The first inquiry is whether Petitioners have
made a strong showing they are entitled to
mandamus. Nken, 556 U.S. at 426. To be entitled to
mandamus relief, Petitioners must demonstrate, inter
alia, “a clear abuse of discretion that produces
patently erroneous results.” In re JPMorgan Chase &
Co., 916 F.3d 494, 500 (5th Cir. 2019) (cleaned up). We
have serious concerns about whether the district
court’s April 9 TRO adhered to our order in Abbott II.
For example, despite citing the decision once, the TRO
does not discuss or apply “the framework governing
emergency public health measures like GA-09,”
established by the Supreme Court in Jacobson. Abbott
II, 2020 WL 1685929, at *1. Nor does the TRO appear
to “careful[ly] pars[e] . . . the evidence,” id. at *11,
developed after a hearing at which “all parties [would]

186a

presumably have the chance to present evidence on
the validity of applying GA-09 in specific
circumstances,” id. at *2—something our decision
emphasized.1 Finally, the TRO persists in “usurp[ing]
the state’s authority to craft emergency health
measures” by “substitut[ing] [the court’s] own view of
the efficacy of applying GA-09 to abortion.” Id. at *1;
cf. Abbott III, 2020 WL 1815587, at *4 (finding
“delaying access to abortion will not conserve
[personal
protective
equipment]”
“[b]ecause
individuals with ongoing pregnancies require more inperson healthcare . . . than individuals who have
previability abortions”).
Conversely, however, we have doubts about
Petitioners’ showing as to medication abortions. As to
that category, Respondents argue that medication
abortions are not covered by GA-09 because neither
dispensing medication nor ancillary diagnostic
elements (such as a physical examination or
ultrasound) qualify as “procedures.” Guidance by the
Texas Medical Board may support this interpretation
of the order.2 Furthermore, the parties’ helpful
1 See, e.g., id. at *2 (noting “[t]he district court has scheduled
a telephonic preliminary injunction hearing for April 13, 2020,”
after which the court could “make targeted findings, based on
competent evidence, about the effects of GA-09 on abortion
access”); id. at *12 (noting that the question of a narrowly
tailored injunction could be pursued by “the parties . . . at the
preliminary injunction stage”); id. at *13 (noting that
“Respondents will have the opportunity, of course, to present
additional evidence” on pretext “in conjunction with the district
court’s preliminary injunction hearing scheduled for April 13,
2020”).
2 See Texas Medical Board, Frequently Asked Questions
Regarding Non-Urgent, Elective Surgeries and Procedures
During Texas Disaster Declaration for COVID-19 Pandemic

187a

written responses to our questions did not settle
whether GA-09 applies to medication abortions. Given
the ambiguity in the record, we conclude on the
briefing and record before us that Petitioners have not
made the requisite strong showing of entitlement to
mandamus relief. Because a failure on that first
inquiry is sufficient to deny the stay, we need not
proceed to the remaining prongs.
We express no ultimate decision on the ongoing
mandamus proceeding or on the remaining aspects of
the emergency stay motion.
***
IT IS ORDERED that Petitioners’ emergency
motion to stay the district court’s April 9 TRO is
DENIED as to medication abortions. We also
DISSOLVE the temporary administrative stay as it
applies to medication abortions.
JAMES L. DENNIS, Circuit Judge, concurring.
I concur in the majority’s conclusion that the
petitioners have failed to make a strong showing that
they are entitled to mandamus with respect to
medication abortions. The petitioners’ stated desire to
enforce GA-09 against medication abortions despite
the executive order’s apparent inapplicability is a
strong indication that the enforcement is pretextual
and does not bear a “‘real or substantial relation’ to
the public health crisis” we are experiencing. In re
(Mar. 29, 2020), http://www.tmb.state.tx.us/idl/59C97062-84FABB86-91BF-F9221E4DEF17 (explaining “[a] ‘procedure’ [under
GA-09] does not include physical examinations, non-invasive
diagnostic tests, the performing of lab tests, or obtaining
specimens to perform laboratory tests”).

188a

Abbott, --- F.3d ---, 2020 WL 1685929, at *7 (5th Cir.
Apr. 7, 2020) (quoting in Jacobson v. Commonwealth
of Massachusetts, 197 U.S. 11, 31 (1905).
I disagree, however, with the majority’s
unnecessary critique of the district court’s decision. I
believe the district court properly exercised its
inherent authority “to manage [its] own affairs so as
to achieve the orderly and expeditious disposition of
cases” in choosing to issue a second TRO rather than
to immediately proceed to a hearing on a preliminary
injunction as the majority suggested in its last
mandamus opinion. Chambers v. NASCO, Inc., 501
U.S. 32, 43 (1991) (quoting Link v. Wabash R. Co., 370
U.S. 626, 630–631 (1962)). Further, far from
“usurp[ing] the state’s authority to craft emergency
health measures” by “substitut[ing] [the court’s] own
view of the efficacy of applying GA-09 to abortion,” I
believe the court properly considered the evidence to
determine whether “beyond question, GA-09’s
burdens outweigh its benefits” when applied to
medication abortions, as the majority previously
instructed. Abbott, 2020 WL 1685929, at *1, 9
(internal quotations omitted).
Accordingly, I concur only in the denial of the
petitioner’s emergency motion as it applies to
medication abortions and to the corresponding
dissolving of the administrative stay.

189a

Appendix I
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
AUSTIN DIVISION
____________
No. A-20-CV-323-LY
____________
PLANNED PARENTHOOD CENTER FOR
CHOICE, PLANNED PARENTHOOD OF GREATER
TEXAS SURGICAL HEALTH SERVICES,
PLANNED PARENTHOOD SOUTH TEXAS
SURGICAL CENTER, WHOLE WOMAN’S
HEALTH, WHOLE WOMAN’S HEALTH
ALLIANCE, SOUTHWESTERN WOMEN’S
SURGERY CENTER, BROOKSIDE WOMEN’S
MEDICAL CENTER PA D/B/A BROOKSIDE
WOMEN’S HEALTH CENTER AND AUSTIN
WOMEN’S HEALTH CENTER, ROBIN WALLACE,
M.D., M.A.S., AND HOUSTON WOMEN’S CLINIC,
PLAINTIFFS,
v.
GREG ABBOTT, GOVERNOR OF TEXAS, KEN
PAXTON, ATTORNEY GENERAL OF TEXAS, PHIL
WILSON ACTING EXECUTIVE COMMISSIONER
OF THE TEXAS HEALTH AND HUMAN
SERVICES COMMISSION, STEPHEN BRINT
CARLTON, EXECUTIVE DIRECTOR OF THE
TEXAS MEDICAL BOARD, KATHERINE A.
THOMAS, EXECUTIVE DIRECTOR OF THE

190a

TEXAS BOARD OF NURSING, EACH IN THEIR
OFFICIAL CAPACITY, AND MARGARET MOORE,
DISTRICT ATTORNEY FOR TRAVIS COUNTY,
JOE GONZALES, CRIMINAL DISTRICT
ATTORNEY FOR BEXAR COUNTY, JAIME
ESPARZA, DISTRICT ATTORNEY FOR EL PASO
COUNTY, JOHN CREUZOT, DISTRICT
ATTORNEY FOR DALLAS COUNTY, SHAREN
WILSON, CRIMINAL DISTRICT ATTORNEY
TARRANT COUNTY, RICARDO RODRIGUEZ, JR.,
CRIMINAL DISTRICT ATTORNEY FOR HIDALGO
COUNTY, BARRY JOHNSON, CRIMINAL
DISTRICT ATTORNEY FOR MCLENNAN
COUNTY, KIM OGG, CRIMINAL DISTRICT
ATTORNEY FOR HARRIS COUNTY, AND BRIAN
MIDDLETON CRIMINAL DISTRICT ATTORNEY
FOR FORT BEND COUNTY, EACH IN THEIR
OFFICIAL CAPACITY,
DEFENDANTS.
____________
Filed: April 14, 2020
____________
ORDER EXTENDING ORDER GRANTING
PLAINTIFFS’ SECOND MOTION FOR
TEMPORARY RESTRAINING ORDER AND
SCHEDULING ORDER FOR PLAINTIFFS’
MOTION FOR PRELIMINARY INJUNCTION
____________
Before the court in the above styled and numbered
cause is the parties’ Joint Status Report filed this day
(Clerk's Doc. #78). The court finds there is good cause

191a

to schedule Plaintiffs’ Motion for Preliminary
Injunction (Clerk’s Doc. #7) for hearing and to extend
the existing temporary restraining order so that the
court and parties have adequate time to prepare for
that hearing.
IT IS ORDERED that the Order Granting
Plaintiffs’ Second Motion For Temporary Restraining
Order entered April 9, 2020 (Clerk’s Doc. #63), is
EXTENDED in its entirety under its same terms
and conditions except as MODIFIED by the
orders of the United States Court of Appeals for the
Fifth Circuit rendered April 10, 2020, and April 13,
2020, until 5:00 p.m. on May 1, 2020. See Fed. R.
Civ. P. 65(b)(2).
IT IS FURTHER ORDERED that Plaintiffs'
Motion for Preliminary Injunction is set for a
telephonic hearing on April 29, 2020, at 9:30 a.m.
Each side will have one hour. As agreed by the parties,
there will be no live testimony at the hearing. The
court will consider the parties’ declarations, affidavits,
designations, and exhibits (“supporting evidence”), as
well as any stipulations of the parties.
IT IS FURTHER ORDERED that any party
desiring the court to consider previously filed briefing
or supporting evidence shall specifically designate the
briefing or supporting evidence at the time the party
files its first brief described below.
IT IS FURTHER ORDERED that:
Plaintiffs may serve and file additional briefing,
limited to 25 pages, and any additional supporting
evidence on or before April 17, 2020, at 5:00 p.m.
Defendants may serve and file a response brief,
limited to 25 pages, and any additional supporting

192a

evidence on or before April 21, 2020, at 5:00 p.m.
In the response brief, Defendants may address any
extension, modification, or superseding order related
to the governor's Executive Order No. GA-09.
Plaintiffs may serve and file a reply brief, limited
to 10 pages, with any supporting evidence and may
address any extension, modification, or superseding
order related to the governor’s Executive Order No.
GA-09 on or before April 23, 2020, at 5:00 p.m.
Defendants may serve and file a rebuttal brief,
limited to 10 pages, with any supporting evidence on
or before April 24, 2020, at 5:00 p.m.
The parties may file Stipulations of Fact on or
before April 24, 2020, at 5:00 p.m.
The parties shall file detailed Proposed Findings
of Fact and Conclusions of Law on or before April
27, 2020, at 5:00 p.m. The parties should not presume
that the court will allow amendments or supplements.
SIGNED this 14th day of April, 2020.
/s/ Lee Yeakel
LEE YEAKEL
UNITED STATES DISTRICT JUDGE

193a

Appendix J
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
AUSTIN DIVISION
____________
No. A-20-CV-323-LY
____________
PLANNED PARENTHOOD CENTER FOR
CHOICE, PLANNED PARENTHOOD OF GREATER
TEXAS SURGICAL HEALTH SERVICES,
PLANNED PARENTHOOD SOUTH TEXAS
SURGICAL CENTER, WHOLE WOMAN’S
HEALTH, WHOLE WOMAN’S HEALTH
ALLIANCE, SOUTHWESTERN WOMEN’S
SURGERY CENTER, BROOKSIDE WOMEN’S
MEDICAL CENTER PA D/B/A BROOKSIDE
WOMEN’S HEALTH CENTER AND AUSTIN
WOMEN’S HEALTH CENTER, ROBIN WALLACE,
M.D., M.A.S., ALAMO CITY SURGERY CENTER
PLLC D/B/A ALAMO WOMEN’S REPRODUCTIVE
SERVICES, AND HOUSTON WOMEN’S CLINIC,
PLAINTIFFS,
v.
GREG ABBOTT, GOVERNOR OF TEXAS, KEN
PAXTON, ATTORNEY GENERAL OF TEXAS, PHIL
WILSON ACTING EXECUTIVE COMMISSIONER
OF THE TEXAS HEALTH AND HUMAN
SERVICES COMMISSION, STEPHEN BRINT
CARLTON, EXECUTIVE DIRECTOR OF THE

194a

TEXAS MEDICAL BOARD, KATHERINE A.
THOMAS, EXECUTIVE DIRECTOR OF THE
TEXAS BOARD OF NURSING, EACH IN THEIR
OFFICIAL CAPACITY, AND MARGARET MOORE,
DISTRICT ATTORNEY FOR TRAVIS COUNTY,
JOE GONZALES, CRIMINAL DISTRICT
ATTORNEY FOR BEXAR COUNTY, JAIME
ESPARZA, DISTRICT ATTORNEY FOR EL PASO
COUNTY, JOHN CREUZOT, DISTRICT
ATTORNEY FOR DALLAS COUNTY, SHAREN
WILSON, CRIMINAL DISTRICT ATTORNEY
TARRANT COUNTY, RICARDO RODRIGUEZ, JR.,
CRIMINAL DISTRICT ATTORNEY FOR HIDALGO
COUNTY, BARRY JOHNSON, CRIMINAL
DISTRICT ATTORNEY FOR MCLENNAN
COUNTY, KIM OGG, CRIMINAL DISTRICT
ATTORNEY FOR HARRIS COUNTY, AND BRIAN
MIDDLETON CRIMINAL DISTRICT ATTORNEY
FOR FORT BEND COUNTY, EACH IN THEIR
OFFICIAL CAPACITY,
DEFENDANTS.
____________
Filed: April 21, 2020
____________
ORDER
____________
On April 9, 2020, this court entered an Order
Granting Plaintiffs’ Second Motion for a Temporary
Restraining Order (Dkt. #63). On April 20, 2020, the
United States Court of Appeals for the Fifth Circuit

195a

issued an opinion on several Defendants’ request for a
writ of mandamus and directed this court to
vacate any part of the April 9 TRO that (1)
restrains enforcement of GA-09 as a
“categorical ban on all abortions provided by
Plaintiffs;” (2) restrains the Governor and
Attorney General; (3) restrains enforcement of
GA-09 after 11:59 p.m. on April 21, 2020; (4)
restrains enforcement of GA-09 as to
medication abortions; and (5) restrains
enforcement of GA-09 as to abortions for
patients who will reach 18 weeks LMP during
the operation of GA-09 and would be
“unlikely” to obtain abortion services in Texas.
In re Abbott, No. 20-50296 (April 20, 2020). Solely
because of the circuit court’s order, this court
VACATES only the following portions of the court’s
April 9, 2020 Order:
any part of the April 9 TRO that (1) restrains
enforcement of GA.09 as a “categorical ban on all
abortions provided by Plaintiffs;” (2) restrains the
Governor and Attorney General; (3) restrains
enforcement of GA-09 after 11:59 p.m. on April 21,
2020; (4) restrains enforcement of GA-09 as to
medication abortions; and (5) restrains enforcement of
GA-09 as to abortions for patients who will reach 18
weeks LMP during the operation of GA-09 and would
be “unlikely” to obtain abortion services in Texas.
In all other respects, the court’s April 9, 2020
order remains in full force and effect.

196a

SIGNED this 21st day of April, 2020.
/s/ Lee Yeakel
LEE YEAKEL
UNITED STATES DISTRICT JUDGE

197a

Appendix K
IN THE UNITED STATES COURT OF
APPEALS FOR THE FIFTH CIRCUIT
____________
No. 20-50264
____________
In re: GREG ABBOTT, in his official capacity as
Governor of Texas; KEN PAXTON, in his official
capacity as Attorney General of Texas; PHIL
WILSON, in his official capacity as Acting Executive
Commissioner of the Texas Health and Human
Services Commission; STEPHEN BRINT CARLTON,
in his official capacity as Executive Director of the
Texas Medical Board; KATHERINE A. THOMAS, in
her official capacity as the Executive Director of the
Texas Board of Nursing,
Petitioners
____________
Petition for a Writ of Mandamus to the United States
District Court for the Western District of Texas
____________
Filed: April 22, 2020
____________
ORDER:
IT IS ORDERED that Respondents’ opposed
motion to recall the mandate pending petition for
rehearing/rehearing en banc and to stay the mandate

198a

pending filing of a petition for a writ of certiorari is
DENIED.
/s/ Stuart Kyle Duncan
STUART KYLE DUNCAN
UNITED STATES CIRCUIT JUDGE

199a

Appendix L
IN THE UNITED STATES COURT OF
APPEALS FOR THE FIFTH CIRCUIT
____________
No. 20-50296
____________
In re: GREG ABBOTT, in his official capacity as
Governor of Texas; KEN PAXTON, in his official
capacity as Attorney General of Texas; PHIL
WILSON, in his official capacity as Acting Executive
Commissioner of the Texas Health and Human
Services Commission; STEPHEN BRINT CARLTON,
in his official capacity as Executive Director of the
Texas Medical Board; KATHERINE A. THOMAS, in
her official capacity as the Executive Director of the
Texas Board of Nursing,
Petitioners
____________
Petition for a Writ of Mandamus to the United States
District Court for the Western District of Texas
____________
Filed: April 22, 2020
____________
ORDER:
IT IS ORDERED that Respondents’ opposed
motion to recall the mandate pending petition for
rehearing/rehearing en banc and to stay the mandate

200a

pending filing of a petition for a writ of certiorari is
DENIED.
/s/ Stuart Kyle Duncan
STUART KYLE DUNCAN
UNITED STATES CIRCUIT JUDGE

201a

Appendix M
Executive Order
BY THE
GOVERNOR OF THE STATE OF TEXAS
Executive Department
Austin, Texas
March 22, 2020
EXECUTIVE ORDER
GA 09
Relating to hospital capacity during the
COVID-19 disaster.
____________
WHEREAS, I, Greg Abbott, Governor of Texas,
issued a disaster proclamation on March 13, 2020,
certifying under Section 418.014 of the Texas
Government Code that the novel coronavirus (COVID19) poses an imminent threat of disaster for all
counties in the State of Texas; and
WHEREAS, the Texas Department of State
Health Services has determined that, as of March 19,
2020, COVID-19 represents a public health disaster
within the meaning of Chapter 81 of the Texas Health
and Safety Code; and
WHEREAS, on March 19, 2020, I issued an
executive order in accordance with the President’s
Coronavirus Guidelines for America, as promulgated
by President Donald J. Trump and the Centers for
Disease Control and Prevention (CDC), and mandated

202a

certain obligations for Texans that are aimed at
slowing the spread of COVID- 19; and
WHEREAS, a shortage of hospital capacity or
personal protective equipment would hinder efforts to
cope with the COVID-19 disaster; and
WHEREAS, hospital capacity and personal
protective equipment are being depleted by surgeries
and procedures that are not medically necessary to
correct a serious medical condition or to preserve the
life of a patient, contrary to recommendations from
the President’s Coronavirus Task Force, the CDC, the
U.S. Surgeon General, and the Centers for Medicare
and Medicaid Services; and
WHEREAS,
various
hospital
licensing
requirements would stand in the way of implementing
increased occupancy in the event of surge needs for
hospital capacity due to COVID-19; and
WHEREAS, the “governor is responsible for
meeting . . . the dangers to the state and people
presented by disasters” under Section 418.011 of the
Texas Government Code, and the legislature has
given the governor broad authority to fulfill that
responsibility; and
WHEREAS, under Section 418.012, the “governor
may issue executive orders . . . hav[ing] the force and
effect of law;” and
WHEREAS, under Section 418.016(a), the
“governor may suspend the provisions of any
regulatory statute prescribing the procedures for
conduct of state business or the orders or rules of a
state agency if strict compliance with the provisions,
orders, or rules would in any way prevent, hinder, or
delay necessary action in coping with a disaster;” and

203a

WHEREAS, under Section 418.173, failure to
comply with any executive order issued during the
COVID-19 disaster is an offense punishable by a fine
not to exceed $1,000, confinement in jail for a term not
to exceed 180 days, or both fine and confinement.
NOW, THEREFORE, I, Greg Abbott, Governor of
Texas, by virtue of the power and authority vested in
me by the Constitution and laws of the State of Texas,
do hereby order that, beginning now and continuing
until 11:59 p.m. on April 21, 2020, all licensed health
care professionals and all licensed health care
facilities shall postpone all surgeries and procedures
that are not immediately medically necessary to
correct a serious medical condition of, or to preserve
the life of, a patient who without immediate
performance of the surgery or procedure would be at
risk for serious adverse medical consequences or
death, as determined by the patient’s physician;
PROVIDED, however, that this prohibition shall
not apply to any procedure that, if performed in
accordance with the commonly accepted standard of
clinical practice, would not deplete the hospital
capacity or the personal protective equipment needed
to cope with the COVID-19 disaster.
At the request of the Texas Health and Human
Services Commission, I hereby suspend the following
provisions to the extent necessary to implement
increased occupancy in the event of surge needs for
hospital capacity due to COVID-19:
25 TAC Sec. 133.162(d)(4)(A)(iii)(I);
25 TAC Sec. l33.163(t)(1)(A)(i)(II)–(III);
25 TAC Sec. l33.163(f)(1)(B)(i)(III)–(IV);
25 TAC Sec. 133.163(m)(1)(B)(ii);

204a

25 TAC Sec. 133.163(t)(1)(B)(iii)–(iv);
25 TAC Sec. 133.l63(t)(1)(C);
25 TAC Sec. 133.l63(t)(5)(B)–(C); and
any other pertinent regulations or statutes, upon
written approval of the Office of the Governor.
This executive order shall remain in effect and in
full force until 11:59 p.m. on April 21, 2020, unless it
is modified, amended, rescinded, or superseded by me
or by a succeeding governor.
Given under my hand this the 22nd day
of March, 2020.
/s/ Greg Abbott
GREG ABBOTT
Governor
ATTESTED BY:
/s/ Ruth R. Hughs
RUTH R. HUGHS
Secretary of State

205a

KEN PAXTON
Attorney General of Texas
(https://www.texasattorneygeneral.gov/)
____________
March 23, 2020
Health Care Professionals and Facilities,
Including
Abortion
Providers,
Must
Immediately Stop All Medically Unnecessary
Surgeries
and
Procedures
to
Preserve
Resources to Fight COVID-19 Pandemic
Texas Attorney General Ken Paxton today warned
all licensed health care professionals and all licensed
health care facilities, including abortion providers,
that, pursuant to Executive Order GA 09 issued by
Gov. Greg Abbott, they must postpone all surgeries
and procedures that are not immediately medically
necessary.
On Saturday, Gov. Abbott issued an executive
order that “all licensed health care professionals and
all licensed health care facilities shall postpone all
surgeries and procedures that are not immediately
medically necessary to correct a serious medical
condition of, or to preserve the life of, a patient who
without immediate performance of the surgery or
procedure would be at risk for serious adverse medical
consequences or death, as determined by the patient's
physician.” This prohibition applies throughout the
State and to all surgeries and procedures that are not
immediately medically necessary, including routine
dermatological,
ophthalmological,
and
dental
procedures, as well as most scheduled healthcare
procedures that are not immediately medically

206a

necessary such as orthopedic surgeries or any type of
abortion that is not medically necessary to preserve
the life or health of the mother.
The COVID-19 pandemic has increased demands
for hospital beds and has created a shortage of
personal protective equipment needed to protect
health care professionals and stop transmission of the
virus. Postponing surgeries and procedures that are
not immediately medically necessary will ensure that
hospital beds are available for those suffering from
COVID-19 and that PPEs are available for health care
professionals. Failure to comply with an executive
order issued by the governor related to the COVID-19
disaster can result in penalties of up to $1,000 or 180
days of jail time.
“We must work together as Texans to
stop the spread of COVID-19 and ensure
that our health care professionals and
facilities have all the resources they need
to fight the virus at this time,” said
Attorney General Paxton. “No one is
exempt from the governor's executive
order
on
medically
unnecessary
surgeries and procedures, including
abortion providers. Those who violate
the governor’s order will be met with the
full force of the law.”
For information on the spread or treatment of
Coronavirus (COVID-19), please visit the Texas
Department
of
State
Health
Services
(https://dshs.texas.gov/coronavirus/) website.

207a

Texas Register
TITLE 22
PART 9
CHAPTER 187
SUBCHAPTER F
RULE §187.57
ISSUE
ACTION
Preamble

EXAMINING BOARDS
TEXAS MEDICAL BOARD
PROCEDURAL RULES
TEMPORARY SUSPENSION
AND RESTRICTION
PROCEEDINGS
Charge of the Disciplinary
Panel
04/03/2020
Emergency
Texas Admin Code Rule
____________

(a) The disciplinary panel shall determine from the
evidence or information presented to it whether a
person’s continuation in practice constitutes a
continuing threat to the public welfare.
(b) If the disciplinary panel determines that a person’s
continuation in practice would constitute a continuing
threat to the public welfare, the disciplinary panel
shall temporarily suspend or restrict the license of
that person.
(c) In accordance with the Act, §151.002(a)(2),
“continuing threat to the public welfare,” means a real
danger to the health of a physician’s patients or the
public caused through the physician’s lack of
competence, impaired status, performance of a non-

208a

urgent elective surgery or procedure, or failure to care
adequately for the physician’s patients. A real danger
exists if patients have an exposure to or risk of injury
that is not merely abstract, hypothetical or remote
and is based on actual actions or inactions of the
physician. Information that the physician has
committed similar actions or inactions in the past
shall be considered by the disciplinary panel.
(1) For purposes of this rule all licensed health
care professionals shall postpone all surgeries and
procedures that are not immediately medically
necessary to correct a serious medical condition of,
or to preserve the life of, a patient who without
immediate performance of the surgery or
procedure would be at risk for serious adverse
medical consequences or death, as determined by
the patient’s physician.
(2) Provided, however, that this prohibition shall
not apply to any procedure that, if performed in
accordance with the commonly accepted standard
of clinical practice, would not deplete the hospital
capacity or the personal protective equipment
needed to cope with the COVID- 19 disaster.
(d) The disciplinary panel may also temporarily
restrict or suspend a license of a person upon proof
that a person has been arrested for an offense under:
(1) Section 22.011(a)(2), Penal Code (sexual
assault of a child);
(2) Section
22.021(a)(1)(B),
Penal
(aggravated sexual assault of a child);

Code

(3) Section 21.02, Penal Code (continuous sexual
abuse of a young child or children); or

209a

(4) Section 21.11, Penal Code (indecency with a
child).
The agency certifies that legal counsel has reviewed
the emergency adoption and found it to be within the
state agency’s legal authority to adopt.
Filed with the Office of the Secretary of State on
March 23, 2020
TRD-202001217
Scott Freshour
General Counsel
Texas Medical Board
Effective date: March 23, 2020
Expiration date: July 20, 2020
For further information, please call: (512) 305-7016

210a

Due Process and Equal Protection Clauses
U.S. Const. amend. XIV, § 1
All persons born or naturalized in the United States,
and subject to the jurisdiction thereof, are citizens of
the United States and of the state wherein they reside.
No state shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the
United States; nor shall any state deprive any person
of life, liberty, or property, without due process of law;
nor deny to any person within its jurisdiction the
equal protection of the laws.

